                                                   FeR: eFFl81ltL USE ONb¥
                                                    INSPECTOR GENERAL 

                                                DEPARTMENT OF DEFENSE 

                                                   400 ARMY NAVY DRIVE 

                                              ARLINGTON, VIRGINIA 22202-4704 



                                                                                                    March 31, 2011

MEMORANDUM FOR DISTRIBUTION

SUBJECT: 	 Assessment of Allegations Concerning Traumatic Brain Injury Research Integrity in Iraq
           (Report No. SPO-2011 005)           R




We are providing this repo11 for review and comment. This report discusses our findings concerning the
integrity of a traumatic brain iJ~ury research project that was conducted in Iraq from December 2008­
March 2009.

In preparing our rep0l1, we considered comments from the following Department of Defense
Components: Under Secretary of Defense for Acquisition, Technology and Logistics; Commander,
U.S. Army Medical Command; and the Chief, Bureau of Medicine and Surgery. We have redirected
several recommendations and added recommendations; therefore, we request additional comments on
Recommendations A.I.1 - A.6.1; B.l.2; B.2.2; and B.3.2 by May 6, 2011.

DoD Directive 7650.3 requires that a1l recommendations be resolved promptly. If possible, send your
comments in electronic format (Adobe Acrobat file only) to SPO@dodig.mil. Copies of your comments
must have the actual signature ofthe authorizing official for your organization. We are unable to accept
the ISignedl symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNED.

We aOt,reclate       , ..1-<..,,. ..,,   ~~".."'" tothe staff during the conduct of this assessment. Please direct
questions                                    at (703) 604_(DSN 6 6 4 . , _ .




                                                   ~    Deputy
                                                                  . Moorefield
                                                                  spector General
                                                                                 d.s42
                                                        Special   ans and Operations




                                                   F6R OFPfCIAL USH OULY
                                                                                                                     b(6)
                                       FOR: OFFI611\L USE 6HLY 
 

Distribution:

Office of the Secretary of Defense
   Secretary of Defense 

   Deputy Secretary of Defense 

   Chainnan of the Joint Chiefs of Staff 

   Under Secretary of Defense for Acquisition, Technology and Logistics 
 

       Assistant Secretary of Defense for Research and Engineering 
 

   Under Secretary of Defense for Policy 
 

   Under Secretary of Defense for Personnel and Readiness 
 

       Assistant Secretary ofDefense for Health Affairs 
 

   Assistant Secretary of Defense (Legislative Affairs) 
 

   Assistant Secretary of Defense (Public Affairs) 
 

   Director, Joint Staff 

       Chainnan, Wounded Warrior Integration Team 
 

       Joint Staff Surgeon 


Department of the Army
   Secretary of the Army 
 

   Inspector General, Department of the Army 
 

   The Surgeon GeneraVCommander, U.S. Army Medical Command 
 


Department of the Navy
   Secretary of the Navy 

   Commandant of the I\.18rine Corps 

      Medical Officer of the Marine Corps 
 

   The Surgeon GeneraVChief, Bureau of Medicine and Surgery 
 

   Naval Inspector General 
 


Department of the Air Force
   Assistant Secretary of the Air Force (Financial Management and Comptroller) 
 

   The Surgeon General 
 


Combatant Commands
  Commander, U.S. Central Command
     U.S. Central Command Surgeon 
 

     Commander, U.S. Forces-Iraq 
 

            U.S. Forces-Iraq Surgeon

Chief, National Guard Bureau
   National Guard Bureau Surgeon

Congressional Committees and Subcommittees, Chairman and Ranking Minority Member
   Senate Committee on Appropriations, Subcommittee on Defense 

   Senate Committee on Armed Services 
 

   Senate Committee on Homeland Security and Governmental Affairs 
 

  House Committee on Appropriations, Subcommittee on Defense 
 

  House Committee on Armed Services 
 

  House Committee on Oversight and Government Reform 
 





                                       FOR OFFlGIAIs l::J'S"E   OnvY
                                        FOR OFFIOEltl:s YSE Otll:sY
Report No. SPO-2011-005 (Project No. D2009-DOOSPO-0242.00) 	 	                          March 31,2011

                Results in Brief: Assessment of Allegations
                Concerning Traumatic Brain Injury Research
                Integrity in Iraq
What We Did                                              What We Recommend
This assessment was initiated in response to             The Under Secretary of Defense for Acquisition,
allegations brought to the attention ofthe Department    Technology and Logistics:
of Defense, Office of Inspector Geneml, concerning       • 	 Update relevant medical research policies to
the integrity of a traumatic bmin injury research            ensure that procedures are in place to
project in Iraq. The overall objective ofthe                 adequately protect the rights of deployed
assessment was to review these allegations and               personnel from coercion and undue influence
determine whether:                                           to participate in research studies.
• 	 DoD guidance regarding the performance of            • 	 Coordinate with the Military services to ensure
    research on human subjects (in this case                 DoD and Service level medical research
    deployed, injured u.s. Military personnel in Iraq)       policies are pertinent to research conducted in
    was violated in a DOD-approved clinical research         a joint-service environment. Specifically
    trial evaluating a treatment for mild traumatic          ensure there are clear lines of accountability
    brain injury.                                            and responsibility for the investigation of
• 	 Research misconduct occurred during this                 alleged research misconduct which may
    specific DoD-approved clinical research trial.           involve more than one Military service.
We visited organizations, conducted interviews, and      The Assistant Secretary of Defense for Health
reviewed records and standards pertinent to the          Mfairs:
conduct and oversight of the research protocol, "The     • 	 Conduct health assessments to determine if
Use of Anti-Oxidants to Reduce Sequela of Mild               there were any adverse effects on the health of
Traumatic Brain Injury (mTBI) After Blast                    the U.S. Service members who participated in
Exposure," conducted at Camp Al Taqaddum, Iraq,              the mTBI clinical trial.
between December 2008 and March 2009. We                 • 	 Coordinate a review of the Joint Theater
considered both U.s. Navy and U.S. Army                      Tmuma System (JTTS) Clinical Practice
regulations, because the Principal Investigator for          Guideline (CPG) "Management ofMild
this research was a U.s. Navy physician, and since           Tmumatic Bmin Injury (mTBI)/Concussion in
the U.S. Army Surgeon Geneml approved the DoD                the Deployed Setting."
Assumnce of Compliance for the Multi-National
Corps Iraq, setting standards for the conduct of         The U.S. Army Medical Command:
human-subject medical research in Iraq.                  • 	 Investigate potential medical research
What We Found                                                misconduct by a U.S. Navy physician and take
                                                             appropriate action as required.
We identified the following principal concerns:
                                                         • 	 Update relevant policies and procedures to
• 	 The management and conduct of the clinical trial         ensure a standardized approach to the conduct
    were inconsistent with military standards for            of medical research that provides an
    human subject medical rcsearch                           appropriate standard of protection for the
• 	 Possible sub-standard patient care                       rights and welfare of research participants.
• 	 Weaknesses in the process used to review and
    approve medical research in Iraq


                                        FOR OFFICVrJis USE UUbY
                                        POR OFPteIAL USE 6NVI

Report No. SPO-20ll-00S (Project No. D2009-DOOSPO-0242.00) 	 	                          March 31,2011

What We Recommend (cont.)                                 has taken action to update draft DoD Instruction
                                                          3216.02, "Protection of Human Subjects and
The U.S. Anny Medical Command (cont.):                    Adherence to Ethical Standards in DoD-Supported
• 	 Ensure that procedures are in place to                Research" accordingly.
    adequately address the use of nutritional             L.S. Anny Medical Command (USAl\1EDCOM):
    supplements as investigational drugs.
                                                          The Commanding General, USAl\1EDCOM
• 	 Ensure individuals involved in medical
                                                          generally concurred with our recommendations. We
    research receive training in the use of
                                                          commend the Commanding General and his staff for
    investigational drugs and applicable FDA
                                                          proactively implementing corrective actions for
    regulations.
                                                          many of the recommendations, and agreeing to take
• 	 Conduct a review of the Institutional Review          additional actions within the next several months.
    Board's deliberations which resulted in the           Furthermore, we appreciate their willingness to
    approval of the research protocol.                    complete an investigation into all allegations of
• 	 Conduct a review ofthe Deployed Combat                potential research misconduct.
    Casualty Research Team's report which                 U.S. Navy Bureau of Medicine and SUrgery
    evaluated the research at Camp AI Taqaddum.           (BUMED):
The U.S. Navy Bureau ofMedicine and Surgery:              BUMED concurred with several recommendations
• 	 Identify the research participants and conduct        and plans to take corrective action.
    a Quality of Care Review to determine
                                                                                       to their
    whether these Military service personnel
    received appropriate medical care.
• 	 Lpdate relevant policies and procedures to
    ensure a standardized approach to the conduct
    of medical research that provides an
    appropriate standard of protection for the
    rights and welfare of research participants.
    Ensure that procedures are in place to
    adequately address the use of nutritional             €i'QUQ)qhe Chief, BUMED did not concur with our
    supplements as investigational drugs.                 initial recommendation to conduct an investigation
                                                          into allegations of potential rcsearch misconduct.
• 	 Ensure all individuals involved in clinical           Specifically, he did not believe that the Navy had
    research receive training in the use of
                                                          any authority over this clinical trial since it was
    investigational drugs and Food and Drug
                                                          conducted under the direction and approval of the
    Administration regulations.                           U.S. Anny. Consequently, we revised the
                                                          recommendation and requested that the U.S. Army
Management Comments and 
 
                               complete any necessary investigation.
Our Response 
 
                                          Additional Recommendations: We added several
Under Secretarv of Defense for ACQuisition, 
 
           recommendations due to management comments.
Technology and Logistics (uSD [AT&L]): 
                  We request that the Assistant Secretary of Defense
                                                          for Health Affairs and the Commanding General,
The Assistant Secretary of Defense for Research and 
 

                                                          U.S. Anny Medical Command provide additional
Engineering, responding on behalf ofUSD(AT&L), 
 

                                                          comments to the final report by May 6, 2011. Please
generally concurred with our recommendations and 
 

                                                          see the recommendations table on the next page.

                                                     11


                                        F8R OFFlOI,PtI.., U~~ ONIs¥
                                                                                                             1:)(5)
Report No. SPO-20ll-005 (Project No. D2009-DOOSPO-0242.00)               March 31,2011


Recommendations Table

 Under Secretary of Defense for                                 C.S.l; C.5.2
 AcquiBition, Technology, and                                   C.6.1; C.6.2
 Logistics



U.S. Anny Surgeon General!        Al.I; A. 2.1;. A3.1; A.4.1;   C.l.I; C.1.2; C.l.3; C.1.4;
U.S. Anny Medical Command         A5.I; A.6.l                   C.1.S 

                                                                C.2.I; C.2.2; C.2.3; C.2A; 

                                                                C.2.S 

                                                                C.3.l; C.3.2; C.3.3 
 

                                                                CA.l; CA.2; CA.3 
 

                                                                C53; C.5A 





Please provide comments by May 6, 2011.




                                            111 


                              FOR OFFIOfl"rL USE ONLY 

    FOR OFFI01AL USE ONLY 





This Page Intentionally Left Blank




    FOR OFFIGI/rIs U!9E ONIsY
                            FOR O FFICIAL USE ONLY

Table of Contents
Results in Brief
Background and Objective                                                              1

Observation A. Medical Research Misconduct                                            5

 A.1 A potential financial conflict of interest was not disclosed                    7

 A.2 Source of funding used to support Clinical Trial is unclear                     9

 A.3 An Investigational New Drug application was not submitted to the Food and 

 Drug Administration                                                                11 

 AA There were deviations from the research protocol approved for this Clinical 
 

 Trial 15 

 A.5 Patients were exposed to possible coercion and undue influence                 17 

 A.6 Research data were disseminated prior to the conclusion of the study           21 

Observation B. Possible Sub-Standard Patient Care                                    25 

 B.1 Neurological assessments did not adhere to clinical practice guidelines for 
 

 mTBI27 

 B.2 The experimental drug was not approved by the Food and Drug 

 Administration for clinical study                                                   30 

 B.3 Medications contraindicated in the treatment of early mTBI were 
 

 administered                                                                        33 

Observation C. Weaknesses in the Process used to Review and 
 

Approve Medical Research in Iraq                                37 

 C.1   Identifying and addressing conflicts of interest                              39 

 C.2   Compliance with Food and Drug Administration regulations and guidelines       43 

 C.3   Communication during Scientific Peer Review                                   49 

 CA    Selection and assignment of the Medical Monitor                               54 

 C.5   Identification and protection of vulnerable populations                       57 

 C.6   Investigation of medical research misconduct in joint-service environments    62 

Appendix A. Scope and Methodology                                                    67 

Appendix B. Summary of Prior Coverage                                                69 

Appendix C. Acronyms and Abbreviations                                               70 

Appendix D. Summary of Process and Approximate Timeline                              72 

Appendix E. Sum mary of Deployed Research Team Report                                74 

Appendix F. Standards and Criteria                                                   77 

Appendix G. Management Com ments                                                     94 

Appendix H. DoD Inspector General Correspondence                                    118 





                            FOR OFFICJsJ\:L USE ONL¥
    FOR OFRCIAL USE OfUH




This Page Intentionally Left Blank




    fOR OffICIAL U!1g C»JLY
Background and Objective
Background
This assessment was initiated in June 2009, in response to a complaint brought to the
Department of Defense (000), Office of lnspector Oeneral (010), alleging that a military
physician was conducting sub-standard human subject research on deployed, injured
U.S. Service members in Iraq. This research protocol \ "1he Use of Anti-Oxidants to Reduce
Sequela of Mild Traumatic Brain Injury2 (mTBI) After Blast Exposure" (hereafter referred to
as the "Clinical Triae,,), was conducted by a U.S. Navy physician (hereafter referred to as the
"Investigator" or "Researcher") at Camp Al Taqaddum (hereafter referred to as "Camp TQ"),
Iraq, between December 2008 and March 2009.

The research protocol proposed that early treatment with the antioxidant n-Acetylcysteine
(NAC)4 could reduce the effects ofmTBI after a concussion, specifically, dizziness and
hearing loss. According to a U.S. Army official, this study was the first clinical drug trial
conducted with U.S. Service members in a combat zone. Potential human subjects for this
study were deployed U.S. Service members, recently exposed to a blast incident (e.g.,
improvised explosive devices) and evacuated to Camp TQ for evaluation and treatment.

Clinical Drug Trial at Camp TQ
Between December 2008 and March 2009, the lnvestigator conducted a clinical drug trial at
Camp TQ, using approximately 80 U.S. Service members as human subjects. The research
protocol was reviewed and authorized by the following U.S. Army medical research oversight
authorities. (For a summary ofthe process and an approximate timeline, please see
Appendix D.)

         Research Institutional OffICial The Multi-National Corps        Iraq (MNC-I) 5 Surgeon
         was the Research Institutional Official responsible for the review and approval of
         research protocols conducted in Iraq. His office had been designated by the



1 A research protocol is a formal document detailing the study methodology and the scientific basis for the
research to be conducted, and is used for review and approval of the research by oversight boards.
2 Mild traumatic brain injury (also called concussion) in military operational settings is dermed as an injury to
the brain resulting from an external force and/or acceleration/deceleration mechanism from an event such as a
blast, fall, direct impact or motor vehicle accident which causes an alteration in mental status. Related
symptoms may include: headache, nausea, vomiting, dizzinessfbalance problems, fatigue, insomnia/sleep
disturbances, drowsiness, sensitivity to light/noise, blurred vision, difficulty remembering and/or difficulty
concentrating.
3A clinical trial is human subject research, conducted to assess the safety and effectiveness of a new medication,
or a new dose or new indication for an existing medication.
4 n-Acetylcysteine   is an antioxidant derived from a naturally occurring amino acid.
~ :tv1NC-I and Multi-National Force - Iraq (:tv1NF-I) were merged into u.s. Forces - Iraq (USF-I) on Jan. 1,
2010.

                                                          1

                                         FOR OFFIOrAJs USE ONLY 

                                      F8:R: OFFIOIAIs ViR QNIs¥


        U.S. Army's Assistant Surgeon General for Force Projection to retain the DoD
        Assurance ofCompliance 6 (hereafter referred to as "DoD Assurance") for medical
        research in Iraq. Accordingly, U.S. Army regulations and procedures were applicable
        in reviewing the research protocol.

        Deployed Combat Casualty Research Team (referred to here as the "Deployed
        Research Team" or "DRT"). When this research protocol was requested, the DRT
        was physically located in Iraq, serving as research subject matter experts (SMEs) in
        support ofthe MNC-I Surgeon's role as responsible authority for the conduct of
        clinical research in Iraq. Members of the DRT had the conduct and facilitation of
        clinical research as their primary roles and clinical care as an additional duty.

        Human Protections Administrator (HPA). The MNC-I HPA was responsible for
        evaluating research protocols for compliance with regulations governing human
        subject research. The Deputy Director ofthe DRT served as the HP A as an additional
        duty. Once the scientific peer review was completed, the Deputy Director ofthe DRT
        submitted the protocol to an mstitutional Review Board for fmal evaluation.

        Institutional Review Board (IRB). The United States Army Human Research
        Protections Office, U.S. Army Office ofthe Surgeon General, is responsible for
        oversight of all human subject research conducted or supported by the Army or under
        an Army Assurance. The MNC-I Assurance (DoD A20146) and the MNC-I Human
        Research Protections Program identified the Brooke Army Medical Center's (BAMC)
        mstitutional Review Board (IRB) as the IRB ofrecord (hereafter referred to as the
        "BAMC IRB" or "IRB".) Accordingly, the BAMC IRB is responsible for evaluating
        the protocol for human subject protection and compliance with the scientific peer
        reviewer's recommendations.

        ScientifIC Peer Reviewers. The MNC-I's Human Research Protections Program plan
        requires scientific peer review to ensure that research is scientifically sound in its
        design and methods, and that the proposed research is worthy of performance.
        Specifically, the U.S. Army Institute for Surgical Research (USAISR) at Fort Sam
        Houston, TX, was responsible for the scientific peer review of Iraq research proposals.

        Medical Monitor. Medical monitors are assigned to "greater than minimal risk"
        clinical studies. They are required to be independent ofthe research protocol to ensure
        maximum protection for the human subjects participating in the clinical study. They
        are typically healthcare providers with sufficient educational and professional
        experience to afford them the requisite skills to perform this oversight role.




6An Assurance of Compliance (referred to as an "Assurance") is an official, legal document representing a
commitment made by an institution of the u.s. Government, assuring that all activities related to human research
will be guided by ethical principles and will comply with Federal regulations. An Assurance is required before
any human subject research can be conducted.
                                                       2
                                      FOR OFF1Qihtls I Ii'l! O}{r.Y
                                 PM: OFFICfolltL USB QiNIs:'f


Gray Team Report
In January 2009, the Chainnan ofthe Joint Chiefs of Staff ordered a review of in-theater
medical care provided to Service personnel suffering from TBI. This review was conducted
by the "Gray Team," a multi-disciplinary DoD team with combat medical experience, as well
as expertise in neurological, emergency, and trauma care. During February 2009, the Gray
Team conducted brief visits of multiple sites throughout Afghanistan and Iraq. While at
Camp TQ, the Gray Team identified concerns with the medical care ofmTBI patients and the
conduct of clinical research on mTBI patients. Specifically, the team identified concerns
related to possible coercion ofhuman research subjects, research protocol deviations, and
misrepresentation of research data. The Gray Team leader shared these concerns directly with
the US. Central Command (CENTCOM) Surgeon.

Deployed Research Team Report
As a result of concerns raised in the Gray Team report, the MNC-I Surgeon requested that the
Director and HPA from the DRT travel to Camp TQ to conduct a review of the Clinical Trial.
During their February 2009 visit, the DRT identified concerns related to the perceived
coercion of subjects, in addition to apparent premature claims oftreatment effectiveness.
After discussing these concerns with the Investigator, several recommendations were
implemented. (For a summary ofthe report, please see Appendix E.) Subsequently, the DRT
report found the research largely compliant with applicable Federal, DoD and Department of
the Anny human research protection laws and regulations, and it recommended that the study
be allowed to continue.

Complaint to DoD OIG
Despite the results ofthe Anny's research review completed by the DRT and implementation
of recommendations, a DoD official remained concerned that the Clinical Trial failed to meet
appropriate standards of scientific rigor, that the Investigator's conduct was not ethical, and
that the rights and welfare ofthe human research subjects were not appropriately protected.
Consequently, this official contacted the DoD OIG in June 2009 and filed a complaint. As a
result ofthat complaint, we initiated this assessment.

Objective
The overall objective ofthis assessment was to review the integrity ofmedical research
conducted in Iraq to study an experimental treatment for mTBI. Specifically, our goals were
to detennine whether, in the conduct ofthis medical research:
       • 	 DoD guidance was violated, regarding the perfonnance of research in Iraq on
           human subjects (U.S. Military personnel).
       • 	 Research misconduct occurred during this specific DoD-approved clinical research
           trial.
To achieve this objective, we reviewed the overall conduct ofthe Clinical Trial and potential
impact on the rights and welfare ofthe participants. Specifically, we visited DoD
organizations, conducted interviews, and reviewed records and standards pertinent to medical
research. These standards included relevant US. Anny and US. Navy regulations because,
while the principal investigator for this research was a US. Navy physician, the US. Anny
                                                 3

                                  FOR OFFIOfolltL USE Ol'lLY 
 

                              F8R OFFl9tAL USE ONLY


Surgeon General retained the DoD Assurance of Compliance for the Multi-National Corps­
Iraq to conduct human subject medical research in Iraq.




                                           4
                              FeR OFFIOil\L USE 8NL¥
       FOR OFFIOfAL USE OtlL¥




       Observation A. 
 

Medical Research Misconduct 
 





                 5

       FOR: OFHOlAL USE ONLY 
 

                                POR QPFlEHlds USE ONLY


Observation A. Medical Research Misconduct
The management and conduct ofthe Clinical Trial were mconsistent with military standards
for human subject medical research. Specifically, we identified concerns in the following
areas:

       A.l 	 A potential financial conflict of interest was not disclosed.
       A.2 	   Documentation of funding is unclear.
       A.3 	   An Investigational New Drug application was not submitted to the Food and
               Drug Administration.
       A.4 	   There were deviations from the protocol approved for the Clinical Trial.
       A.5 	   Patients were exposed to possible coercion or undue influence.
       A.6 	   Research data was disseminated prior to the conclusion ofthe study.

This was caused by possible violations of regulations and guidelines related to standards of
conduct and scientific rigor in the performance Qfhuman subject research.

As a result, the research integrity of the Clinical Trial was compromised. This jeopardized the
rights of the research participants, as well as the standing of DoD research in the scientific
community.




                                            6

                                FOR: OFfICtA:L USE eUVf 

                                 fOR OffIOh'tL USE OULY



A.1 	 A potential financia.l conflict of interest was not
      disclosed

   The Investigator was associated with patents involving NAC, the substance
   under examination in the Clinical Trial; however, this potential fmancial
   conflict of interest was not disclosed to the BAMC Institutional Review
   Board.


A.1 Applicable Criteria
• 	 18 United States Code (USC) Section 208, "Acts Affecting a Personal Financial Interest,"
    January 3, 2007, provides for criminal penalties for financial conflict of interest violations.
• 	 The Department of Defense's Regulation, DoD 5500.7-R, "Joint Ethics Regulation,"
    August 1, 1993, provides that a DoD military employee has a duty to follow ethics rules
    and specifically to disclose potential financial conflicts of interest.
• 	 Secretary of the Navy Instruction (SECNAVINSn 3900.39D, "Human Research
    Protection Program," November 6, 2006, defmes conflict of interest in section 6.b as "any
    situation in which financial or personal interests may compromise or present the
    appearance of compromising an individual's or group's judgment in supporting research."
    Additionally, "investigators must disclose all conflicts of interest, including any fmancial
    interests," to the IRB.
• 	 The Multi-National Corp Iraq's "Human Research Protection Program" (MNC-I
    HRPP), June 24, 2008, Section 3.2, states that an investigator is "obligated to disclose any
    possible conflict of interest prior to protocol review and approval." Additionally, this
    document identifies "possible conflicts of interest to include a proprietary interest in the
    tested product, including, but not limited to, a patent, a trademark, copyright, or licensing
    agreement. "

A.1 Findings
a. The Investigator was listed as an inventor on two U.S. patents which are associated with
the use of n-Acetylcysteine (NAC). Specifically:
   • 	 "Prevention or Reversal of Sensorineural Hearing Loss Through Biological 
 

       Mechanisms - Patent no.: US 6,177,434 BI, dated Jan. 23, 2001" 
 

   • 	 "Prevention or Reversal of Sensorineural Hearing Loss Through Biological 
 

       Mechanisms - Patent no.: US 6,649,621 B2, dated Nov. 18,2003" 
 

b. A review ofthe research protocol application, that was completed and submitted by the
Investigator, did not identity any conflicts of interest.

c. 	 We consulted with a counsel and intellectual property attorney at the Naval Medical
Research Command who stated that the two U.s. patents (listed under a.) ... "related to the
                                                7
                                 F8R 8FFl9IAis USE 81ilsY


methods of use ofNAC" as implicated in the research protocol." Additionally, this Navy
official explained that the "existence of these patents could have been disclosed" when the
Investigator submitted the research protocol to the IRB.

d. The Chairman ofthe BAMC IRB stated during an interview that the board was not aware
that the Investigator held patents that were related to the Clinical Trial. Additionally, he
acknowledged that the patents should have been disclosed during the research application
process. Furthermore, he explained that the IRB should have asked about any potential
conflicts of interest.

A.1 Discussion
The Investigator was listed as an inventor on u.s. patents, which specifically related to NAC,
the drug implicated in the Clinical Trial. However, neither the "Human Use Protocol"
template received by the BAMC IRB from the Investigator, or subsequent correspondence
with the Investigator, contained disclosure of this fact. Under military and federal medical
research regulations, disclosure of potential conflicts of interest is clearly defined as the
responsibility of the Investigator, but there was no indication that he adhered to this standard.
Consequently, the IRB did not consider the impact ofthe Investigator's NAC patents during
their review ofthe Clinical Trial, constraining their ability to make adequately informed
decisions. Furthermore, since the IRB lacked this pertinent information, it was impossible for
study participants to have been made aware of it under their right to informed consent.

A.1 Conclusion
The Investigator failed to disclose a potential conflict of interest that should have been
considered by the BAMC IRB prior to rendering a decision to approve the Clinical Trial.
Consequently, the conduct ofthe Clinical Trial was inconsistent with regulations governing
human subject medical research. As such, the validity ofthe research became questionable,
and the rights of the research participants were jeopardized.

A.1 Recommendations, Management Comments, and Our Response
Recommendation A.l.l Allegations of potential medical research misconduct by a
u.s. Navy physician were referred to the u.s. Navy for further investigation on
February 18, 2010.

U.S. Navy Bureau of Medicine and Surgery Comments
(FOUO, The Chief, Bureau of Medicine and Surgery (BUMED) did not concur with our
recommendation that the Navy conduct the investigation. He explained that although the
investigator was a Navy physician, he (the investigator) conducted his research efforts under
the Army's human research assurance issued to CENTCOM and the U.s. Army Brooke Army
Medical Center (BAMC) Institutional Review Board. Consequently, BUMED believed that
the Navy had no authority regarding this specific Clinical Trial nor would it have had any
cognizance of its conduct or progress. Therefore, the Chief, BUM ED recommended that
these allegations be assigned to the appropriate Army medical command that had the
responsibility for approval and oversight of the research.


                                                &
                                 FOR 8FFl9IAIs USE 81 tisY
Our Response
We concur with BUMED's recommendation. The Clinical Trial was conducted under the
authority ofMNC-I, a joint-service command in Iraq, which held the Anny's assurance giving
them the responsibility for the oversight of research in Iraq. Consequently, on March 7, 2011,
we requested that the Army complete the investigation into the allegations of potential
medical research misconduct (see Appendix H).

Revised and Redirected Recommendations
Recommendation A.l.1 is revised as follows:




     A. L 1 	 C	 ont\uct~1nvestigation 111toa11e~1i<wgofpotentiaJll1edical re~yarcli .
              misoon~yctbxaU ,8. Navyphys1#~an•.. Specifitmlly~jnvestigate the
              aUegatiOllsth~ttheregearchef failed ip disclose po~ntial fmancial c&iIfli(,ff;s
              Qfinter~lwhile Conducting research ·mlraq;




A.2 Source of funding used to support Clinical Trial is
    unclear

   The Office of Naval Research (ONR) was listed as the funding source to
   support the Clinical Triat however, ONR could not find any evidence that
   they provided the funding.

A.2 Findings
a. The research protocol application, that was completed and submitted by the Investigator,
cited that "Funds will be required to conduct the study (buy the medicine) but these funds
already exist as this study is pre-funded by the Office of Naval Research (ONR)."

b. An ONR official acknowledged that he could not find any evidence that ONR provided the
funding for the Clinical Trial.

c. Navy officials from the Naval Medical Center in San Diego, CA and the Naval Medical
Research Command (NMRC) in Silver Spring, MD stated that they could not locate funding
documents related to the Iraq research. Additionally, a senior official from NMRC clarified
that they had "suspended project funded during the time that (the Investigator) was deployed."

A.2 Discussion
The Investigator submitted a research protocol application to the IRB. In this     ~plication   he
                                              9
                                  FOR OFFIOIoiUs USE ONIs¥
                                FOlt OFFICl'A:L USB ONU!


identified that funds needed to support the Clinical Trial were provided by ONR. However, in
discussion with an ONR Navy official, they acknowledged that they could not fmd any
evidence that ONR provided funding to support the Clinical Trial at Camp TQ, Iraq.
Additionally, both Naval Medical Center San Diego and the Naval Medical Research
Command could not find any funding documents related to the Iraq research.

A.2 Conclusion
The funding documentation for the Clinical Trial is unclear and requires investigation.

A.2 Recommendations, Management Comments, and Our Response
Recommendation A.2.t Allegations of potential medical research misconduct by a
U.S. Navy physician were referred to the U.S. Navy for further investigation on
February 18,2010.

U.S. Navy Bureau of Medicine and Surgery Comments
(FODO, The Chief, Bureau of Medicine and Surgery (BUMED) concurred with our
recommendation and initiated an investigation into allegations surrounding the source of
funding for this Clinical Trial. The investigation was completed on February 4, 2011.
BUMED determined that "as strictly defined under federal regulations, research misconduct
per se was not discovered." However, they did acknowledge that a "lack of oversight,
regulatory violations, and non-compliance with research fmancial management standards"
were issues affecting the Research Protocol and other research system-wide.

~FOlsJO) Consequently, BUMED indicated that they would take several actions to address
these investigative findings. Specifically, BUMED will:

    • 	 (FOUO) Direct further investigation utilizing subject matter experts to more
        thoroughly detail compliance/non-compliance with research administration and
        management processes to include financial management standards. This investigation
        shall commence no later than March 31,2011.
    • 	 (»or TO} Issue regulations for financial management of research funds by June 30,
        201 L In addition, BUMED will establish a comprehensive Navy Medicine policy
        and regulation on research administration and management to include financial
        management standards and oversight. Expected completion date is October 31, 2011.
    • 	 (FOUe, Design, direct and implement comprehensive education and training
        conferences in research administration and management for research related personnel
        of all disciplines. This training will be completed within 60 days from the
        establishment of the Navy Medicine policy and regulation on research administration
        and management.

(FOUO) In addition, the Chief, BUMED recommended that the U.S. Army Medical
Command also conduct an investigation into the funding source for this research project given
that only the "Army would have access to specific information regarding use oftime, effort or
resources in the CENTCOM area of responsibility. "


                                              10
                                Felt OFFICh'tL USE OnLY
                                          Jilelt 6FFICIAL USE 6HVI


Our Response
The Chief, BUMED's comments are responsive and the actions meet the intent of the
recommendation as stated in the draft report. Once completed, BUMED should forward the
fmdings and results oftheir additional investigation into allegations surrounding compliance/
non-compliance with research administration and management processes to the DoD DIG.

EM'QUQ~   Furthermore, we concur with BUMEl)'s comments that additional investigation
may be needed to fully investigate all concerns related to the funding ofthis Clinical Trial.
Ihe Clinical Trial was conducted under the authority of MNC-I which held the Anny
assurance giving them the responsibility for the oversight ofresearch in Iraq. Consequently,
our position is that the Anny work collaboratively with BUMED to ensure that all concerns
are properly investigated.

Added Recommendations
As a result of BUMED's comments and our response we have added recommendation A,2.2
as follows:


        W~:re~~JDlIlendthattht!          U.S. ArInfMedicalponunand:

        {\.2.2 ·.P<>or<ijnai,¢With BX)MED t()ensure~~Iltf1a~rscOtlQf;rt1mg·1h~s()1,ltCe~f
                 f1.mdin& for 1;heCJinic~l Trllij.. ~fe1?rop.erlY investigated




A.3 An Investigational New Drug application was not
    submitted to the Food and Drug Administration

       The Clinical Trial examined the effectiveness of an experimental drug on
       human subjects, thereby requiring an Investigational New Drug (Il\TD)
       application. However, an IND was not submitted.


A.3 Applicable Criteria
• 	 21 Code of Federal Regulations (CFR), Part 312, "Investigational New Drug
    Application," April 1, 2008, states that an IND is required for the clinical investigation of
    a drug product supporting a new indication 7 for use, or involving a patient population or
    other factors that may increase the risks associated with use ofthe drug.
• 	 Both Anny and Navy regulations require an IND when a drug is to be used for an
    unapproved indication in a clinical trial:



7   The medical term "indication" refers to a condition for which a particular course of action is advised,
                                                          11
                                          FOR OFFIOf1\L USE O:UVI
                                     FOR OFFICIAL USE ONbY

    o 	 Anuy Regulation (AR) 40-7, "Use of Investigational Drugs and Devices in Humans
        and the Use of Schedule 1 Controlled Drug Substances," January 4, 1991, defmes a
        drug as investigational "when the composition is such that its proposed use is not
        recognized for the use under the conditions prescribed, or its proposed use is not
        recommended or suggested in its approved labeling."
    o 	 Additionally, AR 40-7, section 4-12 stipulates that a physician in an Anuy treatment
        facility is conducting a clinical investigation requiring an IND when using an
        approved drug for an unapproved indication "in situations where data on drug effects
        from one or more patients are being systematically recorded by a physician for the
        purpose of substantiating or refuting a claim of therapeutic efficacy in an unlabeled
        indication for an approved drug."
    o 	 Furthermore, AR 40-7 further stipulates that an IND is required unless ALL ofthe
        following apply: The investigation will not be reported as a well controlled study in
        support of a new indication for use ... nor any other significant change in labeling8; the
        investigation does not support a significant change in advertising for a lawfully
        marketed prescription drug product; the route of administration, dosage level, patient
        population or other factors do not significantly increase risks associated with the
        product; the investigation complies with Anuy requirements for human use review and
        informed consent; AND the drug is not being promoted as safe or effective for the
        purposes under investigation.
    o 	 U.S. Navy Bureau of Medicine and Surgery Instruction (BUMEDINST) 3900.6B,
        "Protection of Human Subjects," October 4, 2001, Enclosure 2 defines "unlabeled
        use" in research as "any deviation from the indications, dose, route of administration,
        dosage form or treatment popUlation of a drug approved or licensed by FDA" It
        further clarifies that "treatment of an individual patient" is considered the practice of
        medicine, and "a scientific study using human research participants" is considered
        research, is regulated by the FDA and usually requires an IND.

A.3 Findings
a. The Food and Drug Administration (FDA) is responsible to protect the public's health by
assuring the "safety, efficacy and security of human drugs." Specifically, the FDA's Center
for Drug Evaluation and Research (CDER) regulates over-the-counter and prescription drugs
to ensure that they are safe and effective for human use. Accordingly, the clinical divisions
within the CDER offer consultation on IND matters for researchers and research agencies.

b. Per the FDA, an "Investigator IND is submitted by a physician who both initiates and
conducts an investigation, and under whose immediate direction the investigational drug is
administered or dispensed. A physician might submit a research IND to propose studying an
unapproved drug, or an approved product for a new indication or in a new patient population."
Furthermore, the FDA stipUlates that clinical drug trials require that an IND is reviewed by
the FDA and the local institutional review board prior to initiation ofthe research.


8 FDA pharmaceutical labeling regulations and supplement labeling guidelines protect consumers by
establishing criteria for the communication ofproduct claims and other important product information
                                              12
                                     FOR OFHGtAIs WSE €»lIs¥
                                      FOlt OFFICIAL USB OULY


c. The hypothesis that was listed by the Investigator on the research protocol application
proposed that "the administration ofNAC (n-Acetylcysteine) for seven days along with
observation will result in improved hearing and balance function in individuals who
demonstrate these disorders after blast exposure when compared to observation alone at the
seven day time point."

d. While there are forms ofNAC that are approved as drugs (e.g. Mucomyst Solution for
Tylenol overdose) under FDA regulations, the substance under examination in this Clinical
Trial is an antioxidant tablet sold in retail stores as an unregulated nutritional supplement 9•

e. The Scientific Peer Reviewer and the BAMC IRE questioned the Investigator to ascertain
whether an IND application was needed to support the Investigator's use ofNAC as part of
the Clinical Trial. In response, the Investigator stated that "the FDA has repeatedly said that
an IND is not needed for the dose of medication we are using." The IRE accepted the
Investigator's response and approved the research protocol as submitted by the Investigator.

f. In response to our query, the U.S. Army Medical Materiel Development Activity
(USAMMDA) requested that the FDA review the research protocol application to determine
if an IND was required to administer NAC tablets as intended in the protocol. Accordingly,
the FDA determineD that an "IND was necessary for FDA review". Additionally. they (the
FDA) explained that "any substance intended for use in diagnosis, cure, mitigation, treatment
or prevention of disease ... is a drug". Furthermore, they added that "if the substance (drug) is
not a lawfully marketed drug product, it cannot be administered to humans without being the
subject of an IND."

g. The Investigator initiated the Clinical Trial in December 2008 and administered N AC to
research subjects without the necessary IND application.

A.3 Discussion
The Clinical Trial proposed to examine the effectiveness of an experimental drug, specifically
NAC, to support a new, unapproved indication for its use, in treating U.S. service members
with concussion injuries in combat-deployed environments. Under federal and military
medical research regulations, submission of an IND application was required before the
Investigator was permitted to begin recruiting human subjects and conduct any research. In
response to our query, a Food and Drug Administration (FDA) letter confirmed that an IND
was, indeed, required for this Clinical Trial.

The question whether an IND was needed for the Clinical Trial was first raised during the
scientific peer review and later by the BAMC IRB. In both instances, the Investigator's
responses dismissed the concern and insisted this standard was not applicable to the Clinical
Trial. Consequently, the Clinical Trial was authorized by the IRB, and the research was




9"Nutritional supplements" are not regulated by the FDA, because they are intended to supplement the diet with
nutrients the body utilizes in normal, healthy functioning.
                                                      13
                                FOR OFFI@li'rL USIS OnLY


conducted on u.s. Service members without the required FDA oversight to ensure research
quality, treatment effectiveness, and participant safety.

A.3 Conclusion
The Investigator did not submit an IND application in support of his Clinical Trial.
Additionally, the BAMC IRB accepted the Investigator's responses that an IND was not
necessary. Consequently, the conduct ofthe Clinical Trial without an IND was inconsistent
with regulations governing human subject medical research. As such, the validity of the
research became questionable, and the rights ofthe research participants were jeopardized.

A.3 Recommendations, Management Comments, and Our Response
Recommendation A.3.1 Allegations of potential medical research misconduct by a
U.S. Navy physician were referred to the U.S. Navy for further investigation on
February 18,2010.

U.S. Navy Bureau of Medicine and Surgery Comments
(FOUO~    The Chief, Bureau of Medicine and Surgery (BUMED) did not concur with our
recommendation that the Navy conduct the investigation. As previously discussed under the
Management Comments in Observation A. 1, the Chief, BUMED recommended that any
allegations pertaining to research misconduct should be assigned to the appropriate Army
medical commartd that had the responsibility for approval and oversight of the research.

Our Response
We concur with BUMED's recommendation and on March 7, 2011, requested that the Army
complete the investigation into the allegations of potential medical research misconduct (see
Appendix H).

Revised and Redirected Recommendations
Recommendation A.3.1 is revised as follows:



    We rec~m1ffl.elJd th3tthe U.S. AnnyMe4icalCQm,maitd:

    A.3.1 	 Conduct an investigation into allegations ofpotential medicalresearch
            ~isconduct hy.a U.S. Navy physician. Specifically, investigate the
            allegations that the n~searc.h~rfaiIed to submit an Investigati(malNew Drug
            (IN})) applic.ation pribf 10 jfii~iating his rysearch in Iraq. .




                                           14 

                                F8It 8FFIeI*L USIS 8~JUl       

                                      FOIt OFFIQIAL USI! Q)JL¥


A.4 There were deviations from the research protocol
    approved for this Clinical Trial

     The Investigator administered to study participants unapproved, 
 

     lUldocumented treatments that deviated from the approved research 
 

     protocol. 



A.4 Applicable Criteria
• 	 MNC-I's Human Research Protection Program, June 24, 2008, states that the Principal
    Investigator is responsible to report "any proposed changes to the research activity."
    Additionally, this policy stipulates that "changes shall not be initiated without prior IRB
    review and approval."
• 	 Brooke Anny Medical Center (BAM C) IRB Standard Operating Procedures (SOPs), July
    7, 2008, identify the procedures used to submit amendments to approved protocols.
    Specifically, page 47 states that "an amendment is defmed as any change in the approved
    study protocol" and that "all amendments must be submitted to the IRB prior to instituting
    the change."

A.4 Findings
a. The MNC-I approved Clinical Trial specified the experimental treatment 10 as "NAC along
with observation" for seven days. The control group was to receive only "placebo medicine
and observation."

b. The research protocol application, prepared and submitted by the Investigator,
acknowledges that the Investigator will report any "protocol deviations" to the Chairman of
the BAMC IRB.

c. The Deployed Research Review Team (DRT) acknowledged in their report to the MNC-I
Surgeon that the investigator was using other treatment to include "active rehabilitation and
exercise" during the conduct of the Clinical Trial. Additionally, the DRT referenced a
presentation that the Investigator conducted at Camp TQ, whereby he (the Investigator) cited
in a briefing that he was using "active rehabilitation" in the care of mTBI patients.
Specifically, one slide stated "Recent modification in procedures (addition of active
rehabilitation) has increased seven day cure rate to 85%."

d. 	 Our review ofthe IRB minutes and other documentation related to the research protocol



10A treatment is any "specific procedure used for the cure or the amelioration of a disease or pathological
condition." The "experimental treatment" that is referred to in this report indicates the treatment that was
approved by the Institutional Review Board, specifically, administering NAC and then obselVing whether the
research participants noted any effect from taking the NAC.
                                                15 

                                      FOR OFFlOhUs USE ONLY 

                                 FOR 0FFIOIAIs USE ffiJbY


did not reveal that the Investigator had submitted any proposed changes to the description of
the study. Specifically, we did not find evidence that he added "active rehabilitation" and/or
"exercise" as a fonn oftreatment that he proposed to study.

A.4 Discussion
The Investigator proposed in his research protocol to study whether the administration of
NAC, along with observation, would improve symptoms related to mTB!. The BAMC IRB
recommended approval for this study based on the research protocol that the Investigator
submitted which indicated "NAC" and "observation" as the methods oftreatment.

According to the DRT, the Investigator referred to additional treatments, specifically, "active
rehabilitation" and "exercise", when he made a presentation to visiting officials at Camp TQ.
Our review ofthe approved research protocol and IRB minutes, revealed that there was no
mention of "active rehabilitation and exercise" under the design section (section 5.4) ofthe
protocol. Military medical research regulations require deviations to an approved protocol to
be submitted to an IRB prior to implementation in a research study. However, there was no
indication that the Investigator adhered to this standard.

A.4 Conclusion
The Investigator utilized unapproved treatments that were not part ofthe approved research
protocol. Deviations from the approved protocol are inconsistent with DoD medical research
regulations. As such, the validity ofthe research became questionable, and the rights of the
research participants were jeopardized.

A.4 Recommendations, Management Comments, and Our Response
Reconnnendation A.4.1 Allegations of potential medical research misconduct by a
U.S. Navy physician were referred to the U.S. Navy for further investigation on
February 18,2010.

U.S. Navy Bureau of Medicine and Surgery Comments
(¥QlJQ) The Chief, Bureau of Medicine and Surgery (BUM ED) did not concur with our
recommendation that the Navy conduct the investigation. As previously discussed under
Management Comments in Observation A. 1, the Chief, BUMED recommended that any
allegations pertaining to research misconduct should be assigned to the appropriate Anny
medical command that had the responsibility for approval and oversight ofthe research.

Our Response
We concur with BUMED's recommendation and on March 7, 2011, requested that the Anny
complete the investigation into the allegations ofpotential medical research misconduct (see
Appendix H).




                                              16 

                                FOR OFFIOI1\L USE OULY 



Revised and Redirected Recommendations
Recommendation A. 4. 1 is revised as follows:




     AA lCoIld92t~investigation 111toallegationsof potentialtnclii2~1~~h
           misc~Jl~uctby it U ~S. Na\1y:-physlpiF' . SpecifiC!!lIY~~~eStig~te!he
           ~legationstlJ.a:t the. r~earcher/d~viat~dfro#l1he apprQved f~earchprotocol
          .whil~ h~l\\~conducting r~~~~cl;t in Iraq.                      .    .   ,




A.5 Patients were exposed to possible coercion and undue
    influence

   Mandatory transport of SeIVice members with blast injuries to Camp TQ
   contributed to a perception of coercion and undue influence to participate
   in the Clinical Trial.


A.S Applicable Criteria
• 	 32 CFR, Part 219, "Protection of Human Subjects," July 1, 2008, includes guidance for
    protecting subjects from unnecessary risk, stipulating that additional safeguards should be
    included "when some or all of the subjects are likely to be vulnerable to coercion or undue
    influence."
• 	 AR 70-25, "Use of Volunteers as Subjects of Research," January 25, 1990, cautions that
    human subject research should minimize risk to the subjects. It also aClmowledges that
    some participants may be vulnerable to coercion and undue influence and requires "proper
    additional safeguards" to protect their rights and welfare.

A.S Findings
a. The Investigator conducted the Clinical Trial at Camp TQ from December 2008 to March
2009. Specifically, he used NAC as a form of treatment to reduce the effects ofmTBI after
blast exposure.

b. Multi National Forces-West (MNF-West) Fragmentary Order (FRAGO) 445-08, February
01,2009, required evacuation of Service members with blast injuries to Camp TQfor a
medical evaluation.

c. 	 The Gray Team expressed concerns during their visit to Camp TQ in February 2009, that
                                           17 

                                fOR Qf¥'lUk'tL US~ QNLY 

                                       FOR OFFI8h\b USE ONVi'


the Investigator was sharing "pilot data" from his study. Particularly concerning to this team
was the concern that the research was conducted as a "placebo-controlled, double blind
study,,!1 and results were discussed prior to the conclusion of the research. Additionally, they
expressed their concern that the FRAGO requiring the transport of Service members who
were exposed to a blast injury could be interpreted as a fonn of coercion or undue influence
for wounded Service members to participate in the Clinical Trial.

d. During our interview, a U.S. Navy official from Camp TQ's Surgical Company stated that
Camp TQ's surgeons were concerned that they were underutilized. Specifically, the surgeons
expressed the concern that patient volume was very light and that medevac helicopters were
bypassing Camp TQ to bring patients directly to the nearest Army Combat Support Hospital.
Additionally, the U.S. Navy official explained that the Investigator felt that he was at Camp
TQ for the purpose of completing research and that the low patient volume was making it
difficult for him to conduct his research. Furthennore, he acknowledged that the Investigator
expressed support to have mTBI patients transported to Camp TQ in support of what he (the
Investigator) called the "Center of Excellence for TBI."

e. As a result ofthe Gray Team's concerns of possible coercion of research participants, the
Deployed Research Team (DR1) was sent to conduct a review ofthe Clinical Trial that was
conducted at Camp TQ. The DRT agreed that the FRAGO led to perceived coercion of
Marine mTBI patients to participate in the research, and stated in their report that "the
strategy may appeal to a military member's sense of honor, duty and loyalty in such a way
that they may feel obligated to enroll." The DRT's report concluded, however, that the
"Investigator acted to mitigate this perception by separating the processes used for medical
evaluation and solicitation of research subjects."

f. Additionally, the DRT in their report to the MNC-I Surgeon acknowledged that the
Investigator had been interviewed by U.S. Marine Corps reporters in December 2008 and
January 2009. Infonnation in various articles and press releases referred to the Investigator's
research and made reference to Camp TQ as the "hub of TBI treatment" and "TBI Center of
Excellence". Specifically;

    •    Press Release 081222-M-81871-001, "AT-Taqaddum, Iraq"

    "The Theater TBI Center of Excellence, a result of (the Investigator's) two-year initiative,
    is the first of its kind here in Anbar. It was established initially in September and finalized
    as the province's hub ofTBI treatment in December."

    •  Press Release 081228-MLG-81871-TBI, "Navy captain's crusade against TBItakes
       root in Anbar TQ treatment center first of its kind"
    "So we recognized the fact that although we're set up to do 'blood and guts' surgery,



11 A placebo-controlled, double blind study is a research study where one group of research subjects is given a
medication, and the second group, called the control group, is given a placebo, and neither the researcher, nor the
research subjects know who was given the medication or the placebo.
                                                 18 

                                       FOR OFFIOI2'rLUSE ONbY 
 

                                 Ffio)R fio)FFlOk?ds U~E   ~Us¥



   (Taqaddum Surgical) can take on a secondary mission." ... "Taqaddum Surgical's
   secondary mission: the Theater TBI Center of Excellence. The center ... is the frrst of its
   kind here in Anbar. It was established initially in September and fmalized as the
   province's hub ofTBI treatment in December."

   "Since the center has opened, 42 patients have received treatment. Thirty-five have
   returned to finish their deployments, 100 percent recovered."

   "Whereas late patients only recovered to approximately 85 percent normalcy. patients
   seen immediately tend to recover to 100 percent normalcy."

    • 	 Press Release 090110-MLG-81871-HASC, "House Armed Services Committee reps
        tour Taqaddum Surgical"

   "(Our methods) are almost considered to be policy, and these are the people who help
   influence policy," said (the Investigator), San Diego. (The Investigator) said he hopes to
   have persuaded the members to use their leverage to make Camp Taqaddum's mTB!
   treatment method policy for all services."

g. Furthermore, the DRT also acknowledged in their report that the Investigator had "caused
significant confusion" by referring to "cure rates" and "early treatment" during the
Investigator's presentation to Staff Members for the House Armed Services Committee.
Specifically the Investigator cited the following on briefing slides~

   • 	 "Research indicates that early treatment can significantly reduce long and short term
       sequel (ofmTBI)"

   • 	 "Achieved an overa1166% seven day cure rate (for reference the cure rate at 3 months
       without early treatment is less than 20%), and,

   • 	 "Recent modification in procedures (addition of active rehabilitation) has increased
       seven day cure rate to 85%"

h. During our interview, the leader ofthe DRT explained that the Investigator's reference to
a TBI "cure" possibly influenced the decision for MNF-West to issue the FRAOO requiring
transport of TBI patients to Camp TQ.

A.B. Discussion
The Gray Team identified concerns that mTBI patients at Camp TQ were coerced to
participate in the Clinical Trial, in part because of undue influence from MNF-West FRAOO
number 445-08, dated February 01, 2009, which required evacuation of Service members with
blast injuries to Camp TQ for a medical evaluation.

As a result ofthe Gray Team's report, the DRTwas sent to conduct a review ofthe Clinical
Trial that was conducted at Camp TQ. The DRT agreed that the FRAOO led to perceived
coercion of Marine mTBI patients to participate in the research, and stated in their report that
                                               19
                                 FOR fio)FFIOloAL USE otllsY
                                 fiOK OfiF'ICM:L USE ONVI


"the strategy may appeal to a military member's sense of honor, duty and loyalty in such a
way that they may feel obligated to enroll." However, the DRT felt that the Investigator acted
to "mitigate this perception by separating the processes used for medical evaluation and
solicitation ofresearch subjects."

The DRT also observed that the Investigator had generated a high level of visibility for the
research being conducted at Camp TQ, due to U.S. Marine Corps press releases and
presentations to government officials citing "100% recovery" rates and referring to Camp TQ
as the "Theater TBI Center of Excellence."

Furthermore, when we raised questions regarding the potential of coercion, a Navy official
explained that the surgeons at Camp TQ were concerned that their skills were underutilized
due to the low patient volume and the Investigator was concerned that his ability to do
research was hindered by the low patient volume. Additionally, the Navy official
acknowledged that the Investigator felt that the identification of Camp TQ as a "Center of
Excellence for TBl" would support getting more patients at Camp TQ, which would help
allay the surgeon's concerns that they were underutilized.

A.5 Conclusion
The Investigator's claims regarding the effectiveness of his treatment (e.g. NAC) and the
benefit of "early treatment" of concussive injuries were premature. Specifically, the Clinical
Trial was conducted as a placebo-controlled, double blind study which required that neither
the researcher nor subjects knew who received the experimental drug or treatment and who
received the placebo. Additionally, the interpretation ofthese research results was expected
to occur after conclusion ofthe Clinical Trial. However, the Investigator made claims in
December 2008 and January 2009 (prior to the conclusion ofthe research) that he noted
Service members were "100% recovered". Additionally, he made unsubstantiated references
to Camp TQ as a "Theater TBI Center of Excellence". Consequently this information was
inconsistent with the tenants of valid research and constituted potentially improper actions by
the Investigator as well as undue influence which may have contributed to the issuance ofthe
FRAGO mandating transport ofmTBI patients.

The mandatory transport of Service members with blast injuries to Camp TQ exposed
potential research participants to coercion and undue influence, as well as to increased risk
due to unnecessary travel. Furthermore, these consequences are inconsistent with regulations
governing the conduct of medical research. As such, the rights ofthe research participants
were jeopardized.

A.5 Recommendations, Management Comments, and Our Response
Recommendation A.S.l Allegations of potential medical research misconduct by a
U.S. Navy physician were referred to the U.S. Navy for further investigation on
February 18, 2010.

U.S. Navy Bureau of Medicine and Surgery Comments
(FOUO~ The Chief, Bureau of Medicine and Surgery (BUMED) did not concur with our
recommendation that the Navy conduct the investigation. As previously discussed under
                                              20
                                fielIt OF'F'ICML USE ONbY
                                 FOR 8FFIOI,\:L U~E ONbY


Observation A.l, the Chief, BUMED recommended that any allegations pertaining to research
misconduct should be assigned to the appropriate Anny medical command that had the
responsibility for the approval and oversight ofthe research.

Our Response
We concur with BUMED's recommendation and on March 7,2011, requested that the Anny
complete the investigation into the allegations ofpotential medical research misconduct (see
Appendix H).

Revised and Redirected Recommendations
Recommendation A.5.1 is revised as follows:




     A5.1 CQnductan investigation into allegtltionsofpotentialmedicillrese~ch 

          1l1isconduct byaV,S.Navyphysician. Specifically"invcsiigate the 
 

          atlegations thatthe r~searcherm~y h4veuhplJlyintluenceaaS~tV:k,e 

            '1nember's.p~tipatiQnjn theQlin~cal Tt"i~l. 





A.6 Research data were disseminated prior to the
    conclusion of the study

   Prior to conclusion of the Clinical Trial, the Investigator released press 
 

   notifications, and made presentations referring to research results. 
 



A.6 Applicable Criteria
• 	 DoD Directive 5230.09, "Clearance of DoD Infonnation for Public Release", August 22,
    2008, includes guidance that "Any official DoD infonnation intended for public release
    that pertains to military matters ... or subjects of significant concern to the Department of
    Defense shall be reviewed for clearance prior to release."
• 	 The MNC-I "Human Research Protection Program", June 24,2008, provides specific
    policies and procedures for the regulatory review and approval ofhuman subject research
    conducted under the authority ofthe MNC-I Surgeon. Specifically these guidelines
    require that the Public Affairs Officer must review and approve research-related
    presentations and publications, and that cleared presentations and publications must
    contain DoDlDepartment ofthe Anny (DA) disclaimers in accordance with federal policy.


                                               21
                                 EQR ~iIQ:h'\is USE      ONbY
                                POR: 6PPICIAL t:JSE 6NLY


A.6 Findings
a. The Investigator conducted the Clinical Trial at Camp TQ from December 2008 to March
2009. Specifically. he used NAC as a form of treatment to reduce the effects ofmTBI.

b. The Gray Team expressed concerns during their visit to Camp TQ in February 2009, that
the Investigator was sharing "pilot data" from his study. Particularly concerning to this team
was the concern that the research was conducted as a "placebo-controlled, double blinded
study" and results were discussed prior to the conclusion ofthe research.

c. The Deployed Research Team (DR1) acknowledged in their report to the MNC-J Surgeon
in February 2009 that the Investigator had made a presentation to staff officerS for the House
Armed Services Committee on January 10, 2009. Specifically, the Investigator made
reference to results of his research at the "mTBI Center at AI Taqaddum Surgical":

   • 	 "Achieved an overall 66% seven day cure rate (for reference the cure rate at 3 months
       without early treatment is less than 20%)" and "Recent modification in procedures
       (addition of active rehabilitation) has increased seven day cure rate to 85%.

d. Additionally, the DRT identified a press release where there was mention of research
results (Press Release 081228-MLG-81871-TBI, "Navy captain's crusade against TBI takes
root in Anbar TQ treatment center first of its kind"):

   • 	 "Since the center has opened, 42 patients have received treatment. Thirty-five have
       returned to finish their deployments, 100 percent recovered."

   • 	 "Whereas late patients only recovered to approximately 85 percent normalcy, patients
       seen immediately tend to recover to 100 percent normalcy."

e. The statement of assurance signed by the Investigator states "I am aware that any
presentation or publications resUlting from this research must be cleared by the appropriate
Public Affairs Office, undergo OPSEC review and be reviewed for release of actionable
medical information."

f Our review of available documents did not reveal that any ofthe articles, nor presentations
made by the Investigator were cleared by appropriate authorities prior to their release.
Additionally, they did not have the required DoD/DA disclaimer annotated on the documents.

A.6 Discussion
The DRT report cited specific references made by the Investigator demonstrating mTBI "cure
rates" and "recovery rates," which were disseminated via U.S. Marine Corp press releases and
a PowerPoint presentation to Staff Officers from the House Armed Services Committee.
Because this release of information occurred while the Clinical Trial was ongoing, the DRT
found it premature and misleading and recommended to the Investigator that he refrain from
using such terminology. Additionally, the DRT recommended to the MNC-I Surgeon that
these specific press relea.<;es be recalled.

                                              22
                                pent epPIC1J!rL USE ONLY
                                 FOR OFFIGlAls l:.fSB   onrsy

Furthermore, the Clinical Trial called for a placebo-controlled, double blind experimental
design, which required that neither the researcher nor any subjects knew who received the
experimental drug or treatment and who received the placebo. Therefore, the basis on which
the Investigator generalized premature results ofthe NAC research is unclear. The authority
under which this scientific information was released also is not clear.

A.6 Conclusion
The Investigator's release of scientific information pertaining to the effectiveness ofNAC in
treating mTBI was misleading since the research was ongoing and the results were
unavailable. Additionally, this premature release of information was inconsistent with
military regulations governing research. As such, the validity ofthe research became
questionable and the research participants' rights as human subjects were jeopardized.

A.6 Recommendations, Management Comments, and Our Response
Recommendation A.6.1 Allegations of potential medical research misconduct by a
U.S. Navy physician were referred to the U.S. Navy for further investigation on
February 18,2010.

U.S. Navy Bureau of Medicine and Surgery Comments
(1'0190) The Chief, Bureau of Medicine and Surgery (BUM ED) did not concur with our
recommendation that the Navy conduct the investigation. As previously discussed under
Observation A.l, the Chief, BUMED recommended that any allegations pertaining to research
misconduct should be assigned to the appropriate U.S. Anny medical command that had the
responsibility for approval and oversight of the research.

(F(){JQ) Notwithstanding any of the Anny's investigative efforts, BUMED acknowledged
that there is a need to ascertain whether the Investigator continued any mTBI project-related
activities after returning from deployment. BUMED contends that such continuations would
fall under the authority, responsibility and liability of the Investigator's parent command and
DoD Component, namely Navy. Specifically, BUMED indicated that they would determine
whether the Investigator notified and received approvals from the Naval Medical Center, San
Diego Institutional Review Board and other authorities for such continued activities after his
return from deployment. Furthermore, BUMED stated that they will determine whether
relevant presentation materials, manuscripts for publication, or other similar materials
received requisite reviews and approvals from the Navy chain of command and from Navy
Medicine Public Affairs Officials per regulations.

Our Response
(1'OUO) We concur with BUMED's recommendation and on March 7, 2011 requested that
the Army complete the investigation into the allegations of potential medical research
misconduct. Additionally, we agree with BUMED's stated concern whether the Investigator
continued any mTBI project-related activities upon his return from deployment, and ifthese
activities were conducted with the approval ofthe appropriate Naval authority. We concur
with BUMED's actions to conduct a review into these matters.


                                           23 

                                 FOR OFF:Imi'fL HSE ONbY 

                                  FOM: OFFICML USE ONLY 



Revised and Redirected Recommendations
Recommendation A.6.I is revised as follows:



     We.rec(t~~.•.llatltltt ~beU.S. Anhyl\tedic" CQmmana~
                     ,,"                 '    "  ,,-
                                                  ."  -­


     A.6.I 	 Conduct at1 illvestigationJntoallegationsof pptentialmedi9alt~t;arch 

             miscond~c(f,y a U.S.. NaVY~~ysician, 8peqificallY~investig~the 

           . al1~¥atl(}Ilsthat the,res~ar~h~{m~Yhave.disseminatedre$ear9hda~Pl1~fip
            thep9:(l~1gs'iQn .Qffhe.stq(ly.




Additional Management Comments to Observation A and
Our Response
Additional Management Comments
eF8UO~    The Chief, BUMED believed that we used the tenn "research misconduct"
incorrectly in Observation A.I through A.S. Specifically, he explained that the matters we
discussed did not meet federal-wide (OSTP 2000 Federal Policy on Research Misconduct and
42 CFR 50 and 93) and agency-specific (DoDI 3210.7) defmitions of research misconduct
which include falsification, fabrication and plagiarism.

Our Response
We acknowledge BUMED's comments; however, our position is that we have used the tenn
"research misconduct" appropriately. Our findings characterize deviations in the research
protocol as well as irregularities in the conduct ofthe investigator which require investigation
to detennine if, in fact, research misconduct or other violations occurred.




                                             24
                                  F~It 6FFICI2\L USE ONLY
          FOR: OFnG:~lrL U~E OJlLY




          Observation B. 

Possible Sub-Standard Patient Care 
 





                     25 

          "Oit OffICIAL usr; 01#V{ 

Observation B. Possible Sub-Standard Patient
Care
Wounded U.S. military Service members who participated in the Clinical Trial received
treatment that was inconsistent with military standards for patient care. Specifically, we
found that:
         B.t 	 Neurological assessments did not adhere to clinical practice guidelines for
                  mTBI.
         B.2 	    The experimental drug was not approved by the Food and Drug Administration
                  for clinical study.
         B.3 	    Medications contraindicated 12 in the treatment of early mTBI were
                  administered.

This was caused by possible violations ofregulations and guidelines related to patient care.

As a result, deployed U.S. Service members being evaluated and treated for mTBI may have
received sub-standard patient care.




12The medical term "contraindication" refers to a condition which makes a particular treatment or procedure
inadvisable. For example, aspirin is contraindicated in babies because of the danger that aspirin will cause Reye
Syndrome.
                                                       26
                                       FQR OFFIO:k\ls U9JS ONIsY
                                FOR9FFISrAL USE ONLY



B.1 	 Neurological assessments did not adhere to clinical
      practice guidelines for mTBI

   The neurological assessments for mTBI conducted on research participants
   did not include the Military Acute Concussion Evaluation (MACE)
   recommended by clinical practice guidelines and required by MNC-I
   orders.

B.1 Applicable Criteria
• 	 The Multi National Corps Iraq (MNC-I) Operational Orders (Tab G to Appendix 2 to
    Annex Q) "Mild Trawnatic Brain Injury (Concussion)" and MNC-I Standard Operation
    Procedures Manual (Tab P, Appendix 4, Section Q) "Mild Traumatic Brain Injury,"
    November 30, 2007, required all medical personnel to be aware of and use the Joint
    Theater Trauma System (JTTS) Clinical Practice Guideline (CPG) "Management of Mild
    Traumatic Brain Injury (mTBI)/Concussion in the Deployed Setting," November 2008.
    The MNC-I Operational Orders, SOP and the JTTS CPG specify that the Military Acute
    Concussion Evaluation (MACE) tool is to be used during a patient's neurological
    assessment.

B.1 Findings
a. The Gray Team expressed concern during their visit to Camp TQ in February 2009, that
there was a lack of standard metrics to assess traumatic brain injury in patients at Camp TQ.
Specifically, the Gray Team identified that the Investigator stated he was following theater
mTBI treatment guidelines, including using the MACE tool. However, upon the Gray Team's
questioning, the Senior Corpsman at Camp TQ stated he never had heard of the MACE, nor
had they seen it used.

b. The JTTS CPG on the «Management of Mild Trawnatic Brain Injury (mTBI)/ Concussion
in the Deployed Setting" established the MACE as a standardized tool for evaluating the
symptoms and cognitive defects that may occur as a result of a concussion injury.

c. During their visit to Camp TQ in February 2009, the Deployed Research Team (DRT)
stated that the mTBI patients at Camp TQ "mayor may not receive a MACE examination."
Furthermore, the team acknowledged that the Investigator stated that "rather than do a MACE
examination he (the Investigator) goes to the next step in the evaluation and performs
additional testing to include a neurological examination, the TRAIL Making Test, Controlled
Oral Word Association Test..." and other tests.

d. During our interviews with the members ofthe DRT, they acknowledged that there were
no mTBI patients present at Camp TQ on the day of their visit in February 2009.



                                         27
                               FOR OFFlOflrL USE ONL¥
                                FOR OrFI91:AL USE ONJyY


B.1 Discussion
The MACE is a required assessment tool for military physicians to use in evaluating mTBI in
deployed settings. However, the DRT confirmed in their report that the Investigator did not
employ the MACE in the neurological assessments he conducted on participants in the
Clinical Trial. By military order, use ofthe guideline for the evaluation ofmTBI and the
MACE tool is clearly defmed as the responsibility of medical personnel, but there was no
indication that the Investigator adhered to this standard.

B.1 Conclusion
The Investigator's neurological assessment ofthe u.s. Service members who participated in
the study did not include an examination using the MACE tool. Consequently, without a
standardized baseline assessment tool, there was an increased risk that the Investigator and/or
other medical staff overlooked subtle changes in the patients' neurological status that may
have indicated a decline in their medical condition. Furthermore, this lack of adherence to
established guidelines raises concerns regarding the adequacy of safeguards for the health and
safety ofthe wounded U.S. Service members who participated in the study.

B.1 Recommendations, Management Comments and Our Response
Recommendation B.l.l Alle2ations of sub-standard patient care perfonned by a U.S.
Navy physician were referred to the U.S. Navy on February 18,2010 for further
investi2ation and a Quality of Care Review.

U.S. Navy Bureau of Medicine and Surgery Comments
(I'tme, The Chief, Bureau of Medicine and Surgery (BUMED) concurred with our
recommendation and                     of Care Review on November       O.




Our Response
The Chief, BUMED's comments are responsive and their actions meet the intent ofthe
recommendation as stated in the draft report.

                                          28
                                FOR OFFI61AL USE C»tLY
                                                                                                  b(5)
                                FOR OFFIOIAL USE OnLY




We acknowledge that such guidelines provide a path to take in the diagnosis and management
for the clinician that is unfamiliar with the particular clinical presentation or scenario, and
provides the scientific and research rationale behind it. Our experience shows us that most
guidelines are consensus documents; meaning they represent the experts in the field getting
together and hammering out a guideline that usually is adequate. We believe that the caveat
about the clinical practice guideline not meaning to replace good clinical judgment should be
interpreted as not allowing the guideline to limit or restrain the diagnostic or management
steps that a clinician should take. Specifically, our position is the use ofthe MACE as a
measurement criteria that is repeated over time is a minimum standard - it does not constrain
the clinician from taking other measurement or surveillance steps, but it does compel the
clinician to at least use the MACE assessment tool.

Notwithstanding our comments, we believe it would be beneficial to ask the Assistant
Secretary of Defense (ASD) for Health Affairs (HA) to work with the Services and the
Combatant Commanders to ensure that operational orders and procedures used to evaluate
and manage mTBI patients are clear and are not in conflict with each other.

Revised and Added Recommendations
As a result of BUMED's comments and our response, Recommendation B.1.2 is added as
follows:



     We recommeJ;ld thatthe Assistant .Secretary of Defense for Health Affairs:

     B.i . 2 Coordin(,lte(,lreview.ofthe Joint lhe~ter Trauma System (ITTS)Clinicai
             Practic¢Oui4eIin.e(GPG)"M~llgetn~t pfM:ild Trapm,(,ltic Bra111:In.jury
             (mTBI)/Col1cussion in the Deployed Setting". Additionally; coordinate with
             the Services and the Combatant Commanders to ensure that current operational
             orden; and proCedures are clear artdmeet the standard of care for the care of
             mTBI p(,lti~ts.




                                              29
                                Felt ~FFleIAL USE OnLY
                                                                                                  b(5)
                                :f61t ()fOI'ICML USE ONI::?f



8.2 	The experimental drug was not approved by the Food
     and Drug Administration for clinical study

  Wounded U.S. Service members participating in the Clinical Trial received
  an investigational new drug for the treatment of mTEI, which had not been
  reviewed and approved for clinical study by the Food and Drug
  Administration (FDA).

8.2 Applicable Criteria
• 	 Both Anny and Navy regulations require that an application for an Investigational New
    Drug (IND) is submitted to the FDA when a drug is to be used for an unapproved
    indication in a clinical trial:
   o 	 AR 40-7, "Use offuvestigational Drugs and Devices in Humans and the Use of
       Schedule 1 Controlled Drug Substances," January 4, 1991, defmes a drug as
       investigational ''when the composition is such that its proposed use is not recognized
       for the use under the conditions prescribed, or its proposed use is not recommended or
       suggested in its approved labeling. "
   o 	 Additionally, AR 40-7, section 4-12 stipulates that a physician in an Anny treatment
       facility is conducting a clinical investigation requiring an IND when using an
       approved drug for an unapproved indication "in situations where data on drug effects
       from one or more patients are being systematically recorded by a physician for the
       purpose of substantiating or refuting a claim of therapeutic efficacy in an unlabeled
       indication for an approved drug."
   o 	 AR 40-7 further stipulates that an IND is required unless ALL of the following apply:
       The investigation will not be reported as a well controlled study in support of a new
       indication for use ... nor any other significant change in labeling; the investigation
       does not support a significant change in advertising for a lawfully marketed
       prescription drug product; the route of administration, dosage level, patient population
       or other factors do not significantly increase risks associated with the product; the
       investigation complies with Anny requirements for human use review and infonned
       consent; AND the drug is not being promoted as safe or effective for the purposes
       under investigation.
   o 	 U.S. Navy Bureau of Medicine and Surgery fustruction (BUMEDINST) 3900.6B,
       "Protection of Human Subjects," October 4,2001, Enclosure 2, defines ''unlabeled
       use" in research as "any deviation from the indications, dose, route of administration,
       dosage form or treatment population of a drug approved or licensed by FDA." It
       further clarifies that "treatment of an individual patient" is considered the practice of
       medicine, and "a scientific study using human research participants" is considered
       research, is regulated by the }'DA and usually requires an IND.



                                               30
                                FOR OFFI01i:t\L USE ONLY
                                 FeR eFFISIAL USE ONVl


B.2 Findings
a. The Food and Drug Administration (FDA) is responsible to protect the public's health by
assuring the "safety, efficacy and security of human drugs." Specifically, the FDA's Center
for Drug Evaluation and Research (CDER) regulates over-the-counter and prescription drugs
to ensure that they are safe and effective for human use. Accordingly, the clinical divisions
within the CDER offer consultation on IND matters for researchers and research agencies.

b. Per the FDA, an "Investigator IND is submitted by a physician who both initiates and
conducts an investigation, and under whose immediate direction the investigational drug is
administered or dispensed. A physician might submit a research IND to propose studying an
unapproved drug, or an approved product for a new indication or in a new patient population."
Furthermore, the FDA stipulates that clinical drug trials require that an IND is reviewed by
the FDA and the local institutional review board prior to initiation ofthe research.

c. The research protocol application that was completed by the Investigator, cited in his
hypothesis that "the administration ofNAC (n-Acetylcysteine) for seven days along with
observation will result in improved hearing and balance function in individuals who
demonstrate these disorders after blast exposure when compared to observation alone at the
seven day time point." The research protocol further stated that the NAC proposed for use in
this study was in tablet form.

d. While there are forms ofNAC that are approved as drugs (e.g. Mucomyst Solution for
Tylenol overdose) under FDA regulations, the substance under examination in this Clinical
Trial is an antioxidant tablet sold in retail stores as an unregulated nutritional supplement.

e. Discussion with an FDA representative from the Division of Neurology Products, at the
Center for Drug Evaluation and Research identified that the tablet form of NAC is not FDA
approved. Additionally, he explained that any research protocol that proposes to study a
product to treat a disease (for example to treat mTBI) could require an IND application.
Furthermore, he specified that an IND is needed ifthe NAC is used to treat mTBI.

f. The research protocol application did not indicate that an IND application to use NAC was
submitted to the BAMC IRB. Additionally, as discussed under Observation A,3, upon the
questioning by the IRB, the Investigator claimed that ''the FDA has repeatedly said that an
IND is not needed for the dose of medication we are using."

g. In response to our query, the FDA's Center of Drug Evaluation and Research reviewed the
research protocol application and provided a written determination that an "IND was
necessary for FDA review". Additionally, they explained that "any substance intended for
use in diagnosis, cure, mitigation, treatment or prevention of disease .. .is a drug."
Furthermore, they added that "if the substance (drug) is not a lawfully marketed drug product,
it cannot be administered to humans without being the subject of an IND."

h. The BAMC IRB recommended approval for the Clinical Trial and the Investigator
conducted research at Camp TQ from December 2008 to March 2009 using NAC (without an
IND) to treat mTBI symptoms.
                                            31
                                 FOIt 6FFIS:b\L USE HHLYv
                                FOR 8FFIOIAL US'S Ol',LY


8.2 Discussion
NAC in tablet fonn is used as a nutritional supplement and is not sUbjected to the regulations
ofthe FDA. However, the NAC tablets administered in the Clinical Trial were used with the
intent to treat a condition, specifically mTBI, therefore, according to federal and military
medical research regulations, an IND application was required before the Investigator was
pennitted to begin the Clinical Trial. When questioned by the BAMC IRB, the Investigator
explained that the FDA stated that an IND was not needed to use the NAC tablets. The IRB
accepted the Investigator's response and recommended approval for the study without an IND
in December 2008. Consequently, the Investigator proceeded to conduct research at Camp
TQ, beginning in December 2008, using a substance that was not FDA approved or under an
IND. Therefore, the human subjects in this study received an experimental drug without FDA
oversight of research quality, treatment effectiveness, and participant safety and were exposed
to increased risk to their health and safety.

8.2 Conclusion
The treatments administered to u.s. Service members through this Clinical Trial did not
undergo the FDA scrutiny required of clinical trials conducted appropriately with an IND.
This was inconsistent with military and federal guidelines for medical research and protection
of human research subjects. As a result, the health and well being ofthese wounded Service
members may have been jeopardized.

8.2 Recommendationsl Management Comments and Our Response
Recommendation B.2.1 Allegations of sub-standanl patient care performed by a U.S.
Navy physician were referred to the U.S. Navy on February 18, 2010 for further
investigation and a Quality of Care Review.

U.S. Navy Bureau of Medicine and Surgery Comments
€FOUO,. The Chief, Bureau of Medicine and Surgery




Our Response




The research was conducted under the authority ofMNC-I, ajoint-service command, which

                                              32
                                ¥eft: rt:lipPleIttL tHU! eNLY
                                                                                                  b(3}
                                                                                                  b(5)
                                FOR OFFIOUtL U~15 QNIYY

held the DoD Assurance giving them the responsibility for the oversight of research in Iraq.
Additionally, the research was conducted on 80 Service members who represented a cross
section of military services (U.S. Marine Corps - 57; U.S. Army National Guard -13;
U.S. Army 5; and U.S. Navy 5.)

Consequently, our position is that any additional effort to assess the health of the research
subjects should be ajoint DoD responsibility. Therefore, on February 17,2011, we requested
that the Assistant Secretary of Defense for Health Affairs (ASD[HA]) conduct the necessary
health assessments ofthe 80 military personnel who participated in the mTBI clinical trial
(see Appendix H).

Revised and Added Recommendations
As a result of BUMED's comments and our review, Recommendation B.2.2 is added as
follows:




     B;2.2. SaMuet health assessments tQde~tll1ineiftherewereany adveJ'$e ~rreCts()n
            theh~~lth9fthe U.S..ServicemeItibers who reoeived n,.Acetylcysteine (NAC)
           ani;ipatticlpawdm themTBI alirli:C~l tr;ial.




B.3 Medications contraindicated in the treatment of early
    mTBI were administered

   Blast injured SelVice members received seizure and migraine medications
   for headaches, which were contraindicated for headaches resulting from
   conCUSSIon.


B.3 Applicable Criteria
• 	 MNC-I Operational Orders (Tab G to Appendix 2 to Annex Q) "Mild Traumatic Brain
    Injury (Concussion)" state that narcotics should be avoided in the treatment of post­
    concussive symptoms.
• 	 The Joint Theater Trauma System (JTTS) Clinical Practice Guideline (CPG)
    "Management of Mild Traumatic Brain Injury (mTBI)/Concussion in the Deployed
    Setting," November 2008, specifies that only acetaminophen (e.g., Tylenol®) should be
    used to treat a headache as a result of a concussion. Furthermore, the CPG states that
    narcotics are not indicated for the management of post-traumatic headaches. Additionally,
    the "Concussion Patient Information Sheet" included within the CPG clarifies that the
                                          33
                                FOR OFFIQIAIs Uf5&        ~JIs¥
                                rOR OfFISh'LL USE OnbY


   treatment of choice for headaches related to a concussion is acetaminophen. Furthennore,
   these instructions clarifY that narcotics may cause significant sedation and interfere with a
   Service member's ability to perfonn.

B.3 Findings
a. A member of the Gray Team who visited Camp TQ in February 2009 explained during our
interview that they observed several Service members who appeared "dazed" and "zombie­
like, possibly due to medications." Additionally, the team acknowledged in their report that
they had concerns that "he (the Investigator) has given these medications (Topiramate and
Sumatriptan), by his report, to every single protocol patient" as ''they all have headaches."

b. The MNC-I Surgeon sent the Deployed Research Team (DRT) to Camp TQ in February
2009 to conduct a review ofthe Clinical Trial based on concerns raised by the Gray Team.
The DRT stated in their report that the Investigator was using "Sumatriptan and Topiramate in
the treatment ofmTB!." The DRT further explained that when questioned, the Investigator
acknowledged that he only used these medications as ''treatment for patients who have
headaches and are not given to all patients but rather based on this symptom."

c. Sumatriptan is a medication used to treat migraine headaches. Side effects include
drowsiness, dizziness and vomiting, among others.

d. Topiramate is an anti-seizure medication and can also be used to prevent migraine
headaches. Side effects include difficulty concentrating, confusion, memory problems and
drowsiness, among others.

e. The "Concussion Patient Infonnation Sheet" that is included in the JTTS CPO for
mTBIIConcussion lists the following symptoms (among others), which are associated with
concussion: difficulty concentrating, confusion, difficulty remembering,
insomnia/drowsiness/sleep disturbances, nausea/vomiting, and dizziness. The infonnation
sheet provides a warning that if these symptoms persist or do not improve within 24 hours, the
patient should seek additional medical treatment.

f. During our interview, the senior member of the DRT explained that at the time ofthe
DRT's visit to Camp TQ, there were no research participants available. Consequently, the
team did not conduct any patient interviews or health record reviews, nor were there any
research participants available to observe for any "dazed" behavior. Additionally, he
explained that medications the Investigator used to treat the Service member's headaches
were appropriate for headaches. Furthennore, he stated that he felt that the Investigator was
"aggressive with his treatment ofheadaches" using Sumatriptan and Topiramate. However,
he further clarified that he was not asked to do a quality of care review to detennine whether
the care provided was appropriate.

g. The senior member ofthe DRT was a physician with a clinical background in perinatology
(a medical specialty related to the diagnosis and treatment of disorders affecting the mother
and fetus or newborn during late pregnancy or childbirth.) He stated that in researching
Sumatriptan and Topiramate he found that these medications were indicated to treat
headaches; therefore, he felt this was acceptable treatment. Additionally, during the
                                              34
                                POlt MPICI1\L USE OUVl
                                 FOlt OFFfCJ.il\L USE ONlslf


discussion of his clinical background, he clarified that the treatment of TBI was not in his
purvIew.

h. We interviewed one ofthe members of the Gray Team (a U.S. Anny neurologist) who
expressed concern whether the appropriate standard of care was delivered to those U.S.
Service members suffering from mTBI who were participating in the Clinical Trial.
Additionally, he clarified that "atypical headache medications" were "preferentially used" by
the Investigator.

i. "Atypical" in the medical sense, refers to a deviation from normal. Therefore, the U.S.
Anny neurologist, who stated that the Investigator used "atypical headache medications", was
referring to medications that were not nonnally used to treat headaches associated with a head
injury (e.g. mTBI).

j. According to a Navy official assigned to Camp TQ, the Investigator "aggressively" treated
research subjects for headaches.

B.3 Discussion
The clinical practice guidelines for the treatment of mTBI in theater specify that only
acetaminophen (e.g., Tylenol®) should be used to treat headaches resulting from concussion.
Additionally, these guidelines specifically stated that narcotics should be avoided.

The Investigator used medications such as Topiramate (an anti-convulsant medication used to
treat seizures) and Sumatriptan (a migraine treatment) to treat headaches for patients with
mTB!. These medications were not listed in the MNC-I approved research protocol, nor are
they indicated for the treatment of headaches reSUlting from concussion or a head injury.
Additionally, the side effects ofthese medications are similar to the symptoms of a
concussion. Consequently, a Service member may be confused as to whether their continued
symptoms are related to the concussion (and require medical attention) or to the side effects of
medications they received due to headaches related to the concussion.

B.3 Conclusion
Although some anti-seizure and migraine medications are approved by the FDA to treat
certain headaches, they are contraindicated for the early treatment ofheadaches resulting from
concussion, because their side effects (memory problems, drowsiness, and confusion) can
mask symptoms of a life-threatening intracranial hemorrhage or more severe concussion.

The DRT did not recognize that Topiramate and Sumatriptan were inappropriate medications
for the treatment of headaches in the U.S. Service members participating in the Clinical Trial.
Consequently, research participants were exposed to increased risk to their health and safety.

U.S. Service members that participated in the Clinical Trial received medications that were
contraindicated for their condition, specifically, mTB!. This was inconsistent with military
guidelines for patient care. As a result, the health and welfare of the participants may have
been jeopardized. Therefore, a Quality of Care Review and health assessment are needed to
detennine whether human subjects were harmed as a result of participation in this research.

                                              35 

                                 FOR: OFFIOJ.ilfrb USE OtiUI 

                                 jQIt QtkFIQfAl5 USE ONr},I



8.3 	Recommendations, Management Comments and Our Response
Recommendation B.3.1 Allegations of sub-standard patient care performed by a U.S.
Navy physician were referred to the U.S. Navy on February 18, 2010 for further
investigation and a Quality of Care Review.

U.S. Navy Bureau of Medicine and Surgery Comments
"(fO{o;Q) 	The Chief, Bureau of Medicine and Surgery
recommendation and conducted a             of Care




Our Response




Our position is that any additional effort to assess the health ofthe research subjects should be
ajoint DoD responsibility. Therefore, on February 17,2011, we requested that the Assistant
Secretary for Health Mfairs (ASD(HA» conduct the necessary health assessments of the 80
military personnel who participated in the mTB! clinical trial (see Appendix H).

Revised and Added Recommendations
As a result of BUMED's comments and our response Recommendation B.3.2 is added as
follows:



     We reconnnendth3ttheAssistant Secretary ofJ)efeuse foJ' Health AtTain:

     8.3.2 	COl1ducthealth~~GlSSllU~ntsto detenniI'l.eif there were any adverse   effects .Qll
           the health of the U ,So ~e01ige nrembers wpomay.have received medications
           that were contraindicated while they were participating in the Clinical Trialand
           undergoing treatmentfor a mTBI injury.




                                           36
                                 FOR OFFICIAL USE OHLT

                                                                                                    b(5)
             FOft OFF1E5ML USE ONLY




            Observation C. 
 

Weaknesses in the Process used to Review 
 

  and Approve Medical Research in Iraq 





                           37 

             )!oOR O)!oFIOIAL USE ONLY 
 

                                 FOR OFFICIAL USE OHVi


Observation C. Weaknesses in the Process
used to Review and Approve Medical Research
in Iraq
Weaknesses were noted in the process used to review and approve the research protocol for
the proposed Clinical Trial in Camp TQ, Iraq. Specifically, we identified opportunities for
improvement in the following areas:
       C.t     Identifying and addressing potential conflicts of interest
       C.2     Compliance with FDA regulations and guidelines
       C.3     Communication during the scientific peer review
       C.4     Selection and assignment ofthe Medical Monitor
       C.5     Identification and protection of vulnerable populations
       C.6     Investigation ofmedical research misconduct in joint-service environments

These weaknesses were caused by a lack of specificity and consistency in existing processes
and tools, as well as by a lack ofrigor which medical research authorities exercised during
their review and approval ofthe research protocol.

As a result, the research integrity of the Clinical Trial was compromised and the rights of the
human research subjects were jeopardized.




                                           38 

                                 FOR OFFICtAL USE ONtry 

                                 POR 8PFICJiAL USE OnLY


C.1 Identifying and addressing conflicts of interest

    Although two potential conflicts of interest existed, processes used during
    the review and approval of medical research were not effective in
    identifying and addressing them.


C.1 Applicable Criteria
• 	 18 USC Section 208, "Acts Affecting a Personal Financial Interest," January 3,2007,
    provides for criminal penalties for financial conflict of interest violations.
• 	 The Department of Defense's Regulation, DoD 5500.7-R, "Joint Ethics Regulation,"
    August 1, 1993, provides that a DoD military employee has a duty to follow ethics rules
    and specifically to disclose potential financial conflicts of interest.
• 	 SECNAVINS1) 3900.39D, "Human Research Protection Program," November 6,2006,
    defines conflict of interest in section 6.b as "any situation in which financial or personal
    interests may compromise, or present the appearance of compromising, an individual's or
    a group's judgment in supporting research." Additionally, it mandates that "investigators
    must disclose all conflicts of interest, including any financial interests, to the IRB."
• 	 The Multi-National Corp - Iraq's "Human Research Protection Program" (MNC-I
    HRPP), June 24, 2008, Section 3.2, states that "possible conflicts of interest include a
    proprietary interest in the tested product, including, but not limited to, a patent, a
    trademark, copyright, or licensing agreement."

C.1 Findings
a. The Investigator did not disclose his interest in U.S. patents related to NAC, which was the
drug used in the Clinical Trial (see Observation A.I "A potential fmancial conflict of interest
was not disclosed".)

b. The BAMC IRB provided a templated form ("Human Use Protocol") for researchers to use
when completing their application to submit a research proposal. This form included a
section for each required research protocol element (e.g. Research Plan, Objectives,
Hypothesis, and Design etc.) Researchers were required to use this templated form to ensure
that all required components of their research protocol application were complete prior to the
review by the IRB.

c. The Human Protection Administrator (HP A) ofthe Deployed Research Team (DRT)
assisted the Investigator during his submission of the research protocol. The HPA reviewed
the protocol as written and facilitated correspondence between the Investigator (who was in
Iraq) and the BAMC IRB (which was in Texas) to address specific questions posed by the
scientific reviewers and the IRB.

d. 	 The MNC-I Surgeon requested that the DRT investigate concerns raised by the Gray

                                            39 

                                 FOR: OFFICIAL USE Of.LY 

Team, in February 2009, regarding the conduct of the Clinical Trial at Camp TQ. Two
members ofthe DRT, the Medical Director and the Deputy Director ofthe team, visited Camp
TQ in February 2009. The Deputy Director ofthe team was designated as responsible for the
Operation Iraqi Freedom Theater Hwnan Research Protection Program and also served as the
HP A where she specifically was responsible to assist the Investigator during the submission
of his research protocol.

e. Our review of Army regulations revealed that the Army regulations lacked specific
guidance regarding the policy and procedure for Investigators to identify and reveal potential
conflicts of interest to institutional review boards. Additionally, these regulations do not
address the purpose of and process used by deployed research review teams who help to
provide a level ofoversight for research conducted in-theater.

C.1 Discussion
The Investigator did not disclose his interest in U.S. patents related to NAC although both
research regulations and the Joint Ethics RegUlation established a duty to do so. The "Human
Use Protocol" template used to submit the research protocol to the BAMC IRB did not
specifically ask the investigator to disclose potential conflicts of interest. This contributed to
a passive approach by which the IRB relied on the Investigator to fulfill his responsibility for
disclosure.

The MNC-I Hwnan Research Protection Program provides limited guidance on conflicts of
interest. However, higher-level Army Regulations (AR 70-25 and 40-38) are 20 years old and
lack specific guidance regarding the disclosure of potential conflicts of interest. Similarly, the
BAMC IRB's Standard Operating Procedures (SOPs) do not specify a proactive process for
identifying or prompting an investigator's disclosure ofpotential conflicts of interest.

Additionally, the Human Protection Administrator (HP A), who was involved in the
application, review and approval ofthe Clinical Trial, also served as a reviewer on the
Deployed Research Team, which was responsible to investigate potential violations related to
the same research protocol.

C.1 Conclusion
Two potential conflicts of interest existed, which were not identified, nor addressed by
research authorities. First was the Investigator's non-disclosure of a potential financial
conflict of interest. Although, it is the researcher's responsibility to disclose financial
conflicts of interest, the lack of a standardized approach by the BAMC IRB to request
information on proprietary interests contributed to the board's lack of awareness of any
potential conflicts of interest.

Secondly, research authorities did not recognize that a conflict of interest existed when one of
the members ofthe DR T who investigated potential research misconduct was also involved in
the review and approval process used during consideration of the research protocol.

As a result of the failure ofresearch authorities to recognize and address conflicts of interest,
in addition to the Investigator's non-disclosure of potential conflicts of interest, the validity of
                                            40
                                  Pent Ml'ICNL U~~        O'1~L i
                                 F6lt OFFICML USE ONLY


the research became questionable, and the rights of the participants were jeopardized.

C.1 Recommendations, Management Comments and Our Response
Recommendation c.t.t: We recommend that the U.S. Anny Medical Command review
and update AR 70-25 and AR 40-38 to clarify requirements for disclosing potential
conflicts of interest during the conduct of clinical research.

U.S. Army Medical Command Comments
The Commanding General, U.S. Anny Medical Command concurred with our
recommendation. He stated that the Anny would combine AR 70-25 and AR 40-38 into an
updated consolidated Army human research protections regulation that clarifies the
requirements for disclosing and managing potential and actual conflicts of interests that occur
prior to and during the conduct of research involving human SUbjects. He expected this
regulation to be approved by April 30, 2012. Additionally, the Commanding General
explained that, in the interim, he would be sending a targeted message detailing these
requirements to all Anny Activities that support research involving human subjects by the
date of our final report. Furthermore, he intended to follow-up with an official message to all
Anny Activities by March 15, 2011.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation C.l.2: We recommend that the U.S. Anny Medical Command ensure
the DAMC IRB's Standard Operating Procedures are updated to clarify requirements
for disclosing potential conflicts of interest. Additionally,

Recommendation C.l.3: Implement the use of a iidisclosure fonn" to be submitted
along with research protocols for IRB consideration, in order to ensure potential
conflicts ofinterest are identified by the Investigator and considered by the IRB.

U.S. Army Medical Command Comments
'The Commanding General, u.s. Anny Medical Command concurred with our
recommendations. He stated that the Director, Anny Human Research Protections Office will
ensure that the BAMC IRB Standard Operating Procedures are updated to clarify
requirements for disclosing potential conflicts of interest. Additionally, he explained that
these procedures will include the use of a comprehensive "disclosure form" to ensure
potential conflicts of interest are identified by the investigator and considered by the IRB.
The SOPs will be updated, reviewed and approved by the date of our final report.

Furthermore, he explained that the Anny has implemented a new process and procedures for
medical research conducted in theater. Specifically, as of August 2010, the u.s. Central
Command (USCENTCOM) now holds the Anny approved DoD Assurance which covers
research conducted in the Joint Operation Areas (lOA) of Iraq, Kuwait and Mghanistan.
Furthermore, the U.S. Anny Medical Research and Materiel Command (HQ USAMRMC)
IRB now serves as the IRB of record for research conducted in these areas. Consequently, the
                                              41
                                FOR: OFF10:M:15 UGE ONIs¥
Commanding General, U.S. Army Medical Command explained that the current research
policies and procedures, as developed by USCENTCOM and USAMRMC, meet the intent of
the DoD OIG recommendations as stated in this report.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation CIA: We reconunend that the U.S. Army Medical Command ensure
that there are policies and procedures in place for individuals or teams that are
responsible to conduct research study reviews and investigations in a deployed setting.
Specifically, ensure that individuals involved in the review of clinical research must be
independent and not previously involved in the research protocol review and approval
process.

U.S. Army Medical Command Comments
The Commanding General, U.S. Army Medical Command concurred with our
recommendation. He explained that in March 2009, an independent MNF-I Human
Protections Administrator (HPA) position was established to ensure that there was an
objective review of research conducted in Iraq. Additionally, the Commanding General stated
that USCENTCOM's Human Research Protection Plan and standard operating procedures
clearly describes the HPA's responsibilities and that the HPA is independent ofthe now
"Joint" (formerly "Deployed") Combat Casualty Research Team.

Our Response
The Commanding General's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.

Recommendation C.I.5: Pending the outcome of the U.S. Navy investigation, we
recommend that the U.S. Army Medical Command conduct a review of the process used
during the Deployed Research Team'S visit to Camp TQ to identitY any necessary
changes needed to ensure that future reviews are complete and accurate.

U.S. Army Medical Command Comments·
The Commanding General, U.S. Army Medical Command concurred with our
recommendation. He identified that the Director, Army Human Research Protections Office,
would conduct a review ofthe Deployed Combat Casualty Research Team's visit to Camp
TQ to identifY if changes were needed to ensure that future reviews were complete and
accurate. This report is expected to be completed by May 15, 2011. Additionally, the
Commanding General stated that once the investigation was completed, they would further
evaluate if any additional changes were necessary to ensure that in-theater research reviews
were complete and accurate.

Our Response
The Commanding General's comments are responsive. No further action is required.


                                             42 

                                }tQIt: Q}tFlG1shb USE O~iV{ 

                                 FOR OFFIOIAL USE Q)JLY 




C.2 	 Compliance with Food and Drug Administration
      regulations and guidelines

   The BAMC IRB was not effective in acknowledging or complying with
   Food and Drug Administration (FDA) regulations for the conduct of
   clinical trials using Investigational New Drugs (IND).


C.2 Applicable Criteria
• 	 21 USC 321, Sec. 201, "Federal Food, Drug and Cosmetic Act," January 3,2007, defines
    and differentiates drugs and new drugs.
• 	 21 CFR Part 312, "Investigational New Drug Application," April 1, 2008, states that an
    IND is required for the clinical investigation of a drug product that supports a new
    indication for use, or that involves a patient population or other factors that may increase
    risks associated with use ofthe drug.
• 	 AR 40~ 7, "Use of Investigational Drugs and Devices in Humans and the Use of Schedule
    1 Controlled Drug Substances," January 4, 1991, defines a drug as investigational "when
    the composition is such that its proposed use is not recognized for the use under the
    conditions prescribed, or its proposed use is not recommended or suggested in its
    approved labeling."
• 	 Additionally, AR 40~7, section 4-12 stipulates that a physician in an Annytreatment
    facility is conducting a clinical investigation requiring an IND when using an approved
    drug for an unapproved indication "in situations where data on drug effects from one or
    more patients are being systematically recorded by a physician for the purpose of
    substantiating or refuting a claim oftherapeutic efficacy in an unlabeled indication for an
    approved drug." lbis regulation further stipulates that an IND is required unless ALL of
    the following apply: The investigation will not be reported as a well controlled study in
    support of a new indication for use ... nor any other significant change in labeling; the
    investigation does not support a significant change in advertising for a lawfully marketed
    prescription drug product; the route of administration, dosage level, patient popUlation or
    other factors do not significantly increase risks associated with the product; the
    investigation complies with Anny requirements for human use review and informed
    consent; AND the drug is not being promoted as safe or effective for the purposes under
    investigation.
• 	 BUMEDINST 3900.6B, "Protection of Human Subjects," October 4,2001, Enclosure 2
    defines ''unlabeled use" in research as "any deviation from the indications, dose, route of
    administration, and dosage form or treatment population of a drug approved or licensed by
    FDA." It further clarifies that "treatment of an individual patient" is considered the
    practice of medicine, and "a scientific study using human research participants" is
    considered research, is regulated by the FDA and usually requires an IND.


                                           43
                                 FOR OFFICI-lib USE O?HyY
                                 POlt OFFIOI,'rL USB ONlYY


C.2 Findings
a. The FDA is responsible to protect the public's health by assuring the "safety, efficacy and
security of human drugs." Specifically, the FDA's Center for Drug Evaluation and Research
(CDER) regulates over-the-counter and prescription drugs to ensure that they are safe and
effective for human use. Accordingly, the clinical divisions within the CDER offer
consultation on IND matters for researchers and research agencies.

b. Per the FDA, an "Investigator IND is submitted by a physician who both initiates and
conducts an investigation, and under whose immediate direction the investigational drug is
administered or dispensed. A physician might submit a research IND to propose studying an
unapproved drug, or an approved product for a new indication or in a new patient population."
Furthermore, the FDA stipulates that clinical drug trials require that an IND is reviewed by
the FDA and the local institutional review board prior to initiation ofthe research.

c. The Investigator hypothesized that "the administration of NAC (n-Acetylcysteine) for
seven days along with observation will result in improved hearing and balance function in
individuals who demonstrate these disorders after blast exposure when compared to
observation alone at the seven day time point."

d. The form of NAC that was used in the Clinical Study was a tablet.

e. NAC in tablet form is available as a nutritional supplement sold in retail stores. This
nutritional supplement is not regulated by the FDA as a drug.

f. The only forms of NAC that are FDA approved are solutions. Specific solutions approved
are: 1) Inhaled solution for mucolytic therapy (dissolves thick mucus making it easier to
cough up secretions in certain respiratory conditions such as bronchitis and pneumonia), and
2) Injectable solution used to treat acetaminophen (e.g., Tylenol®) overdose.

g. The tablet form ofNAC is not approved by the FDA to treat mTBI.

h. Federal guidelines describe "drugs" as substances that are intended to diagnose, cure,
mitigate, treat, or prevent disease.

i. In response to our query, the FDA reviewed the research protocol application and
determined that an "IND was necessary for FDA review". Additionally, they explained that
"any substance intended for use in diagnosis, cure, mitigation, treatment or prevention of
disease .. .is a drug". Furthermore, they added that "ifthe substance (drug) is not a lawfully
marketed drug product, it cannot be administered to humans without being the subject of an
IND."

j. During our interview, the Chairman ofthe BAMC IRB acknowledged that one ofthe peer
reviewers who conducted the scientific review ofthe research protocol, as well as the IRB
itself, posed questions to the Investigator whether an IND was needed to use NAC in the
Clinical Trial. In response, the Investigator stated than the "FDA has repeatedly said that an
IND is not needed for the dose of medication we are using." (See Observation A.3, "An
                                               44
                                 Pt)lt OFFICIAL USB O:HL¥
                                 pelt eFFtCIAL USE ONorsy


Investigational New Drug Application was not submitted to the Food and Drug
Administration". )

k. Our review ofthe research protocol template used by the Investigator to present his
research proposal did not have a specific section related to experimental drugs or INDs.
Additionally, the form used by the scientific reviewers did not have a section specific to
experimental drugs or INDs.

1. The Chairman ofthe IRB did not remember ifthere was additional discussion during the
board meetings specific to the need for an IND, nor could he remember if the IRB members
considered the scientific reviewer's IND questions and the Investigator's responses to those
questions prior to voting to recommend approval for this research protocol.

m. The Chairman ofthe IRB stated that he had extensive experience using NAC in the
solution form as an FDA approved medication for Tylenol® overdose, and believed that the
dosage as proposed by the Investigator fell within the adult dosage range for the drug. When
asked about the Investigator's intent to use NAC pills (tablets) vice the FDA approved
solution, he said that the Investigator explained that pills were an approved method.

n. We reviewed the IRB's minutes specific to this Clinical Study and found evidence of
documentation of decisions made (e.g. Protocol recommended for approval), however did not
fmd a description of discussions that occurred which led to those decisions. Specifically,
there was limited evidence of deliberations/discussions regarding the use ofNAC and
possible need for an IND.

o. The BAMC IRB's Standard Operating Procedures (SOP) manual identified that a
representative ofthe Pharmacy Department should be included as a member ofthe
institutional review board. However, this SOP did not identify specific responsibilities for the
pharmacy representative, nor did the SOP include any details for consideration of drug trials
or IND requests.

p. The Chairman of the BAMC IRB acknowledged that they have a Pharmacist who is a
member ofthe IRB, however, this Pharmacist was not present during the board's deliberations
regarding the administration of N AC and the possible need for the Investigator to pursue an
IND.

q. The Chairman ofthe IRB stated that he believed the members of the IRB "performed due
diligence," however, may not have "pursued all avenues" available to the board in rendering a
recommendation to approve the protocol as submitted without an IND.

r. The U.S. Army Medical Materiel Development Activity (USAMMDA) Division of
Regulated Activities and Compliance (DRAC) serves as the U.S. Army subject matter expert
regarding FDA regulations and IND determinations. An Army official from USAMMDA
verified that neither the Investigator, nor the BAMC IRB, consulted with the DRAC regarding
whether the N AC tablets, as intended for use in the Clinical Trial, needed an IND.


                                            45
                                 pelt eFFtet2\L U8r: ~qLY
                                ¥Oft Of7f7ICI1\L t:f~:I!   eil~L i



s. The BAMC IRB recommended approval ofthe research protocol in December 2008.
Consequently, the Investigator initiated the Clinical Trial in December 2008 and administered
NAC to research subjects without the necessary IND application.

C.2 Discussion
The research protocol that was submitted to the IRB for review and approval hypothesized
that the Investigator intended to use NAC to improve hearing and balance function for those
u.s. Service members who were exposed to blast injuries. While there are forms ofNAC that
are approved as drugs under Food and Drug Act (FDA) regulations (e.g. Mucomyst Solution
for Tylenol® overdose), the substance under examination in this Clinical Trial is an
antioxidant tablet sold in retail stores as an unregulated nutritional supplement.

One of the scientific reviewers and the BAMC IRB questioned whether an IND was required
to use NAC as intended in the Clinical Trial. In response, the Investigator stated that the FDA
indicated that an IND was not needed. Consequently, without further consideration, the IRB
approved the research protocol and the Investigator administered NAC to U.S. Service
members without an IND.

Although one member ofthe IRB was a pharmacist, that member was not consulted regarding
the use ofNAC and the possible need for an IND. Additionally, there was no evidence that
the U.S. Army Medical Materiel Development Activity (USAMMDA) Division of Regulated
Activities and Compliance (DRAC) was consulted regarding the intended use ofNAC in the
Clinical Trial. Furthermore, the BAMC IRB's SOP did not specify procedures for subject
matter experts to be engaged when considering research protocols involving the use of a
medication that may require an IND or that otherwise might fall beyond the scope of expertise
ofthe IRB members present at the time ofreview ofthe research protocol.

Federal and Army regulations provide specific guidance on the factors that trigger the need
for an IND application in proposed research, as well as the factors that permit exemption from
this requirement. In addition, Federal guidelines define and differentiate drugs, new drugs,
nutritional supplements, and the lawful labeling and marketing of each. NAC, as it was
intended for use in this Clinical Trial, is considered a drug because it was used to treat a
condition, specifically, hearing and balance impairments related to blast exposures. Given
that the tablet form ofNAC is not FDA approved to treat mTBI, this research was for a
clinical drug trial that studied the effectiveness of an experimental drug on human subjects.
Submission ofthe proposal to the FDA via an IND application was required. Additionally,
the conduct ofthe Clinical Trial with an IND would provide an additional layer of scrutiny for
the quality of research and safety of participants.

C.2 Conclusion
The FDA confirmed that the Clinical Trial required an IND. However, this requirement was
not appropriately recognized and addressed by the BAMC IRB during the review and
approval of the research protocol. Consequently, this study proceeded without required
FDA scrutiny. As a result, the validity of the research became questionable, and the rights of
the participants were jeopardized.

                                              46
                                FQR QFFI01AL USE ONLY
                                pelt MPICIAL USE OUVi


C.2 Recommendations, Management Comments and Our Response
Recommendation C.2.t: We recommend that the U.S. Anny Medical Command
conduct a review into the process used by the BAMC IRB which led to the decision to
recommend approval for this research protocol without submission of an Investigational
New Drug application.

U.S. Army Medical Command Comments
The Commanding General, US. Anny Medical Command concurred with our
recommendation. He identified that the Director, Anny Human Research Protections Office
(AHRPO), will conduct a review into the process used by the BAMC IRB which led to the
decision to recommend approval for this research protocol. Additionally, AHRPO will
review the current BAMC IRB processes and SOPs to ensure that the system deficiencies that
led to the failure to identify the requirement for an IND application in this case have been
addressed. AHRPO's reports are to be completed by the date ofthe fmal report.

Our Response
The Commanding General's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.

Recommendation C.2.2: We recommend that the U.S. Anny Medical Command review
and npdate AR 40-7 to clarify requirements regarding use of investigational drugs in
medical research, to include intended use of nutritional supplements as experimental
drugs. Additionally, identify the U.S. Anny Medical Materiel Development Activity
Division of Regulated Activities and Compliance as a consulting agency for researchers
and institutional review boards regarding interpretation of FDA regulations and
Investigational New Drug detenninations.

U.S. Army Medical Command Comments
The Commanding General, US. Anny Medical Command concurred with our
recommendation. He stated that the U.S. Anny Medical Materiel Development Activity
Division of Regulated Activities and Compliance (USAMMDA DRAC) will update AR 40-7
with respect to clarifying, based on FDA regulations and the latest guidance from the FDA,
requirements for submission of IND applications for studies utilizing nutritional supplements
as experimental drugs. Additionally, this update will include identifying USAMMDA DRAC
as the consulting agency for interpretation of FDA regulations and IND determinations. This
update is to be completed by April 30, 2012.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation C.2.3: We recommend that the U.S. Anny Medical Command update
the BAMC IRB's policies and procedures to ensure compliance with Investigational
New Drug considerations and procedures. Additionally, ensure that these policies and
procedures prompt consultation with a subject matter expert for FDA-related matters,
particularly for Investigational New Drugs, as well as for any other matters outside the
                                           47 

                                pelt ep¥ICIAL USE OUEs': 

                                FOR OiilQlA15lJ8E ONbY


scope ofmembers of the IRB. Additionally;

Recommendation C.2.4: Develop a specific checklist for researchers to use at the time of
protocol submission which identifies the criteria used in making an Investigational New
Drug determination. Additionally, this form could be used by scientific reviewers and
institutional review boards to eusure that requirements for Investigational New Drug
considerations are met.

U.S. Army Medical Command Comments
The Commanding General, U.S. Anny Medical Command concurred with our
recommendations. He identified that the Director, Anny Human Research Protections Office,
would ensure that BAMC's IRB SOPs are updated to require the comprehensive review of
clinical research involving the use of medical products and/or devices to ensure compliance
with FDA regulations regarding INDs and Investigational Device Exemptions (IDEs).
Additionally, he explained that these SOPs will identifY procedures for consulting the
USAMMDA DRAC for interpretation of FDA regulations and provision of IND/IDE
determinations. He further explained, the SOPs will include checklists for researchers to use
at the time ofprotocol submission which identifY the criteria used in making an IND or IDE
determination. These SOPs will be updated, reviewed and approved by the date of our fmal
report.

Furthermore, the HQ USAMRMC IRB protocol application template currently in use for all
new research in Theater includes two sections to solicit information from the researcher
regarding planned use of any investigational or approved drugs, dietary supplements,
biologics, or devices in the proposed research. This information is used by the IRB in making
regulatory determinations and/or requesting subject matter expert consultation to ensure that
all requirements for IND considerations are met.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation C.2.5: We recommend that the U.S. Army Medical Command ensure
that all individuals involved in the submission, review, and approval of clinical research
protocols receive training in the use of investigational drugs, Food and Drug
Administration regulations and the Investigational New Drug process.

U.S. Army Medical Command Comments
The Commanding General, U.S. Anny Medical Command concurred with our
recommendation. He identified that AR 70-25 and AR 40-7 will be updated to include a
requirement for individuals involved in the submission, review, and approval of clinical
research protocols to receive training in FDA regulations applicable to the conduct of studies
involving the administration ofmedical products and the use of medical devices. These
regulations will be updated by April 30, 2012.

Our Response
The Commanding General's comments are responsive. No further action is required.
                                              48
                                FOR OFFUJ1,AI5 U81i    ~115¥
                                FOR OFFICIAL "51! 01~er


Recommendation C.2.6: We recommend that the U.S. Navy Bureau of Medicine and
Surgery review and update BUMEDINST 3900.68 to clarify procedures regarding the
use ofinvestigational drugs in medical research, to include intended use ornutritional
supplements and other over-the-counter products as experimental drugs.

U.S. Navy Bureau of Medicine and Surgery Comments
(FOUO) The Chief, Bureau of Medicine and Surgery (BUMED) concurred with our
recommendation. He stated that the BUMED Special Assistant for Ethics and Professional
Integrity/Executive Research Integrity Officer will be responsible for the revision of
BUMEDINST 3900.6B in coordination with the BUMED Office of Special Assistant for
Medical Research/Director, Navy Medicine Research and Development Center. Estimated
completion date is December 31, 2011.

Our Response
The Chief of BUMED's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.

Recommendation C.2.7: We recommend that the U.S. Navy Bureau ofMedicine and
Surgery ensure that all individuals involved in the submission, review, and approval of
clinical research protocols receive training in the use or investigational drugs, Food and
Drug Administration regulations and the Investigational New Drug process.

U.S. Navy Bureau of Medicine and Surgery Comments
(FOUO) The Chief, Bureau of Medicine and Surgery (BUM ED) concurred with our
recommendation. He stated that the Director, Navy Medicine Research and Development
Center «NMRDC) and relevant NMRDC subject matter experts will have the responsibility
to identify relevant professional education programs for incorporation into local command
education and training curricula by July 31, 2011. This training will be based on the revision
of BUMEDINST 3900.6B, previously discussed under recommendation C.2.6.

Our Response
The Chief of BUMED's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.


C.3 Communication during Scientific Peer Review

   Existing procedures used during the review of the Research Protocol failed
   to resolve scientific peer reviewer concerns.


C.3 Applicable Criteria
• 	 AR 70-25 "Use of Volunteers as Subjects of Research," January 25, 1990, Section 3-2,
    defines a scientific review as a type ofpeer review "to assure that the protocol design

                                          49 

                                FOR OFFICIAL USE ONLY 

                                 FOR OFFI0i2\L USl!; O?~L¥


   yields scientifically useful data which meets the objective(s) ofthe study."
• 	 The MNC - I's Human Research Protection Program (HRPP), JlIDe 24, 2008, states that
    scientific review and assessment determines whether a research protocol contains
    scientific merit. The HRPP further identifies roles, responsibilities and procedures for
    scientific review, stipulating that the Human Protections Administrator (HPA) is
    responsible for facilitating communication between the investigator and peer reviewers.
    Additionally, the HP A serves as the "central point of contact for coordinating
    communications and effecting individuals to complete their requirements." Furthermore,
    the HRPP states that the U.S. Army Institute for Surgical Research (USAISR) is
    responsible for the scientific review of Iraq research proposals, and the USAISR Senior
    Scientist's signature on the protocol "indicates a scientific review ofthe protocol has been
    conducted and that the protocol is approved for submission to the BAMC IRB."

C.3 Findings
a. The research protocol application, thatwas completed by the Investigator, specified in the
hypothesis that "the administration ofNAC (n-Acetylcysteine) for seven days along with
observation will result in improved hearing and balance function in individuals who
demonstrate these disorders after blast exposure when compared to observation alone at the
seven day time point."

b. Two medical professionals conducted the Clinical Trial's scientific peer review using a
checklist provided by the IRB. The checklist did not have a specific section related to the use
of investigational drugs. Consequently, only one of the reviewers identified concerns
regarding the Investigator's planned use ofNAC to treat mTBI and wrote that "an IND
application for the use of [the] compound [NAC] may be required from the FDA."

c. Staff from the U.S. Army's Institute of Surgical Research (USAISR), Regulatory
Compliance and Quality Management Division collected all information from the scientific
peer reviewers and forwarded any questions and or concerns to the Human Protections
Administrator (HPA) in Iraq who served as a facilitator for communication between the
Investigator (in Iraq) and the research authorities (in CONUS), including the scientific peer
reviewers and the BAMC IRB. Consequently, the concerns expressed by the peer reviewer
were relayed by USAISR to the HPA in Iraq, who then forwarded the email listing the
concerns to the Investigator.

d. The Investigator provided the answers (noted below) in an email to the HP A in response to
the peer reviewer's question. The HPA then forwarded the Investigator's emailed responses
to USAISR for their consideration:

   • 	 "The reason we picked NAC is the 40 year safety history ofthe medicine as
       Mucomyst® and our MCRD [Marine Corps Recruit Depot] study with Marines and
       NAC with no side effects higher than placebo or background."
   • 	 "This medicine has no increased risk over not taking the medicine and the patients will
       be on light duty while taking the medicine so minor things like stomach upset will be
       acceptable. "
                                               50 

                                 FOR OFFICML USE OHU{ 

                                 FOR OFFIObltL USE ONLY


    • 	 "The FDA has repeatedly said that an IND is not needed for the dose of medicine we
        are using."
e. One ofthe peer reviewers stated that she raised the concern whether an IND was needed
for the NAC during her scientific review of the protocol. She provided comments about her
concerns on the checklist that was provided by the IRB. She acknowledged that she did not
receive any additional follow-up questions, or feedback regarding her concerns about the
IND. Furthennore, the peer reviewer explained that in comparison between this review and
scientific reviews that she conducted for other agencies, she felt that she was more involved
with the other reviews. She expressed her concern that a less interactive review process might
not take into account the reviewer's concerns and whether the responses adequately addressed
those concerns.
f. During our interview, an u.s. Anny Official at USAISR acknowledged that one ofthe peer
reviewers expressed concern whether an IND was needed for the NAC as proposed in the
research protocol. He further explained that in his role as "Senior Scientist" for the Clinical
Trial, he felt that the Investigator's responses to this concern were vague. Additional emails
were exchanged with the Investigator (using the HPA as the person who relayed the emails) to
ask for further clarification. The senior scientist, however, believed that there was no
resolution ofthe expressed concern with the IND consideration and forwarded this
infonnation to the IRB for their consideration.

g. During our interview, the Chainnan ofthe BAMC IRB explained that he was aware that a
peer reviewer who reviewed the research protocol prior to its approval expressed concerns
about NAC, as well as the IRB itself questioned whether an IND was needed to use NAC in
the Clinical Trial. He did not remember ifthere was discussion at the board level specific to
the need for an IND, nor could he remember ifthe board members considered the scientific
reviewer's IND questions and the Investigator's responses to those questions prior to voting to
recommend approval for this research protocol.

h. Our review ofthe IRB's minutes did not reveal any detailed discussions about the need for
an IND, nor was there any evidence in the minutes that the peer reviewer's concerns, nor the
Investigator's responses were considered by the IRB.

i. The IRB Chainnan stated that he believed the IRB "perfonned due diligence" during their
review of the research protocol, however, may not have "pursued all avenues" available to the
board in rendering a recommendation to approve the protocol as submitted without an IND

j. The USAISR official clarified that he was not requested to provide any further consultation
with the IRB other than forward the scientific peer review checklists, questions asked by the
peer reviewer and responses provided by the Investigator.

C.3 Discussion
Research protocols undergo a scientific peer review prior to consideration by an institutional
review board. The purpose ofthe scientific review is to ensure that the research protocol
contains scientific merit and that the protocol design ensures useful data which meets the
objective(s) ofthe proposed research.

                                              51
                                FOR OFFIOIAL Ul9~ O)JIsY
                                 FOR: 6Fl'lCtAL USE 6NUI


Two medical professionals conducted the Clinical Trial's scientific peer review using a
checklist provided by the IRB. A senior scientist from the u.s. Army Institute of Surgical
Research (USAISR) was responsible to ensure that the scientific peer review was completed
and forwarded this information to the BAMC IRB for their consideration.

During the scientific peer review process, the MNC-I Human Protections Administrator
CHPA) acted as a facilitator for communication among the parties: the scientific peer
reviewers, USAISR's Senior Scientist, the Investigator, and the IRE. Specifically, the
USAISR forwarded questions from the scientific reviewers to the HP A, who then forwarded
the questions onto the Investigator. Responses were forwarded from the Investigator to the
HPA, who then relayed the response to USAISR, who eventually forwarded them to the
BAMC IRB for their consideration. We did not find any evidence that the Investigator's
responses regarding a possible need for an IND were provided to the scientific peer reviewer
who originally posed the question.

Consequently, the scientific reviewers had no opportunity to respond or ask further questions,
and there is no evidence that the HP A, the reviewers, nor the Senior Scientist at USAISR
assessed the adequacy of the Investigator's responses to concerns raised.

Additionally, our interview with one ofthe scientific peer reviewers revealed that other
agencies and individual institutional review boards have different expectations for the extent
of interaction between scientific peer reviewers and the Investigator. Specifically, she
explained that several boards that she was involved with encouraged direct communication
between the reviewers and the researcher, as well as the institutional review board itself. In
this case, neither USAISR nor the BAMC IRB had procedures requiring a dialogue between
the scientific peer reviewers and the Investigator, or between the scientific peer reviewers and
the IRB.

Furthermore, our review Qfthe Scientific Review Checklist used by the peer reviewers
revealed that the checklist included the minimal requirements for conducting a scientific
review. However, it did not specifically address the use of investigational drugs. As a result,
only one of the two reviewers identified a concern related to the need for an IND.

C.3 Conclusion
The Investigator dismissed concerns regarding the need for an IND, and the procedures used
during the scientific review failed to resolve the scientific peer reviewer's concerns and
identifY that an IND was required. The lack oftwo-way communication between the
Investigator and the scientific peer reviewers and the lack of specific IND questions on the
Scientific Review Checklist contributed to the BAMC IRB approving the Clinical Trial
without consideration of an IND. As a result the validity of the research was questionable,
and the rights of the participants were jeopardized.

C.3 Recommendations, Management Comments and Our Response
Recommendation C.3.t: We recommend that the U.S. Anny Medical Command
conduct a review into the process used by the HPA and USAISR during the scientific
review ofthe research protocol and identitY improvements needed to ensure that future
                                               52 

                                 FOR OFFIGIld., UKIS    Q~J"){ 

                               FOR OFFIeIAL USE ONLY


scientific reviews are thorough, accurate and address all concerns necessary for a valid
and scientifically sound research proposal.

U.S. Army Medical Command Comments
The Commanding General, u.s. Anny Medical Command concurred with our
recommendation. On June 19,2010, the USCENTCOM and u.s. Anny Institute of Surgical
Research (USAISR) established a revised process for scientific review and approval of
USCENTCOM research protocols. The current SOP for scientific review includes robust
procedures to ensure that future scientific reviews are thorough, accurate and address all
concerns necessary for a valid and scientifically sound research proposal.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation C.3.2: We recommend that the U.S. Army Medical Command review
and update AR 40-7 to include a more detalled description of the process and procedure
for communication used during a scientific peer review, to ensure that actions taken are
adequate to address any of the reviewers' stated concerns or questions. Consider the
encouragement of an open exchange ofinformation among the scientific peer reviewers,
the investigator, and the institutional review board to resolve any concerns or
differences of opinion.

U.S. Army Medica.1 Command Comments
The Commanding General, u.s. Anny Medical Command concurred with our
recommendations. He explained that although the current AR 40-7 addresses the requirement
for scientific review, AR 70-25, "Use of Volunteers as Subjects of Research" dated January
25, 1990 is more specific in its discussion of scientific review requirements. Consequently
AR 70-25 is the regulation which requires an update according to our recommendation.

Furthermore, the Commanding General identified that AR 70-25 and AR 40-7 will be
consolidated into one updated Anny regulation governing the conduct ofresearch involving
human subjects. Expected completion and approval for the revised regulation is expected to
be April 30, 2012. This updated regulation will include a more detailed description ofthe
minimum requirements for the scientific review process and it will address procedures for
communication used during a scientific peer review. Additionally, this updated regulation
will encourage an open exchange of information among the scientific peer reviewers, the
investigator, and the IRB to resolve any concerns or differences of opinion.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation C.3.3: We recommend that the U.S. Army Medical Command update
the BAMC IRB's Standard Operating Procedure Manual to include a detailed scientific


                                         53 

                               FOR OFFIOll\L USE ONm 

                                FOR OFFlCIAL USE ONlrY


peer review checklist which includes a section dedicated to medications and
considerations for Investigational New Drug determinations.

U.S. Army Medical Command Comments
The Commanding General, u.s. Army Medical Command concurred with our
recommendation. He explained that it is the Institution engaged in research (specifically,
MNC-I) and its IRB (Brooke Army Medical Center(BAMC» who is responsible to identify
the FDA regulatory requirements for the conduct ofhuman subject research. Accordingly, the
Army Medical Command will ensure that checklists outlining regulatory considerations for
INDs and IDEs will be included in the BAMC IRB SOP, as well as the revised AR 70-25.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.


C.4 Selection and assignment of the Medical Monitor

   Existing processes and tools used during the review and approval of the
   Clinical Trial failed to effectively leverage the Medical Monitor role in
   protecting research participants.


C.4 Applicable Criteria
• 	 DoD Directive (DoDD) 3216.02, "Protection of Human Subjects and Adherence to
    Ethical Standards in DoD-Supported Research," April 24, 2007, stipulates that the "rights
    and welfare ofhuman subjects in research supported or conducted by the DoD
    Components shall be protected." Additionally, this directive stipulates that "for research
    involving more than minimal risk to subjects, an independent medical monitor shall be
    appointed by name .,. and shall be capable of overseeing the progress ofresearch
    protocols, especially issues of individual subject/patient management and safety."
    Furthennore, this directive states that medical monitors ... "shall possess sufficient
    educational and professional experience to serve as the subject/patient advocate."
• 	 AR 70-25 ''Use of Volunteers as Subjects of Research," January 25, 1990, defines a
    medical monitor as a "physician qualified by the training and/or experience required to
    provide care to research subjects for conditions that may arise during the conduct ofthe
    research, and who monitors human subjects during the conduct of research."
    Additionally, this regulation requires that a medical monitor is appointed by name ifthe
    (institutional review board) detennines the risk as more than minimal.
• 	 The BAMC Institutional Review Board's Standard Operating Procedure (SOP) Manual,
    July 7, 2008, specifies that "the Institutional Review Board will appoint a Medical
    Monitor for all research protocols involving greater than minimal risk. The Medical
    Monitor will receive a memorandum of appointment after the protocol is approved. The
    memorandum will review the responsibilities ofthe Medical Monitor."
                                           54
                                FOlt OFFIHM:L USE ONLY
C.4 Findings
a. The BAMC IRB's minutes dated 5 November 2008 identified the Clinical Trial as "greater
than minimal risk" due to the fact that there was a "placebo ann in the study that will be
conducted in a combat zone."

b. The IRB's policy is that a medical monitor is assigned to research protocols involving
greater than minimal risk and that there is a memorandum listing the name of the appointed
individual and their responsibilities.

c. According to the Chairman ofthe IRB, he (the chairman) was initially assigned to serve in
the role as medical monitor, however, this assignment was later changed to a physician
deployed to Camp TQ, the same location where the Investigator was conducting research.

d. During our interview, the assigned medical monitor for this research protocol stated that he
had no concerns regarding the conduct of the study. However, when questioned, he
acknowledged that he lacked experience with mTBI and was unfamiliar with the clinical
practice guidelines and tools forthe assessment ofmTBI in deployed settings. Additionally,
he stated that he did not remember receiving an appointment letter as the medical monitor.

e. Our review ofthe IRB's did not reveal that a medical monitor was identified by name, nor
could we find evidence of an appointment letter.

C.4 Discussion
According to the transcribed notes ofthe BAMC IRB's meetings, the board identified the
Clinical Trial as "greater than minimal risk," which required a medical monitor to oversee the
protections afforded to the research participants, ensuring that the study was conducted
properly and risks to participants were minimized. Ultimately, a staff physician assigned to
Camp TQ was identified as the medical monitor. This information was not annotated in the
IRB's minutes or other correspondence, as required by SOPs. Additionally, during an
interview, the Medical Monitor had no recollection ofreceiving an appointment letter
outlining the role's objectives and responsibilities, nor could one be produced.

Furthermore, by self-report, the Medical Monitor did not have the experience in caring for
mTBI patients, nor was he familiar with the Joint Theater Trauma System Clinical Practice
Guidelines which were used to treat mTBI patients. As a result, the Medical Monitor did not
recognize the concerns related to the Investigator not using the MACE tool when conducting
neurological assessments as required in the guidelines (See Observation Bl, "Neurological
assessments did not adhere to clinical practice guidelines for mTBI".) Additionally, possibly
due to his inexperience in treating mTBI patients, the monitor did not recognize that certain
medications (specifically Topiramate and Sumatriptan) that were given by the Investigator,
were contraindicated in the treatment ofheadaches as a result of a head injury (e.g. blast
related) (See Observation B3, "Medications contraindicated in the treatment of early mTBI
were administered").

C.4 Conclusion
The designated in-theater medical monitor for the research protocol lacked experience in
                                              55
                                FOIt 6FF19IAL USE Ol.LY
                                FQR QFFIQ!b>\Is U~liJ   Q~JIs¥



treating mTBI patients. Consequently, as the medical monitor, he did not have the experience
necessary to "provide care to research subjects for conditions that may arise during the
conduct of the research" as required by u.s. Anny regulations. The BAMC IRB's standard
operating procedures (SOPs) lacked specificity regarding selection qualifications and
communication of objectives and responsibilities regarding medical monitors for research
studies. Finally, the IRB did not adhere to its own SOP in writing a memorandum of
appointment specifying the monitor's roles and responsibilities. As a result, the medical
monitor identified may not have been the best qualified individual with the appropriate
knowledge and experience to ensure that the rights and welfare of research participants were
protected.

C.4   Recommendations~            Management Comments and Our Response
Recommendation C.4.l: We recommend that the U.S. Army Medical Command
conduct a review into the process used by the DAMC IRB to select an appropriate
individual to serve as medical monitor for the Research ProtocoL Additionally, identity
improvements needed for research studies to involve medical monitors to ensure that
there are maximum protections ofthe rights and welfare of research participants.

U.S. Army Medical Command Comments
The Commanding General, u.s. Anny Medical Command concurred with our
recommendation. He explained that the Director, AHRPO, will conduct a review ofthe
process used by the BAMC IRB to select an appropriate individual to serve as medical
monitor for the Research ProtocoL Additionally, AHRPO will identify improvements needed
for research studies to involve medical monitors to ensure that there are maximum protections
ofthe rights and welfare or research participants. This review will be completed by May 15,
2011.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recomm~ndation C.4.2: We recommend that the U.S. Army Medical Command
review and update AR 70-25 to ensure there is appropriate detail regarding
roles and responsibilities, as weD as qualifications of a medical monitor.
Specifically this guidance should require that medical monitor roles and
responsibilities be provided in writing in the form of an appointment letter with
clearly stated reporting requirements.

U.S. Army Medical Command Comments
The Commanding General, U.S. Anny Medical Command concurred with our
recommendation. He explained that the Anny will combine AR 70-25 and AR 40-7 into an
updated, consolidated Anny human research protections regulation that will included
appropriate detail regarding medical monitor roles, responsibilities, and qualifications.
Additionally, the requirement for written designation of the medical monitor will be
established and included in the revised regulation. This regulation is expected to be published
by April 30, 2012.

                                              56
                                FOR OffI OrAL USE HUL¥'
                                Felt OFFlefflL tTSf! e!~L i


Our Response
The Commanding General's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.

Recommendation C.4.3 We recommend that the U.S. Army Medical Command ensure
that the BAMC IRB's Standard Operating Procedures include procedures and/or
checklists to ensure all research protocol requirements are met prior to giving approval
to initiate the research. Specifically, ensure that criteria are developed to document that
a medical monitor was assigned (if required) and appointed in writing including details
on their role and responsibilities.

U.S. Army Medical Command Comments
The Commanding General, u.s. Anny Medical Command concurred with our
recommendation. He identified that the Director, AHRPO, will ensure that BAMC IRB SOPs
are updated to include procedures and checklists to ensure all research protocol requirements
that are specific to the requirement for a medical monitor are met prior to giving approval to
initiate the research. These SOPs will be updated, reviewed and approved by the date of our
fmal report.

Our Response
The Commanding General's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.




C.5 Identification and protection of vulnerable populations

   Existing regulations and procedures used by the Investigator and research
   authorities failed to identify and appropriately protect deployed U.S.
   Service members as a vulnerable human subject group

C.5 Applicable Criteria
• 	 32 CFR Part 219.111, "Protection of Human Subjects," July 1, 2008 provides criteria for
    Institutional Review Board (IRB) approval of research, which includes a statement that
    "risks to subjects are minimized by using procedures which are consistent with sound
    research design and which do not unnecessarily expose subjects to risk." Further, 32 CFR
    219 requires "additional safeguards" to be included in research protocols when subjects
    are "likely to be vulnerable to coercion or undue influence" because such safeguards are
    intended to "protect the rights and welfare ofthese subjects."
• 	 U.S. Anny Regulation 70-25 "Use of Volunteers as Subjects of Research," January 25,
    1990, explains that research using human subjects is to be conducted "in such a manner
    that risks to the subjects are minimized and reasonable to anticipated benefits."
    Additionally this regulation identifies some research participants, such as "persons with
    acute or severe physical or mental illness, or those who are economically or educationally
                                                57
                                   FOR: OFF10l!AL U~E QUbY
                                 fOR OfflQlhL USE OUVI


    challenged" as potentially vulnerable to coercion or undue influence, and requires that
    "proper additional safeguards will be included in the study to protect the rights and
    welfares ofthese subjects."
• 	 SECNAVe\fST 3900.39D, "Human Research Protection Program," November 6,2006,
    stipulates that "the rights, welfare ... and safety of human subjects shall be held paramount
    at all times," and further emphasizes that "additional safeguards shall be provided for
    subjects who may be considered vulnerable to coercion or undue influence."
    Additionally, this instruction specifies that "Groups warranting additional protection
    include deployed active duty personnel."

C.5 Findings
a. The Clinical Trial was conducted on U.S. Service members brought to Camp TQ, Iraq
within 24 hours of blast exposure.

b. During a visit to Camp TQ, the Gray Team raised concerns about the conduct of mTBI
clinical research on deployed Service members. These concerns prompted the MNC-I
Surgeon to order an investigation into the conduct ofthe Clinical Trial at Camp TQ.
Specifically, the MNC-I Surgeon ordered the Deployed Research Team (DRT) to conduct a
review of the following: 1) Did the research conform to the written protocol? 2) Was the
mTBI treatment at Camp TQ acceptable medical treatment? And 3) Was there any evidence
of coercion for deployed Service members to participate in the research (see Appendix E for a
summary ofthe DRT's report.)

c. During our interview, a U.S. Army official from the Office of Research Protections at the
U.S. Army Medical Research and Materiel Command (USAMRMC) explained that research
conducted in-theater at the time of the Clinical Trial was approved using a DoD Assurance
delegated to the MNC-I Surgeon by the U.S. Army's Assistant Surgeon General for Force
Projection. She stated that the Brooke Army Medical Center's Institutional Review Board
(IRB) was named as the IRB of record in this DoD Assurance. She further clarified that this
IRB had other responsibilities besides Southwest Asia research projects, and was not properly
resourced for this effort. Consequently, USAMRMC was pursuing the development of an
Assurance with the U.S. Central Command (CENTCOM). Ultimately, the plans indicated
that the IRB of record for the CENTCOM Assurance would shift to the Human Subject
Research Review Board at USAMRMC where there was additional clinical experience and
multi-service input available for research approval recommendations.

d. Additionally, the USAMRMC official verified that this Clinical Trial was the first
interventional (placebo-controlled) study conducted in-theater. She further explained that if
the IRB had determined that an IND was needed to conduct the research in Camp TQ, that it
would not have been recommended for approval due to the inability to adequately control the
extensive paperwork and oversight needed to sustain the IND. The FDA conducted a review
ofthe research proposal and determined that an IND application was required to use NAC in
the Clinical Trial. The BAMC IRB did not recognize this requirement and recommended
approval for the study. (See Observations A.3, B.2 and C.2).



                                           58
                                 fOR OFF1GllrL USE OHUt
                                 FOR OFFIOb\L USB ONLY


e. During our interview, a senior official from the U.S. Army Institute of Surgical Research,
cited his concerns that military medical research, especially casualty care research, posed
demands on IRB/research committees who do not have the expertise, nor are able to devote
the time to conduct comprehensive reviews, including the scientific review process.

f. A senior official on the MNC-I Surgeon's staff stated, that at the time the research was
conducted at Camp TQ, there was on-going discussion between US. Navy and U.S. Marine
Corps officials that NAC was considered a "great cure-all" for mTBI and that there was
support to develop specialized TBI treatment centers in-theater. He additionally explained
that he felt that these discussions led support to the issuance ofthe FRAOO directing
movement of blast victims to Camp TQ. Furthermore, he acknowledged that initiation of the
FRAGO could be perceived as coercionlundue influence because ofthe potential to force
patients to become study participants.

g. Additional interviews with research oversight authorities (Deployed Research Team
(DRT), MNC-I Surgeon, BAMC IRB Chairman), as well as a U.S. Navy official at Camp TQ.
did not identify any concerns regarding the potential vulnerability related to research
participation by wounded Service members, deployed in a combat environment.

C.5 Discussion
While US. Navy Regulations (SECNAVINST 3900.39D) specifically identify "deployed
active duty personnel" as a group that require additional protections to ensure their rights are
safeguarded, DoD and US. Army regulations do not specify "deployed personnel" as a
specific category that may be more vulnerable than others. Interviews with research
authorities, MNC-I officials, as well as with Camp TQmedicalleadership, did not identify
any concerns regarding potential vulnerability related to research participation by wounded
Service members, deployed in a combat environment. Consequently, there was no evidence
of additional controls or measures to safeguard the protections offered to this population of
potential research participants.

As previously discussed under Observation A.5, the Gray Team expressed concern that
research participants were unduly influenced to participate in the Clinical Trial due to the
FRAGO which required the evacuation of Service members with blast injuries to Camp TQ
for evaluation. The Deployed Research Team (DRT) agreed with this perception, however
concluded that the Investigator did an adequate job mitigating this undue influence. This
conclusion may have resulted from the DRT's insensitivity to the increased vulnerability of
US. Service members deployed in a combat environment.

Additionally, as discussed in Observations A.3, B.2 and C.2, the research participants were
given a drug (e.g. NAC) that was not under an IND and therefore was not SUbjected to
increased scrutiny by the FDA. Consequently, the research participants were potentially
exposed to unnecessary risks. Discussions with US. Army research officials revealed that it
was unlikely that this research would have been approved ifthe requirement for an IND was
recognized by the IRB due to the increased complexities of managing research with an IND,
especially in a combat environment.


                                           59 

                                 FOR OFFI0M:L USE ONLY 
 

                                      FQR OFFlo:r.AL HSE OnLY


C.5 Conclusion
Deployed U.S. military personnel were not properly identified as a population Vulnerable to
coercion, and the guidance in place at the time of the study lacked consistency regarding
vulnerable groups and additional protections needed to ensure the safety of research
participants. Additionally, research authorities responsible for the review and approval of the
Clinical Trial were not sensitive to the potential vulnerability of the military members.
Consequently, research was conducted that did not adequately protect the rights and welfare
of deployed U.S. military personnel.

C.5 Recommendations, Management Comments and Our Response
Recommendation C.5.1: We recommend that the Under Secretary of Defense for
Acquisition, Technology and Logistics review and update DoDD 3216.02 to ensure there
is appropriate reference to identifying deployed personnel as a group or potential
research subjects that could be vulnerable to coercion or undue influence. Additionally,
this directive should include a description of additional protections needed to ensure
that the rights of research subjects that are deployed are safeguarded.

Under Secretary of Defense for Acquisition, Technology and Logistics
Comments
The Assistant Secretary of Defense for Research and Engineering (ASD(R&E)), on behalf of·
the Under Secretary of Defense for Acquisition, Technology and Logistics (USD(AT&L))
partially concurred with our recommendation. Although, ASD(R&E) agreed that DoDD
3216.02 required an update, he stated that there is no evidence that deployed service members
are more vulnerable to coercion than non-deployed service members or other DoD personnel.
Therefore, he did not believe that deployed personnel needed to be singled out as a specific
popUlation more vulnerable to coercion or undue influence.

Furthennore, ASD(R&E) explained that DoD Directive (DoDD) 3216.02, "Protection of
Human Subjects and Adherence to Ethical Standards in DoD-Supported Research" was
currently undergoing a review and would be updated as DoD Instruction (DoDI) 3216.02.
Completion is expected by May 31, 2011. ASD(R&E) believed that this draft instruction
better explains the requirements of protection all Military Service members from coercion or
undue influence.

Our Response
Our review ofthe draft DoDI 3216.02, provided by ASD(R&E), shows sufficient detail in the
requirements for populations needing additional protections from coercion or undue influence,
including DoD personnel as a particular subset ofthe popUlation. Specifically, the instruction
requires the IRB to discuss the need to appoint an ombudsman 13 to monitor the recruitment
process to ensure the subject's enrollment is both voluntary and infonned. Our position is
that this instruction as drafted would meet the intent of our recommendation to ensure that the
rights of all research subjects are safeguarded. ASD(R&E)'s comments are responsive and



13 An ombudsman is a person who acts as an impartial and objective advocate for human subjects participating in
research.
                                                60
                                      FOR OFF1GIAIs U~E C»iIsY
                                F8R OFFI0IAL USrl ONLY


the actions meet the intent ofthe recommendation. No further action is required.

Recommendation C.5.2: We recommend that the Under Secretary of Defense for
Acquisition, Technology and Logistics ensure that in-theater research oversight
authorities receive training regarding additional safeguards that should be considered to
protect the rights of research participants who are deployed to a combat zone.

Under Secretary of Defense for Acquisition, Technology and Logistics
Comments
ASD(R&E), on the behalfofUSD(AT&L) concurred with our recommendation. He
explained that the draft DoDI 3216.02 requires the DoD Components to ensure all DoD
personnel receive initial and continuing education commensurate with their duties and
responsibilities, specific to research. Additionally, the DoD Components have informally
coordinated on a draft framework that lists minimum education topics for different roles that
personnel have in protecting human subjects and for different types of research. Furthermore,
ASD(R&E) explained that they would work with the DoD Components as they update and
implement their policy(s) for protecting human subjects to ensure personnel involved in the
oversight of in-theater research have appropriate training.

Our Response
ASD(R&E),s comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.

Recommendation C.S.3: We recommend that the U.S. Anny Medical Command
conduct a review into the process used by the DAMC IRB to recommend approval for
the Clinical Trial. Additionally, review the report provided by the Deployed Research
Team to ensure it was accurate with appropriate recommendations and actions taken.

U.S. Army Medical Command Comments
The Commanding General, u.s. Army Medical Command concurred with our
recommendation. He identified that the Director, AHRPO, will conduct a review into the
process used by the BAM C IRB to recommend approval of the trial. Additionally, the
Director will review the process used during the Deployed Research Team's (DRT'S) visit to
Camp TQ to ensure their report was accurate with appropriate recommendations and actions
taken. This report will be completed by April 15, 2011.

Our Response
The Commanding General's comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

Recommendation C.S.4: We recommend that the U.S. Anny Medical Command review
and update AR 70-25 to ensure there is appropriate reference to identifying deployed
personnel as a group of potential research subjects that could be vulnerable to coercion
or undue influence. Additionally, this directive should include a description of
additional protections needed to ensure that the rights of research subjects that are
deployed are safeguarded.

                                          61 

                                FOR OFFlG1AIs TJ~E O)ILY 
 

                                PCIt CFFI91ltL USB     ~UsY



U.S. Army Medical Command Comments
The Commanding General, U.S. Anny Medical Command concurred with our
recommendation. He explained that "All" Soldiers represent a unique category of
vulnerability to coercion or undue influence, however, it was the Anny's position that
deployed Soldiers will not be considered a subset of this population. Notwithstanding this
point, he identified that AR 70-25 and AR 40-7 will be updated and consolidated into a single
regulation addressing Army human research protections. Specifically, he explained that the
Anny will ensure that the regulation considers vulnerabilities of military personnel to undue
influence and coercion, and that military-specific protections are included in the regulation.
Furthermore, the Anny will ensure that the identification ofvulnerable groups and protections
for military personnel will be consistent with the revision of DoDD 3216.02 (being updated as
DoDI3216.02). The revised Anny regulation was expected to be approved by April 30,
2012.

Our Response
The Commanding General's comments are responsive and the actions meet the intent ofthe
recommendations. No further action is required.


C.S Investigation of medical research misconduct in joint..
service environments

   A lack of clear guidance for investigating potential research misconduct in
   a joint-service environment interfered \vith timely investigation of this
   matter.



C.6 Applicable Criteria
• 	 u.s. Navy BUMEDINST 6500.3, "Research Integrity, Responsible Conduct of Research
   Education, and Research Misconduct," June 25, 2009, dermes research misconduct as the
   "fabrication, falsification, or plagiarism in proposing, performing, or reviewing research,
   or in reporting results." Enclosure 5 ofthis instruction further stipulates that "research
   misconduct processes will be performed by the command in which the individual who is
   alleged to have committed the research misconduct is currently assigned."

C.6 Findings
a. The Investigator was a u.s. Navy physician, who at the time ofthe study was deployed to
Camp TQ, Iraq, under the command and control of 1st Medical Battalion, Camp Pendleton
CA.

b. The Clinical Trial was conducted under the authority ofthe MNC-J "Assurance for the
Protection of Human Research Subjects" (DoD A20146) which specified the U.S. Anny
Brooke Anny Medical Center (BAMC) as the institutional review board (IRB) of record. The
                                             62
                                FOR OFFI9IzlcL USE ONUl
                                FOR OFFICIAL USE ONLY 
 



BAMC IRB reviewed and approved the research protocol using u.s. Army regulations and
guidelines in December 2008.

c. The Clinical Trial was conducted by the Investigator at Camp TQ from December 2008 to
March 2009.

d. In February 2009, the Gray Team identified concerns regarding the integrity of the mTBI
medical research conducted by the Investigator at Camp TQ. The team relayed these
concerns to the CENTCOM Surgeon immediately after their Camp TQ visit.

e. The MNC-I Surgeon sent the Deployed Research Team (DRT) to Camp TQ in February
2009 to investigate concerns that were expressed by the Gray Team. The DRT conducted a
review and determined that the "actual practice" of the Investigator and his research "both
appeared to be in compliance with theater and IRB standards." Consequently, the DRT
recommended that the Clinical Trial be allowed to continue at Camp TQ.

f The Investigator completed his deployment in March 2009 and redeployed to his parent
duty station, under the command and control ofthe u.s. Navy's Naval Medical Center, San
Diego.

g. A complaint was made to the DoD IG's office in June 2009 regarding the Clinical Trial
and the conduct ofthe Investigator while deployed to Camp TQ. Consequently, the DoD OIG
initiated an assessment into allegations of research misconduct in June 2009.

h. A U.S. Air Force clinical researcher was retained by the DoD OIG to serve as a subject
matter expert and initiated research into the allegations of research misconduct beginning in
July 2009. Fieldwork was conducted to gather information on appropriate federal and
military regulations specific to this research and to frame any potential allegations of
misconduct by the researcher. In the absence of any applicable joint service regulations,
additional research was needed to clarify U.S. Army and Navy research regulations to
determine the appropriate criteria to apply to this assessment which dealt with a U.S. Navy
physician who conducted U.S. Army approved clinical research.

i. One ofthe allegations was related to the use of an investigational drug, therefore, contact
was made with the Drug Enforcement Agency and the Food and Drug Administration to
determine proper jurisdiction for the case. After collaboration with Naval Criminal
Investigative Services and the Defense Criminal Investigative Services in January 2010, a
decision was made to refer allegations of researcher misconduct to the u.s. Navy for
investigation. The DoD OIG continued to do assessment work based on the process used by
the U.S. Army during the review and approval of the research protocol.

j. DoD and u.S. Army regulations do not specify procedures to follow in the case where
more than one military service is involved in allegations of medical research misconduct.
U.S. Navy regulations specify that the command that an individual is assigned to is
responsible to conduct an investigation into suspected misconduct.



                                              63 

                                FOR   OFno~"tL USE     OlIl!rY 
 

C.6 Discussion
The Clinical Study was approved by the U.S. Anny Wlder a DoD Assurance, however the
Investigator was a U.S. Navy physician deployed to Iraq. Concerns of potential research
misconduct were expressed by the Gray Team in February 2009 and subsequently reviewed
by a U.S. Anny Deployed Research Team (DRT) since the research was currently ongoing in
Iraq. After completion of their assessment, the DRT recommended that the Clinical Study
continue. Several months later, concerns regarding the integrity of this research were
expressed to a member of the DoD Inspector General staff who initiated an assessment to
clarify whether these concerns required investigation. At that time, the Investigator was no
longer stationed in Iraq, and was redeployed to a U.S. Navy command. Discussion with DoD
and Navy Criminal Investigative Services concluded that potential allegations of misconduct
should be referred to the U.S. Navy command at which the Investigator was currently
assigned which is in accordance with the Navy's instruction on research misconduct,
BUMEDINST 6500.3. Consequently, the DoD IG referred the potential allegations to the
Bureau of Medicine and Surgery for investigation and any required action.

C.6 Conclusion
A review of Anny and Navy regulations identified that the guidelines defining jurisdiction for
the investigation of potential medical research misconduct are Wlclear when the incident
occurs in a joint-service environment. Consequently, the lack of applicable policy and
procedures for investigating potential research misconduct in a joint-service environment may
have contributed to a delay in the proper disposition of allegations of research misconduct.

C.6 Recommendations, Management Comments and Our Response
Recommendation C.6.1: We recommend that the Under Secretary of Defense for
Acquisition, Technology and Logistics coordinate with the Military Services to develop,
update and align DoD and Service level policies related to the investigation ofmedical
research misconduct in a joint-service, deployed environment.

Under Secretary of Defense for AcqUisition, Technology and Logistics
Comments
ASD(R&E), on behalf ofUSD(AT&L), concurred with our recommendation.
Specifically, he stated that DoDD 3216.02 was currently Wlder review and the draft
DoDI 3216.02, "Protection of Human Subjects and Adherence to Ethical Standards in
DoD-Supported Research," included a section addressing non-compliance issues
related to the instruction. Additionally, he explained that the draft instruction directs
the DoD institutions to jointly determine and assign responsibilities for responding to
allegations of non-compliance when the allegations involve more than one DoD
Component. Estimated completion for this instruction is May 31, 2011.

Furthermore, ASD(R&E) explained that DoDD 3210.7, "Research Integrity and
Misconduct" was published to provide guidance on addressing allegations of research
misconduct. Specifically, this instruction has coverage of both the potential need to
assign joint responsibility, as well as a section on non-compliance by DoD
Components concerning intramural research.

                                               64 

                                 fOIt OFFIGl>AL USE ONIs¥ 

                                 PQR OfRQIAL USE ONLY


Our Response
ASD(R&E)'s comments are responsive and the actions meet the intent ofthe
recommendation. No further action is required.

Recommendation C.6.2: We recommend that the Under Secretary of Defense for
Acquisition, Technology and Logistics coordinate with the Military Services to develop,
update and align DoD and Service level policies related to the conduct of clinical
research to ensure there is better interoperabllity among the Services in cases where
research may be conducted in a joint-service environment.

Under Secretary of Defense for Acquisition, Technology and Logistics
Comments
ASD(R&E), on behalfofUSD(AT&L), concurred with our recommendation. He explained
that the draft DoD! 3216.02, "Protection of Human Subjects and Adherence to Ethical
Standards in DoD-Supported Research," encourages communication, coordination, and
reliance to avoid unnecessary duplication of requirements for conducting human subject
research. Additionally, he stated that his office will work with the Military Services as they
update their policy(s) for protecting human subjects to improve harmonization and reliance
when reviewing and approving collaborative research.

Furthermore, ASD(R&E) explained that there are other complementary mechanisms within
the DoD to promote interoperability and coordination ofjoint research programs, such as the
Armed Services Biomedical Research Evaluation and Management Committee and the DoD
Force Health Protection Council.

Our Response
ASD(R&E)'s comments are responsive and the actions meet the intent ofthe
recommendation. No further action is required.




                                           65 

                                FOR: OFF10h'rL USE ONLY 

    FOR OFFICIAL USE ONLY 
 





This Page Intentionally Left Blank




              66 

    FOR OFFICM.*L USE OHLY 

                                FOR OITIOIAL USE ONLY 




Appendix A. Scope and Methodology 
 

We conducted this assessment from June 2009 through March 2011, in accordance with the
standards established by the President's Council on Integrity and Efficiency published in the
Quality Standards for Inspections, January 2005. We planned and perfonned the assessment
to obtain sufficient and appropriate evidence to provide a reasonable basis for our
observations and conclusions, based on our assessment objectives. We believe that the
evidence obtained provides a reasonable basis for our observations and conclusions based on
those assessment objectives.

In accomplishing this assessment, we examined several documents and regUlations pertinent
to medical research and mTBI to include (but not limited to) the following:

       Code of Federal Regulations (CFR) (21 CFR Parts 219,321, and 355; 32 CFR Part
       219)
       United States Code (USC) (18 USC 208)
       Department of Defense Directives (DoDD) (DoDD 3216.02~ DoDD 5230.09; DoDD
       5500.7-R)
       Army Regulations (AR) (AR 40-7; AR 70-25)
       Secretary of the Navy (SECNAV) Instruction 3900.39D
       Bureau of Medicine and Surgery (BUMED) Instructions (BUMEDINST 3900.6B;
       BUMEDINST 6500.3)
       Multi-National Corps-Iraq (MNC-I) Assurance for the Protection of Human Research
       Subjects (DoD A20146)
       MNC-I Human Research Protection Program Manual
       MNC-I Standard Operating Procedures
       MNC-I Operational Orders
       Joint Theater Trauma System Clinical Practice Guideline on the Management of Mild
       Traumatic Brain Injury/Concussion in the Deployed Setting
       U.S. Army Human Research Protection Office Institutional Policies and Procedures
       U.S. Army Brooke Army Medical Center Institutional Review Board Standard
       Operating Procedures
       Correspondence from Food and Drug Administration (prelND 108099)

Additionally, we interviewed individuals who were involved in the review and approval ofthe
research protocol. Specifically we interviewed the following (positions and titles listed were
current as of the time ofthe study):

       Chainnan, Brooke Army Medical Center Institutional Review Board
       Deputy Director, Clinical Investigation Regulatory Office, U.S. Army Medical
       Research and Materiel Command
       Senior Scientist, U.S. Army Institute of Surgical Research
       Company Commander, TQ Medica1, 1st Medical Battalion Bravo Company
       Research Director, Deployed Combat Casualty Research Team
       Human Protections Administrator, Deputy Director, Deployed Combat Casualty
       Research Team
                                              67
                                FOR OFFIOliAL USE ONUI
                                FeR OFFtCtAL USE eNV;


       Multi-National Corps - Iraq Surgeon
       Two Peer Reviewers who completed scientific peer review of research protocol

We also contacted other individuals who were associated with our research of this assessment.
Specifically we interviewed or had contact with the following (positions and titles listed were
current as of the time ofthe study):

       Senior Counsel and Intellectual Property Attorney, Naval Medical Research
       Command
       Project Manager, Medical Development, Naval Medical Research Command
       Comptroller, U.S. Navy Naval Medical Center, San Diego
       U.S. Central Command Surgeon
       Multi-National Corps Iraq Deputy Surgeon
       Medical Monitor assigned for the Clinical Trial
       Supervisory Regulatory Project Manager, Division of Neurology Products, Food and
       Drug Administration
       Deputy Director, Clinical Investigations Program, Bureau of Medicine and Surgery
       Deputy Comptroller, Office of Naval Research
       Team Leader, Chairman, Joint Chiefs of Staff (CJCS) Gray Team
       Neurologist Member of CJCS Gray Team

Furthermore, we interviewed and/or contacted key members of the U.S. Army Medical
Research and Materiel Command to obtain in depth information on Department ofthe Army's
clinical research policies and procedures to include:

       Director, Office of Research Protections
       Director, Regulated Activities and Compliance
       Chief, Regulatory Affairs Operations, U.S. Army Medical Materiel Development
       Activity

This assessment was limited to resources that were available in CONUS. The specific clinical
trial, "The Use of Anti-Oxidants Used to Treat the Sequela ofm TBI After Blast Exposure,"
was no longer being conducted in Iraq, and all individuals with direct involvement in the
review and approval ofthis clinical trial were no longer deployed to Iraq.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
In order to research applicable legislative, DoD, and military specific criteria, review and
assess applicable documents and correspondence, and participate in interviews with key
personnel, we obtained the services of a doctorally prepared Air Force nurse researcher. This
individual had extensive experience in conducting research and in developing and reviewing
research protocols in a combat zone (Iraq); thus, she was qualified to identify areas where the
research protocol review and monitoring process may have been inadequate.

                                              68
                                fOR OFBOlAIs USE       O~tLY
                                FQR QFFlO~AL USE ONL¥




Appendix B. Summary of Prior Coverage
No prior coverage has been conducted on traumatic brain injury research integrity in Iraq
during the past 5 years.




                                             69
                                POf(: OPPfOIAL USE QiJIs¥
                   FOR OFFIGUtTs U~B ONLY



Appendix C. Acronyms and Abbreviations 
 

AHRPO        Anny Human Research Protections Office
AR           Anny Regulation
ASD(R&E)     Assistant Secretary of Defense for Research and Engineering
BAMC         Brooke Anny Medical Center
BUMED        U.S. Navy Bureau of Medicine and Surgery
BUMEDINST    U.S. Navy Bureau of Medicine and Surgery Instruction
CENTCOM      Central Command
CFR          Code of Federal Regulations
CONUS        Continental United States
CPG          Clinical Practice Guideline
DRT          Deployed Research Team (its official title is "Deployed Combat
             Casualty Research Team")
DoD          Department of Defense
DoDD         Department of Defense Directive
DoDI         Department of Defense Instruction
DoDOIG       Department of Defense, Office of Inspector General
DON          Department ofthe Navy
DSN          Defense Switched Network
FDA          U.S. Food and Drug Administration
FRAGO        Fragmentary order
HPA          Human Protections Administrator
HRPO         Human Research Protection Office
HRPP         Human Research Protection Program
HSRRB        Human Subjects Research Review Board
IND          Investigational new drug
IRB          Institutional Review Board
JTTS         Joint Theater Trauma System
MACE         Military Acute Concussion Evaluation
MCRD         Marine Corps Recruit Depot
MD           Maryland
MNC-I        Multi-National Corps - Iraq
MND-W        Multi-National Division- West
MNF-I        Multi-National Forces - Iraq
MNF-WFRAGO   Multi-National Forces - West fragmentary order
mTBI         mild traumatic brain injury

                            70
                  FOR OFFlOIlds U~B C»JLY
                    FOR OFFIGIALUSE ONLY


NAC            n-Acetylcysteine
OlG            Office of Inspector General
ONR            Office of Naval Research
ORP            Office of Research Protections
OSD            Office ofthe Secretary of Defense
SECNAVINST     Secretary ofthe Navy Instruction
SlPRNET        SECRET Internet Protocol Router Network
SME            subject matter expert
SOP            standard operating procedures
SPO            Special Plans and Operations
TBl            traumatic brain injury
TQ             Camp AI Taqaddum, Iraq
TX             Texas
u.s.           United States
USAMMDA DRAC   U.S. Anny Medical Materiel Development Activity, Division of
               Regulated Activities and Compliance
USC            United States Code
USAISR         U.S. Anny Institute for Surgical Research
U SAMRMC       U.S. Anny Medical Research and Materiel Command
U SD           Under Secretary of Defense
U SD(AT&L)     Under Secretary of Defense for Acquisition, Technology, and
               Logistics
U SF-l         U.S. Forces - Iraq




                               71
                    PO~ O¥¥fCf1!tL USE ONLY
                               f6lt 6ffletAL USE 6"UI



Appendix D. Summary of Process and
Approximate Timeline
Following is a summary of the process and approximate timeline used during review and
approval of the Research Protocol '"The Use of Anti-Oxidants to Reduce the Sequela ofmTBI
After Blast Exposure":
   • 	 September 23, 2008 - The Investigator utilized a template provided by the Brooke
       Anny Medical Center Institutional Review Board (BAMC IRB) to submit his research
       protocol.
   • 	 Also completed on September 23,2008 Military Treatment Facility (MTF) 
 

       Commander and the Iraq Research Director (Director ofthe Deployed Combat 
 

       Casualty Research Team) endorsed the Research Protocol. 
 

          o 	 The MTF Commander's endorsement indicates that the MTF Commander has
              reviewed the protocol and the investigator's required credentials including any
              research related training such as the Collaborative Institutional Training
              Initiative Program and approves the protocol to be forwarded for additional
              review.
   • 	 The Iraq Research Director's endorsement indicates that they have reviewed the
       protocol and recommend approval for additional review.
   • 	 End of September, 2008 - Two subject matter experts identified by U.S. Anny
       Institute Surgical Research (USAISR) to complete the scientific review ofthe
       protocol. USAISR is the designated agency that is responsible for the scientific
       reView.
          o 	 The purpose of a scientific review is to ensure that research is scientifically
              sound in its design and methods, so that subjects are not put at risk for a study
              not worthy ofperformance, and that the study will likely produce valid results.
   • 	 October 3, 2008 - Scientific peer review checklists completed and
       comments/questions from reviewers collected by USAISR and forwarded to the
       MNC-I Human Protections Administrator (HPA). The HPA served as a facilitator of
       information between the scientific reviewers and the researcher.
   • 	 October 8, 2008 The Investigator provided responses to the scientific reviewer's
       comments/questions and amended his protocol as necessary. The HPA forwarded the
       researcher's answers and revised protocol back to the USAISR Senior Scientist.
   • 	 October 15, 2008 - The USAISR Senior Scientist endorsed the protocol indicating
       that the scientific review was conducted and was approved for forwarding to the
       BAMCIRB.
   • 	 October 16, 2008 - Multi-National Corps Iraq (MNC-I) Surgeon acknowledged that
       the protocol was approved to forward to the BAMC IRB.


                                         72 

                               FOR OFFIOb'-L USE ONU! 

                             FOR OFF10fAL USE ONU!


• 	 October 20, 2008 - Amended protocol and scientific review checklists forwarded by
    USAISR to BAMC IRB for consideration.
• 	 November 5,2008 - BAMC lRB meeting discussing Iraq research protocol. IRB
    identified the study as "greater than minimal risk" and forwarded additional questions
    to the Investigator to clarify whether the substance used in the study as an intervention
    was an investigational new drug.
• 	 November 18, 2008 - Iraq HPA forwarded Investigator's responses to IRB questions.
• 	 End of November 2008 BAMC IRB forwarded IRB minutes and Iraq research
    protocol to the Clinical Investigation Regulatory Office (CIRO) for a second level
    review as required for all research conducted in theater.
• 	 December 2, 2008 - CIRO completed their second level review, which was primarily
    administrative in nature.
• 	 December 2,2008 BAMC IRB approved research protocol and notified the
    Investigator in writing.
• 	 Soon after December 2, 2008 - Investigator began research subject accrual in Iraq.




                                        73 

                             p~1t OFPlCIAL USE ONU; 

                                Pent OPPleML US]! ONLY



Appendix E. Summary of Deployed Research
Team Report
On February 21,2009, the MNC-I Surgeon ordered that the Deployed Combat Casualty
Research Team (referred to as the Deployed Research Team in this report) perform a review
of the medical research conducted under the MNC-I approved protocol ''The Use of Anti­
Oxidants to Reduce Sequela of Mild TBI (mTBI) After Blast Exposure". This research was
conducted by a U.S. Navy physician from December 2008 - March 2009, while deployed
with the 1st Medical Battalion Bravo Company in AI Taqaadum, Iraq.

This review was conducted as a result of concerns expressed during Gray Team visit in
February 2009. Specifically, the team identified problems related to possible coercion of
subjects, research protocol deviations, and misrepresentation of research data.

Questions
The following questions were asked by the MNC-I Surgeon:
       • 	 Is the conduct ofthe research conforming to the written protocol and meeting the
           standards established by the Human Research Protection Program?
       • 	 Is the mTBI treatment being conducted at Camp TQ acceptable medical treatment
           or unproven research?
       • 	 Is there an appropriate separation between the medical treatment provided at TQ
           and the conduct ofthe approved research protocol?
       • 	 Does the Multi National Forces - West (MNF-W) FRAGO directing evacuation of
           all Marine m TEl patients to Camp TQ for treatment result in perceived or real
           coercion of patients to participate in human subjects research?

Findings
The Deployed Research Team_completed its review on 23 February 2009, and provided a
written response to the MNC-I Surgeon on 27 February 2009. Their conclusions were as
follows:
       • 	 The research protocol was compliant with applicable federal, DoD and Department
           ofthe Army human research protection laws and regulations.
       • 	 The mTBI treatment conducted at Camp TQ conformed to the current community
           standard of care, however, the principal investigator (PI), also known as the
           "Investigator" in this report, a U.S. Navy Physician, did not follow the clinical
           practice guidelines established in the "Joint Theater Trauma System Clinical
           Practice Guidelines for the Management of Mild Traumatic Brain Injury
           (mTEI)/Concussion in the Deployed Setting." Specifically, the PI did not use the
           Military Acute Concussion Evaluation (MACE) as a standardized tool for the
           evaluation of symptoms and cognitive deficits that may follow concussion.


                                             74
                                 FOR OFAOIAIs USe       oms¥

       • 	 There was an appropriate separation between the medical treatment provided at
           Camp TQ and the conduct ofthe approved research protocol.
       • 	 The MNF-W FRAGO directing evacuation of all Marine mTBI patients to Camp
           TQ for treatment could result in perceived coercion of patients to participate in
           hwnan subject research.

The DRT asserted that the absence of the MACE as an assessment tool did not result in a
decrement in the level of care provided to Service members. Additionally, while the FRAGO
could be perceived as coercion, the team felt that the Investigator did a reasonable job
delineating the separation between the patient's referral for evaluation and the early treatment
proposed in the research study, during the initial evaluation and counseling regarding the
study. Therefore, they summarized that the perception of coercion was mitigated by the
Investigator. As a result of concerns expressed by the DRT and U.S. Marine Corps
leadership, the team relayed that the U.S. Marine Corps leadership was reviewing and
considering the modification or cancellation ofthe FRAGO.

Conclusion
The DRT summarized that the "actual practice and research conducted" by the Investigator
appeared to be in "compliance with current theater and BAMe Institutional Review Board
standards" and recommended that the research protocol be reopened to the accrual of patients.

AddiuonalConcerns
While not included in the questions ofthe original MNC-I tasking letter, the DRT identified
concerns regarding the Investigator's discussion of his observations regarding early treatment
ofmTBI. The DRT reviewed several press releases, as well as a PowerPoint presentation
given by the Investigator, and noted the following expressions:
       • 	 Press Release: 081228-MLG-81871-TBI - " ... Theater TBI Center of Excellence.
           The center, a result of (his) two year initiative, is the first of its kind here in
           Anbar" and "Since the center has opened, 42 patients have received treatment.
           Thirty-five have returned to fmish their deployment."
       • 	 PowerPoint Presentation - "Treated over 50 war injured U.S. service members
           utilizing currently accepted medical interventions ... Achieved an overall 66%
           seven day cure rate (for reference the cure rate at 3 months without early treatment
           is less than 20%) ... Recent modification in procedures (addition of active
           rehabilitation) has increased seven day cure rate to 85%."
       • 	 Press Release: 090110-MLG-81871-HASC - "(Our methods) are almost
           considered to be policy and these are the people who help influence policy ... said
           he hopes to have persuaded the members to use their leverage to make Camp
           Taqaddwn's mTBI treatment method policy for all services."

The DRT was concerned that the above information shared by the Investigator was premature 

given that his research protocol was in the early stages, and conducted as a placebo­

controlled, double blinded study. Additionally, the DRT felt this information could contribute 

to confusion regarding the benefits of the Investigator's protocol in the treatment of mTBI. 

                                               75
                                 FOR: OffIOIAlsUSE ONIsY
                                FOR OFFIOtlrL USE ONbY


The team discussed these observations with the Investigator, and he (the Investigator) agreed
to modifY his future presentations and press releases. The DRT recommended that specific
public affairs releases be recalled to avoid confusion.




                                              76
                                fOR OFFIOlshJ:s USE ONls¥
                                 YQQ: OfFlOrAL USE @NUI



Appendix F. Standards and Criteria
Standards and Criteria
Ibe following standards and criteria are used in this assessment:

Federal
Code of Federal Regulations (CFR)
   Title 21 - OfFood andDrugs, " April 1, 2008
   Part 312 of21 CFR pertains to the Food and Drug Administration (FDA) and specifies
   requirements for "Investigational New Drugs" 
 

   The following portions of 21 CFR Part 312 are applicable to this assessment: 
 

       21 CFR Section 312.2 Applicability 

       (a) Except as provided in this section, this part applies to all clinical investigations of
           products that are subject to section 505 of the Federal Food, Drug, and Cosmetic
           Act or to the licensing provisions ofthe Public Health Service Act.
       21 CFR Section 312.3 Defmilions
       Clinical Investigation means any experiment in which a drug is administered or
       dispensed to, or used involving, one or more human subjects. For the putposes ofthis
       part, an experiment is any use of a drug except for the use of a marketed drug in the
       course ofmedical practice.
       IND means an investigational new drug application. For purposes ofthis part, "IND"
       is synonymous with "Notice of Claimed Investigational Exemption for a New Drug."
       Investigational new drug means a new drug or biological drug that is used in a clinical
       investigation.
       Sponsor-Investigator means an individual who both initiates and conducts an
       investigation, and under whose immediate direction the investigational drug is
       administered or dispensed.
       21 CFR Section 312.20 Requirementsfor an IND
       (a) A sponsor shall submit an IND to the FDA ifthe sponsor intends to conduct a
           clinical investigation with an investigational new drug that is subject to 312. 2(a).
       (b) A sponsor shall not begin a clinical investigation subject to 312.2(a) until the
           investigation is subject to an IND which is in effect in accordance with 312.40.
   Title 32 - National Defense, July 1, 2008
   Part 219 of32 CFR pertains to the "Protection of Human Subjects." This regulation
   applies to all "research involving human subjects conducted by any federal department or
   agency which takes appropriate administrative action to make the policy applicable to
   such research." Accordingly the Department of Defense formulates its policy and

                                            77
                                 P@R: OFFlOh"tL USE 9NIs¥
                              l'Olt Of'f'ICML USE onIY:

regulation accordingly. 
 

The following portions of 32 CFR Part 219 are applicable to this assessment: 
 


   32 CFR Section 219.101- [POlicy application]
   (a)(l) 	 Research that is conducted or supported by a federal department or agency ...
            must comply with all sections of this policy.
   (e) 	   Compliance with this policy requires compliance with pertinent federal laws or
           regulations which provide additional protections for human subjects.
   32 CFR Section 219.103 -Assuring compliance with this policy
   (a)     Each institution engaged in research, which is covered by this policy and
           which is conducted or supported by a federal department or agency, shall
           provide written assurance satisfactory to the department or agency head that it
           will comply with the requirements set forth in this policy.
   (b)     Departments and agencies will conduct or support research covered by this
           policy only ifthe institution has an assurance approved in this section, and
           only ifthe institution has certified to the department or agency head that the
           research has been reviewed and approved by an Institutional Review Board
           (IRB) provided for in the assurance. Assurances applicable to federally
           supported or conducted research shall at a minimum include:
   (b )(1) Statement of principles governing the institution in the discharge ofthe
           responsibilities for protecting the rights and welfare of human subjects of
           research conducted at or sponsored by the institution.
   (b)(4) Written procedures which the IRB will follow.
   32 CFR Section 219.107 -IRB membership
   (a) 	   Each IRB shall have at least five members, with varying backgrounds to
           promote complete and adequate review ofresearch activities commonly
           conducted by the institution. The IRB shall be sufficiently qualified through
           the experience and expertise of its members ... to promote respect for its advice
           and counsel in safeguarding the rights and welfare of human subjects ... the
           IRB shall be able to ascertain the acceptability of proposed research in terms of
           institutional commitments and regulations, applicable law, and standards of
           professional conduct and practice. The IRB shall therefore include persons
           knowledgeable in these areas.
   32 CFR Section 219.111- Criteria/or IRB approval o/research
   (a) 	   The IRB shall determine that, among others, the following requirements are
           satisfied:
   (a)(I)(i) Risks to subjects are minimized by using procedures which are consistent
           with sound research design and which do not unnecessarily expose subjects to
           risk.
   (a)(2) 	 Risks to subjects are reasonable in relation to anticipated benefits, if any, to
                                          78
                              I'OIt OFI'ICML USE OHVl
                                POR OPFICl:i'ds USB OnbY


              subjects, and the importance of the knowledge that may reasonably be
              expected to result.
      (a)(7)(b) When some or all of the subjects are likely to be vulnerable to coercion or
              undue influence ... additional safeguards have been included in the study to
              protect the rights and welfare of these subjects.
      32 CFR Section 219.116 - General requirementsfor informed consent
      No investigator may involve a human being as a subject in research covered by this
      policy unless the investigator has obtained the legally effective infonned consent of
      the subject. An investigator shall seek such consent only under circumstances that
      provide the prospective subject sufficient opportunity to consider whether or not to
      participate and that minimize the possibility of coercion or undue influence.
      (a)    Basic elements of infonned consent include, among others:
      (a)(2) A description of any reasonably foreseeable risks or discomforts to the
             subjects.
United States Code (USC)
   Title 18 - 208 Bribery, Graft and Conflicts ofInterest, January 3, 2007 

      Sec. 208. Acts affecting a personal fmancial interest 
 


       (a) Except as pennitted by subsection (b) hereof, whoever, being an officer or
      employee ofthe executive branch ofthe United States Government, or of any
      independent agency of the United States, a Federal Reserve bank director, officer, or
      employee, or an officer or employee ofthe District of Columbia, including a special
      Government employee, participates personally and substantially as a Government
      officer or employee, through decision, approval, disapproval, recommendation, the
      rendering of advice, investigation, or otherwise, in a judicial or other proceeding,
      application, request for a ruling or other detennination, contract, claim, controversy,
      charge, accusation, arrest, or other particular matter in which, to his knowledge, he, his
      spouse, minor child, general partner, organization in which he is serving as officer,
      director, trustee, general partner or employee, or any person or organization with
      whom he is negotiating or has any arrangement concerning prospective employment,
      has a fmandal interest, Shall be subject to the penalties set forth in section 216 ofthis
      title.

   Title 21 - 321 U.S. Federal Food, Drug and Cosmetic Act," January 3, 2007
      Section 201    Definitions
      (g)(1) The term "drug" means (A) articles recognized in the official United States
              Pharmacopoeia, official Homoeopathic Phannacopoeia of the United States, or
              official National Fonnulary, or any supplement to any ofthem; and (B) articles
              intended for use in the diagnosis, cure, mitigation, treatment, or prevention of
              disease in man or other animals ... "
      (P) The tenn "new drug" means ­

                                              79
               (1) Any drug ... the composition of which is such that such drug is not
                      generally recognized, among experts qualified by scientific training and
                      experience to evaluate the safety and effectiveness of drugs, as safe and
                      effective for use under the conditi on prescribed, recommended, or
                      suggested in the labeling ..."
   Title 21 - 355 U.S. Food and Drug Administration
       Section 505 - New Drugs
       (a) Necessity of effective approval of application. No person shall introduce or
           deliver for introduction into interstate commerce any new drug, unless an approval
           of an application filed pursuant to subsection (b) or (j) is effective with respect to
           such drug.

Department of Defense
Department of Defense Directive 5230.09 "Clearance of DoD Infonnation for Public
Release," August. 22, 2008
Department of Defense Directive 5230.09 is the Department of Defense's guidance regarding
the clearance of DoD Information for public release. Specifically:
   DoDD 5230.09 Section 4. Policy
   4. a. Any official DoD information intended for public release that pertains to military
   matters, national security issues, or subjects of significant concern to the Department of
   Defense shall be reviewed for clearance prior to release.
Department of Defense Directive (DoDD) 5500.7-R "Joint Ethics Regulation", August 1,
1993
DoDD 5500.7-R is the Joint Ethics Regulation for all DoD military and civilian employees.
Chapter 5 addresses "Conflicts of Interest". Specifically Section 5-41O(a) prohibits a member
from holding conflicting conflicts of interest.
   DoDD 5500.7-R Section 5-410 (aJ - Related Rules

   There is a prohibition on holding conflicting financial interests. See 5 C.F.R. 2635.403
   (reference (d» in subsection 2-100 ofthis Regulation, 18 U.S.C. 208 (reference (c», and
   5 C.F.R. 2640 (reference (b» in subsection 5-200 ofthis Regulation, above.
Department of Defense Directive (DoDD) 3216.02 "Protection of Human Subjects and
Adherance to Ethical Standards in DoD-Supported Research," Aprll24, 2007
DoDD 3216.02 updates policies for protecting the rights and welfare of humans as subjects of
study in Department of Defense (DoD) supported research, development, test and evaluation,
and other related activities hereafter referred to as "research." Specifically it states:

   DoDD 3216.02 Section 1 Reissuance and purpose
       1.3 	
           Supports implementation of32 CFR Part 219, referred to as the "Common
           Rule."
   DoDD 3216.02 Section 4-Policy
                                       80 

                           FOR OPPICh\L USI5 OnLY 

                                j'QR QfFI€ l !'\:b TeJIJE QNJyY


       4.1 	   The rights and welfare of human subjects in research supported or conducted
               by the DoD Components shall be protected.
       4.3 	   Applicability of Federal Policy for Protection of HUman Subjects in Research.
                   4.3.1 	 The Department of Defense has joined with other Federal Agencies
                           to adopt the "Common Rule" Federal policy for protection of
                           human subjects in research. (32 CFR Part 219 is the requirement
                           for the Department of Defense to implement the Common Rule.)
                  4.3.3 	 All human subject research supported or conducted by the
                          Department ofthe Defense shall be conducted under an assurance
                          of compliance acceptable to the funding Agency. Research
                          performed at DoD facilities and funded by the Department of
                          Defense shall have a DoD assurance of compliance.
                  4.4.3 	 For research involving more than minimal risk to subjects, an
                          independent medical monitor shall be appointed by name. Medical
                          monitors shall be physicians, dentists, psychologists, nurses or
                          other healthcare providers capable of overseeing the progress of
                          research protocols, especially issues of individual subject/patient
                          management and safety. Medical monitors shall be independent of
                          the investigative team and shall possess sufficient educational and
                          professional experience to serve as the subject/patient advocate.
                  4.4.4 	 For research involving more than minimal risk and also involving
                          military personnel, unit officers and noncommissioned officers
                          shall not influence the decisions oftheir subordinates to participate
                          or not to participate as research SUbjects.
       4.8 	   Research misconduct All DoD Components shall establish procedures to
               monitor and review the ethical conduct of research. The DoD Components
               that conduct or support research shall ensure that data and data collection are
               conducted in an ethical manner. In cases in which data are not collected in an
               appropriate manner, the DoD Component shall determine ifthe misconduct
               was intentional or reckless; was an isolated event or part of a pattern; had
               significant impact on the research record; or had significant impact on other
               researchers or institutions. The DoD Component shall initiate and carry
               through on any actions that are necessary to ensure resolution of misconduct
               findings.

Department of the Army
Anny Regulations (AR) 40-7, "Use of Investigational Drugs and Devices in Humans and
the Use of Schedule 1 Controlled Drug Substances," January 4, 1991
AR 40-7 discusses Department ofthe Army-sponsored, non-Department ofthe Army­
sponsored, and investigator-sponsored categories for Investigational New Drug applications
and Investigational Device Exemptions. Specifically this regulation contains the following
guidance applicable to the completion ofthis assessment:

                                              81
                                FOR OFFIGIA:b ViM      ~TI   ¥
                                :POll MPICML USE 6tiLY


   AR 40-7 Glossary Section II - Terms
       • 	 Investigational drug - A drug may be considered investigational when the
           composition is such that its proposed use is not recognized for the use under the
           conditions prescribed, or its proposed use is not recommended or suggested in its
           approved labeling. Experts qualified by scientific training and experience evaluate
           the safety and effectiveness of drugs to make this detennination.
       • 	 Investigator-sponsored Investigational New Drug (IND) An IND application for
           which the principal investigator ofthe drug is also identified as the sponsor ofthe
           application
   AR 40-7 Chapter 4 - Procedures for Use ofInvestigational Drugs and Devices in u.s.
   ArmyMedical Treatment Facilities, Dental Treatment Facilities, and Research Facilities
   4-12 	 Use of an approved drug for an unapproved indication. In situations where data on
          drug effects from one or more patients are being systematically recorded by a
          physician for the purpose of substantiating or refuting a claim of therapeutic
          efficacy in an unlabelled indication for an approved drug, the physician is
          conducting a clinical investigation, and must adhere to the requirements of AR 40·
          38 ... in conducting the investigation.
           Such a clinical investigation of a drug product that is lawfully marketed in the
           United States must be done under an IND, unless ALL of the following apply:
           a. 	   The investigation is not intended to be reported to FDA as a well­
                  controlled study in support of a new indication for use, nor intended to be
                  used for any other significant change in labeling for the drug.
           b. 	   Ifthe drug that is undergoing investigation, is lawfully marketed as a
                  prescription drug product, and the investigation is not intended to support
                  any other significant change in the advertising for the product.
           c. 	   The investigation does not involve a route of administration or dosage level
                  or use in a patient population or other factor that significantly increases the
                  risks associated with the use ofthe drug product.
           d. 	   1be investigation is conducted in compliance with the requirements for
                  human use review and infonned consent set forth in AR 40-38.
           e. 	   The drug is not represented in a promotional context as being safe or
                  effective for the purposes for which it is being investigated.

AR 70-25 "Use of Volunteers as Subjects of Research," January 25,1990
AR 70-25 implements Department of Defense Directive (DoDD) 3216.01. It reflects the legal
requirements pertaining to the use of humans as research subjects funded by Research,
Development, Test and Evaluation (RDTE) appropriations. Specifically, the following
criteria are applicable to this assessment:

   AR 70-25 Section 3-1    General gUidance
   (e) 	   The detennination of level of risk in a research protocol will be made by a Human
                                              82 

                                FOIt {)PPlCML USE ONIYI 

                                 FOR: Ml'leIJ!rL l"1~E ONt i


           Use Committee (a body set up to provide initial and continuing review of research
           involving the use of human subjects).
   (g) 	   RDTE using human subjects is conducted in such a manner that risks to the
           subjects are minimized and reasonable to anticipated benefits.
   (r) 	   A medical monitor is appointed by name ifthe HUC or approving official
           determines that the risk is more than minimal.

   AR 70-25 Section 3-2 - Procedural guidance
   Organization heads conducting RDTE research involving human subjects will:
   (a) (3) Establish a HUC.
   (c XI) 	 A protocol will be prepared for all research requiring approval through the HUC.
   (c)(3) 	 The protocol is submitted to a scientific review committee composed of
            individuals qualified by training and experience, and appointed by the commander
            ofthe unit to evaluate the validity ofthe protocol. The purpose of this peer review
            is to assure that the protocol design will yield scientifically useful data which meet
            the objective(s) of the study. The committee's recommendations and actions taken
            by the investigator in response to the recommendations are submitted with the
            protocol to the HUC.

   AR 70-25 Appendix C - Human Use Committees
   C-I b. 	 Each HUC will have at least five members. Member will have diverse
            backgrounds to ensure thorough review of research studies involving human
            volunteers as research SUbjects. Members should be sufficiently qualified through
            experience and expertise.
   C-I c. 	 Besides having the professional competency to review research studies, the HUC
            will be able to determine ifthe proposed research is acceptable. Acceptability will
            be in terms of Anny Medical Department commitments and regulations, applicable
            law, and standards of conduct and practice.
   C-4 c. 	 Some or all ofthe subjects may be vulnerable to coercion or undue influence such
            as persons with acute or severe physical or mental illness, or those who are
            economically or educationally disadvantaged. If so, proper additional safeguards
            will be included in the study to protect the rights and welfare of these subjects.

   AR 70-25 Glossary Section II - Terms
       • 	 Medical Monitor - This person is a military or Department ofthe Anny civilian
           physician qualified by the training and/or experience required to provide care to
           research subjects for conditions that may arise during the conduct of research, and
           who monitors human subjects during the conduct of the research.

Brooke Army Medical Center Institutional Review Board (IRB) Standard Operating
Procedures (SOP), July 7, 2008
This SOP includes the policies and procedures which apply to the development, review,
                                             83
                                }6g:R QlbFlGIAIs USIS OtlIsY
                                   FOR OFJ?IOIoAL USE ONIYI

approval, conduct, and reporting of clinical investigation protocols conducted under the
BAMC IRE. Relevant policies and procedures, specific to this assessment are included
below:

   2 - Authority ofthe IRE
       2.c. 	   Description of authorities - The IRB will review and approve all research
                protocols to be conducted at the institutions for which BAMC is the IRB of
                record. All submissions will be reviewed for:
                2.c.( 1)(i) Compliance with Army, DoD and federal research regulations. 
 

                2.c(1)(ii) Protection of human subjects. 

                2.c(1)(iii) Scientific and statistical review. 
 

                2.c(l)(iv) Determination of which device studies pose significant or non­

                           significant risk.

   3 - IRE organizational relationships
       3.e. 	   Second-level review of approved protocols
                3.e(l) 	    Clinical Investigation Regulatory Office (CIRO) has oversight
                            responsibility for all research within the MEDCOM. All human use
                            and laboratory science protocols that involve IND or IDE items or
                            extramural ftmding must be approved by CIRO before subjects are
                            enrolled. All other human use and laboratory science protocols are
                            forwarded to CIRO for review only.

   7 - Clinical investigation protocols involving human subjects
       b. 	     Preparation for application for clinical investigation project
                (i) 	       Greater than Minimal Risk
                            d. 	   bnpact Statement The impact statement must be signed by
                                   the Chief of each service or department which may be
                                   affected by the research protocol being proposed. If the
                                   protocol involves use of drugs ... the impact statement must
                                   be signed by the Chief of the Department of Pharmacy.
       c. 	     Processing of research protocols involving human subjects
                (4)(ii) 	   Full Institutional Review Board      Conduct of the IRB meeting.
                            Members of the IRB shall:
                            1. 	    Ensure study is found to have scientific merit.
                            2. 	    Determine the level of risk associated with the protocol:
                                    minimal risk or more than minimal risk.
                            3. 	   Ensure that risks to subjects are minimized by using
                                   procedures which are consistent with sound research design.

                                                  84
                                   FOR OFFIOI!AL U~1!i (!)ilLY
                                 POtt 6FFtC1AL USB      O~ILY



                         4. 	    Ensure that risks to subjects are reasonable in relation to
                                 anticipated benefits, if any, and to weigh the importance of
                                 the knowledge that may reasonable be expected to results.
                         11. 	   Ensure that appropriate additional safeguards have been
                                 included in the study to protect the rights and welfare of
                                 these subjects, when some or all ofthe subjects are likely to
                                 be vulnerable to coercion or undue influence.
       d. 	   Requirements for Reporting
              (1) 	      Amendments
                        (i) An amendment is defined as any change in the approved study
                        protocol
                        (ii) All amendments must be submitted to the IRB prior to instituting
                        the change.
       e. 	   Medical Monitors The Medical Monitors can be physicians, dentists,
              psychologists, nurses or other health care providers capable of overseeing the
              progress ofthe research protocol, especially issues of individual participant
              management and safety.
              e.(2) 	   The IRB will appoint a Medical Monitor for all research protocols
                        involving greater than minimal risk. The Medical Monitor will
                        receive a memorandum of appointment after the protocol is
                        approved. The memorandum will review the responsibilities ofthe
                        Medical Monitor.

Department of the Navy
u.s. Navy SECNAVINST 3900.39D - "Human Research Protection Program" (HRPP),
November 6, 2006
This instruction establishes policy and assigns responsibility for the protection of human
subjects in research conducted by, with, or for the Department ofthe Navy (DON). Specific
sections applicable to this assessment are as follows:
   4. a.(I) This instruction applies to all biomedical and social-behavioral research involving
            human subjects conducted by Navy and Marine Corps activities or personnel,
            involving naval military personnel and DON employees as research subjects, or
            supported by naval activities through any agreement (e.g., contract, grant,
            cooperative agreement, or other arrangement), regardless ofthe source of
            fimding, funding appropriation, nature of support, performance site, or security
            classification. It also applies to human subject research using DON property,
            facilities, or assets.

   6.a. - GUiding principles
   The DON uses the ethical principles outlined in the Belmont Report, "Ethical Principles
   and Guidelines for the Protection of Human Subjects and Research," as the foundation for
   its human research protection program.
                                             85 

                               Fait OFFtCb'-L USB ONLY 
 

       6.a.(l) 	 Respect for Persons The rights, welfare, interests, privacy, confidentiality,
                 and safety of human subjects shall be held paramount at all times and all
                 research proj ects conducted in a manner that avoids all unnecessary physical
                 and mental discomfort, and economic, social or cultural harm.
       6.a.(3) 	 Informed Consent Voluntary informed consent is fundamental to ethical
                 research with humans. Informed consent is not simply a document. It is a
                 process that begins with subject recruitment. Informed consent includes a
                 thorough discussion with prospective subjects and/or their legally authorized
                 representatives and continues for at least the duration ofthe research.
       6.a.(6) 	 Vulnerability and Additional Protections. Additional safeguards shall be
                 provided for subjects who may be considered vulnerable to coercion or undue
                 influence because of their age, health, employment, fmancial status, or other
                 circumstances. ... Other groups warranting additional protection include ....
                 deployed active duty personnel.

    6.b 	 Conflict ofinterest
   Conflict of interest can be defmed as any situation in which financial or personal interests
   may compromise or present the appearance of compromising an individual's or group's
   judgment in conducting, reviewing, approving, managing, and supporting research.
   Investigators .... must disclose all conflicts of interest, including any financial interests for
   themselves.

   8.g -	 Principal Investigators (PIs)
   PIs have primary responsibility for compliance with all human subject protection
   regulations, directives, and instructions.
U.S. Navy BUMEDINST 3900.6B "Protection of Human Subjects," October 4, 2001
This instruction applies to all research involving human research participants and offers
policy regarding the protection of volunteer human subjects in research. Applicable sections
pertinent to this assessment are as follows:·
       Enclosure (2) 	 	 Research involving the unlabeled use of drugs and biologics - Any
                         deviation from the indications, dose, route ofadministration, dosage
                         form or treatment population of a drug .... Approved or licensed by
                         FDA is considered an unlabeled use. The following comments
                         pertain:
                         (2) 	 If the purpose is not treatment of an individual patient, but
                               rather a scientific study using human research participants, this
                               is considered research and not the "practice of medicine." Such
                               activities are regulated by the FDA and usually require filing of
                               an Investigational New Drug (IN D) and compliance with
                               applicable regulations.
u.s. Navy BUMEDINST 6500.3 "Research Integrity, Responsible Conduct of Research
Education, and Research Misconduct," June 25, 2009
This instruction establishes policy for the promotion of research integrity, continuing
                                                86
                                  FOR OFRGIAL USE ONLY
education in the responsible conduct of research ,and the handling of allegations ofresearch
misconduct. Applicable sections pertinent to this assessment are as follows:
   6. Policy
   It is the policy of Navy Medicine that all personnel will uphold the highest principles of
   ethics promoting research integrity and the responsible conduct ofresearch as discussed in
   enclosure (2):
   Enclosure (2)     "General Principles of Research Ethics and Integrity."
       1. 	   The principles of research ethics have developed from diverse historical sources,
              but coalesce around four general areas of academic professional commitment:
              l.a. 	 Academic and professional excellence including, but not limited to:
                     personal integrity and honesty, maintaining academic/discipline-specific
                     standards and methodologies, continuous scholarly and professional
                     formation, peer review and openness to scholarly critique/quality
                     improvement, substantive and effective mentoring, and sound publication
                     practices and responsible authorship;
              l.b. 	 Ethical obligations and compliance responsibilities for research protections
                     including areas such as, but not limited to: human subject protections,
                     animal welfare, environmental protections and safety, sound personnel
                     practices, protections against undue influence, and data integrity;
              Lc. 	 The ongoing development ofthe institution and its services including areas
                    such as, but not limited to: mission relevance and adaptation/expansion,
                    discovery and invention in intellectual property and technology transfer,
                    support for the translation of research efforts for public benefit, effective
                    research collaborations and academic interdisciplinary, and international
                    and cross-cultural enrichment;
              l.d. 	 Responsibility for preserving the public trust including areas such as, but
                     not limited to: compliance with sponsor and socio-cultural requirements,
                     fmancial stewardship, appropriate and transparent management of conflicts
                     of interest and commitment, refusal to engage in research misconduct and a
                     commitment to report all such matters to legitimate authority.
       Enclosure (2)     "Requirements for Research Misconduct"
                Lb. 	 Research misconduct is defined as fabrication, falsification, or plagiarism
                      in proposing, performing, or reviewing research, or in reporting research
                      results.
                l.h. 	 Research misconduct processes will be performed by the command in
                       which the individual who is alleged to have committed research
                       misconduct is currently assigned or employed.

In- Theater Guidance
Multi-National Corps - Iraq (MNC-I) Assurance, June 30, 2008
The OTSG approved the renewal of the MNC-I "Assurance for the Protection of Human

                                               87 

                                  FOR OFFIOJiAL USE 9NJs¥


Research Subjects" (DoD A20146) on 30 June 2008. This assurance refers to all U.S.
Military assets which fall under MNC-I for organizational and operational control. For the
pmpose of this assessment, the effective date of this assurance was current for the conduct of
this clinical study. Specifically the assurance states the following that is applicable to this
assessment:

   Part i-DoD-Army institutional information
       l.B 	   Name of Institution: Multi-National Corps - Iraq

   Part 2 - Ethical principles, compliance, and responsibilities ofthe institution
       A. 	    Ethical Principles ofthe Institution
               A. 	1.   The institution will ensure that all of its activities associated with
                        research involving human subjects are guided by the ethical principles
                        set forth in the report of the National Commission for the Protection of
                        Human Subjects of Biomedical and Behavioral Research entitled
                        "Ethical Principles and Guidelines for the Protection of Human
                        Subjects of Research (the "Belmont Report").
               A. 3.    This Institution acknowledges and accepts its responsibilities for
                        protecting the rights and welfare of human research subjects.
       B. 	    Institutional Compliance with Regulations and Policies
               B.1. 	   This Institution will comply with 10 United States Code Section 980;
                        32 CFR 219,45 CFR Part 46,21 CFR Parts 50, 56, 312, and 812, DoD
                        Directive 3216.02.
       C. 	    Responsibilities of the Institution
               C.l.a 	The Institutional Official will maintain a Human Research Protection
                      Program (HRPP) that provides policies and procedures on
                      implementing the federal, state, and local policies referenced in this
                      Assurance. The Institutional Official will monitor and ensure
                      compliance with the HRPP.
               C.1.b. 	 The Institutional Official bears full responsibility for the conduct of
                        research covered by this Assurance with respect to compliance with
                        applicable federal, state, and local laws.
               C.2.a 	 The IRB will maintain standard operating policies and procedures, as
                       part ofthe Institution's HRPP, to comply with the tenns ofthis
                       Assurance.

   Part 4 - Designation ofInstitutional Review Boards (IRE)
   IRB not considered part of the Institution, but may review research under this Assurance
   Great Plains Regional Medical Command, Brooke Anny Medical Center, Institutional
   Review Board. (Refer to DoD "Institutional Agreement for IRB Review between MNC-I
   and BAMC.")

                                               88
                                  }¥Olt O¥¥lCtllth USE ONLY
   Part 6 - Institutional Assurance
         6.A. 	 Institutional Official Title: Surgeon, Multi-National Force    Iraq
                (MNF-I) and Multi-National Corps - Iraq (MNC-I)
MNC - I Human Research Protection Program (HRPP), June 24, 2008
The MNC-I, which is part of Multi-National Force - Iraq is the tactical unit responsible for
command and control of operations throughout Iraq. MNC-I is covered by the HRPP.
Specifics ofthis program applicable to this assessment are identified below:

   1.1    Components ofthe institution covered by the HRPP
         •	     This HRPP will monitor research done by individuals or small groups located
                in theater.
         •	     Authority for this HRPP rests with the MNC-I Surgeon, who serves as the
                Institutional Official for the MNC-I Assurance.
         •	     The Deputy Director ofthe Deployed Combat Casualty Research Team
                (DC2RT) is assigned as the Human Protections Administrator (HPA) and as
                such oversees the implementation ofthis HRPP.

   1.2 Goals and objectives ofthe HRPP
         •	     The HRPP will ensure that all MNC-I research:
         •	     Recognizes the rights and welfare of human research participants and ensures
                these are adequately protected.
         •	     Is guided by the ethical principles of respect for persons, beneficence, and
                justice as set forth in the Belmont Report, and is conducted with the highest
                level of expertise and integrity.
         •	     Complies with applicable federal, DoD, and DA laws and regulations.

   1.5 Scientific and scholarly validity review and ethics review
         •	     Each human subject research protocol must undergo scientific review and
                assessment to determine ifthe protocol contains scientific merit.
         •	     The HP A evaluates a protocol for the following relevant factors:
                    a. 	   Is the protocol relevant to military medicine and can it only be
                           conducted in the Theater of Operations?
                    b. 	   Is it appropriately designed to yield scientifically useful
                           information?
                    c. 	   Is the protocol in the correct format, and have all sections been
                           addressed?
                    d. 	   Is the protocol in compliance with the rules and regulations which
                           govern human subject research?

                                               89 

                                 FOR OFFICIAL USE eNUl 

                              FOR OFFICmL rJ~~ O!4L'P


      •	    The HP A forwards the protocol to the Hmnan Use Protocol Coordinator
            (HUPC), u.s. Anuy Institute for Surgical Research (USAlSR) for scientific
            review. The HUPC forwards the proposals to the identified reviewers with an
            accompanying checklist to aid in their review. The HPA facilitates discussion
            between the scientific reviewers and the principal investigator (PI). All
            correspondence including scientific reviewer checklists, PI responses to
            questions and the revised protocol are submitted to the Senior Scientist,
            USAISR for final review and protocol signature. The signature indicates a
            scientific review ofthe protocol has been conducted and that the protocol is
            approved for submission to the BAMC IRB.

1.6- Primary officers and organizational components carrying out the HRPP
      •	    The Principal Investigator and other investigators are responsible for reporting
            promptly to the appropriate IRB, through the HPA, any proposed changes to
            the research activity. The changes shall not be initiated without prior IRB
            review and approval, except where necessary to eliminate apparent immediate
            hazards to the subjects.
2.2 -Matching scientific review and IRE resources to volume and types ofhuman
research
      •	    All protocols to be conducted in theater will undergo two scientific reviews.
            These reviews are to detennine if the proposed study has scientific merit,
            proposes to answer a valid scientific question that has not already been
            sufficiently answered, and is constructed in such a manner as to be able to
            answer the proposed question.
      •	    The protocol is sent to two subject matter experts (SME) in the field ofthe
            proposed research. Upon receiving feedback from the SMEs, the HPA works
            with the PI to fonnulate changes and responses to any questions or concerns
            raised during the review.
      •	    After the scientific review has been addressed, and the MNC-I Research
            Director and MNC-I Surgeon agree that the research is appropriate to be
            conducted in theater, the protocol is forwarded to the BAMC IRB for fmal
            evaluation. The IRB evaluates the protocol for human subject protection and
            compliance with the scientific reviewers' recommendations. The IRB holds
            the final authority to declare a protocol scientifically valid and appropriate to
            conduct on human subjects with all required and necessary protections in
            place.

3.2    Conflict ofinterest and undue influence
      •	    An investigator is obligated to disclose any possible conflict of interest prior to
            protocol review and approval. Possible conflicts of interest include ... a
            proprietary interest in the tested product, including, but not limited to, a patent,
            trademark, copyright or licensing agreement.


                                             90 

                              FOR OFFI9b\L USE ONUI 

                                 FOR OfFlO:M:b USE OtH5"Y


       •	      Regarding undue influence, ethical and regulatory requirements prohibit the
               coercion of human subjects to take part in human research efforts. In the
               informed consent process, investigators and research staffwill ensure that this
               matter is strictly enforced.

   Chapter 5 - Investigational or unlicensed test articles
   In general, no interventional research is done under the MNC-I Assurance using
   investigational or unlicensed test articles necessarily regulated by the Food and Drug
   Administration (FDA).

   Chapter 9 - Participant recruitment and selection
   The HPA will ensure that recruitment of military personnel does not involve any possible
   coercion or reality of conflict of interest, undue influence, or coercion, no matter how
   subtle.

   Chapter 12 - Dissemination ofresearch findings
   Where human research efforts may result either in professional presentations or peer
   reviewed publications, P AO reviews and approvals must be given before such efforts are
   presented or published. Publications involving human subject research must contain
   DoD/DA disclaimers in accordance with federal policy and the policies of publishing
   houses.
Multi-National Corps - Iraq (MNC-I) Operational Orders (Tab G to Appendix 2 to
Annex Q) "Mild Traumatic Brain Injury (Concussion)"
This set of operational orders provides theater-specific guidance for the medical evaluation,
management and documentation of mild traumatic brain injury (mTBI)/Concussion.
   4. DefinitiOn. Mild traumatic brain injury (concussion) in military operational settings is
   defined as an injury to the brain resulting from an external force andlor
   acceleration/deceleration mechanism from an event such as a blast, fall, direct impact, or
   motor vehicular accident which causes an alteration in mental status. Related symptoms
   may include: headache, nausea, vomiting, dizzinesslbalance problems, fatigue,
   insomnia/sleep disturbances, drowsiness, sensitivity to light/noise, blurred vision,
   difficulty remembering andlor difficulty concentrating.
   5. Execution.
       a.l(b) MNDIF Surgeons, Medical Officers in separate units, and medical unit
       commanders will ensure all medical providers are familiar with the Concussion
       Management in a Deployed Setting (enclosure (1) and the Military Acute Concussion
       Evaluation (MACE) (enclosure 2). For the initial in-theater evaluation and
       management of possible mTBI (concussion), providers should complete a history and
       physical exam, with focus on the neurological examination. This encounter should
       include at a minimum the MACE history (questions I VIII).
       b. Coordinating Instructions.
               (3) Providers should follow the guidelines outlined in enclosure (1) (Joint

                                          91 

                                jOlt QFHG1Ab USE ONbY 

                                FOR OF FlCIXL       .,,,r;   mU'!r


              Theater Trauma System Clinical Practice Guidelines) for the initial
              management ofmTB!.
              (7) Providers will monitor for persistent symptoms and neurological fmdings.
              Manage post-concussive symptoms as clinically appropriate, avoiding
              narcotics, non-steroidal inflammatory medications and aspirin until cleared to
              return to duty.
Multi-National Corps - Iraq (MNC-I) Standard Operating Procedures (Tah P,
Appendix 4, Section Q) "Mild Traumatic Brain Injury," Novemher 30, 2007
This document provides leaders and medical personnel with MNC-I theater-specific guidance
concerning U.S. Military personnel at risk for having a mild traumatic brain injury and
guidance for the medical evaluation and management of these patients.
   4. Execution.
       A.(l)(B) MND/F Surgeons, Medical Officers in MNC-I separate units, and medical
       unit commanders will ensure that all medical personnel are aware of and use the J1TS
       CPO for in-theater evaluation and management of patients with a possible mTBI
       (concussion). Do a history-documenting any symptoms; perform a physical exam
       with focus on a complete neurological examination. Additionally, this encounter will
       include the MACE screening results.
Joint Theater Trauma System (JTTS) Clinical Practice Guidelines (CPG),
"Management of Mild Traumatic Brain Injury (mTBI)/Concussion in the Deployed
Setting," Novemher 2008
This document provides updated guidance for the diagnosis, evaluation, treatment, follow-up
and return to duty ofmild traumatic brain injury patients.
   5. 	 Evaluation and Management of Concussion in the Deployed Setting
        a. Treatment of concussion in the deployed setting

       2) 	Headache Management
              • 	 Acutely, use acetaminophen
              • 	 Avoid the use of Tramadol, NSAIDs, ASA, or other platelet inhibitors for
                  the fIrst forty-eight hours or until neuroimaging demonstrates the absence
                  of intracranial pathology
              • 	 Avoid narcotics as these are not indicated for the management of
                  posttraumatic headaches
              • 	 After 1 week, consider nortriptyline or amitriptyline, 25mg po qhs for
                  headaches occurring> 2 times/week. It is recommended that only 7-10
                  pills are dispensed at a time.

      b. Assessment and Treatment of Acute Mild TEl

       (1) The following three algorithms (Appendices A, B and C), offered as clinical
       practice guidelines, should not be interpreted as a substitute for sound clinical
       judgment. The Military Acute Concussion Evaluation (MACE) serves as a
       standardized tool for the evaluation of symptoms and cognitive defIcits that may
                                             92 

                                FOR: OFFIOIAb USE 9NIsY 

                            FOR OFFI@IAL USB ONLY 



   follow concussion. MACE scores do not diagnose concussion. Concussion remains a
   clinical diagnosis.

JTTS CPG for mTBI Appendix D: Concussion Patient Information Sheet

   5. Does medicine help?

   The treatment for concussion is limited duty and rest. If you have a headache, you can
   usually take acetaminophen (brand name: Tylenol). Non-steroidal medications like
   aspirin and ibuprofen (Advil, Motrin) may increase the risk of bleeding; therefore
   these medications should only be taken upon the advice of a medical provider.
   Narcotics may cause significant sedation and interfere with your ability to perform;
   therefore narcotics like hydrocodone (Vicodin) or oxycodone (Percocet) should be
   avoided unless you have another medical reason to take them. Over-use of any of
   these medicines may lead to rebound headaches, making you feel worse.

   6. Warning Signs

   Certain signs and symptoms of a concussion require immediate care. If you experience
   any ofthe following go immediately to the nearest aid station or emergency room, at
   any time of day or night:

  - Progressively declining level of alertness 

  - Seizures 
 

  - Double vision 
 

  - S lUffed speech 
 

  - Unable to recognize people and places 

  - Unequal pupils 
 

  - Repeated vomiting 

  - Worsening headache 
 

  - Weakness or numbness in arms or legs 

  - Unsteadiness on feet 





                                          93 

                            F8tt OFFfCMtL USE ONLY 

                                               'FOR O'F'FfeIAL USr: OHL i

Appendix G. Management Comments 
 


Under Secretary of Defense for Acquisition, Technology,
and Logistics


                                ASSISTANT SECRETARY OF DEFENSE 

                                           3030 DEFENSE PENTAGON 

                                          WASHINGTON. DC 2030 1-8030 



                                                                                  FEB G8     ton

      MEMORANDUM FOR 	DEPUTY INSPECTOR GENERAL. SPECIAL PLANS AND
                      OPERATIONS, DoDIO

      THROUGH: DIRECTOR. ACQUlSlTlON RESOURCES AND ANALYSIS                           ~\\\ \ \
       SUBJECT: 	Response to DoD 10 Draft Report on Allegations Conceming T'l'Iilllmatic Brain Injury
                 Research Integrity in Iraq (Project No. D2009-0000SP0-0242.00)

              As requested, I am providiD8 USD(AT&L) respoIlSOI to m:om:mendations CS.1, CS.2, C6.1
      and C6.2 oontained in the lIubject report. Each of the l'eSpOl)X$ to the four recommendations
      involves uJldatin8 DoD Directive (DoDD) 3216.02, "Protection ofHuman Subjects and Adherence
      to Ethical StandaJ:ds in DoD-Supported Research." This DoD poHey is being updated as DoD
      Instruction (DoDI) 3216.02. A copy of draft DoDl3216.02 thllt was submitted for formal
      coordination is at Tab A. Mao)' of the DoD ComponentI have: provided their funnaJ coordination
      (Mr. Randolph Stone coordinated without comment on behalfof tile Inspector General on December
      3,2010.) If all the DoD Componenlll concur with the draft, recommend only minor modifications,
      and comply with the established timelines for processing DoD Instructions, Do013216.02 should be
      signed by May 31, 2011. It is IIDticipated the Military Services will update their policy(s) for
      protecting human subjects when DoDI 3216.02 is signed. My ofru:e will review any significant
      changes to DoD Component level policies to ensure the DoD Components remain compliant with
      the DoD level policy.

      Regtmmerulalie e,s.1: The OIG recommended the US[)(AT&L) "review and update DoDD
      3216.02 to ensure there is appropriate reference to identifYing deployed pcrIIOnneI as a group or
      potential researob subjects that could be vulnerable to coercioD or undue influence. Additionally. this
      directive should include a deseription ofadditional protections needed to ensure that the rights of
      ~h $Ubjects that ate deployed are safeguarded."

      BaDe"': PartiaUy Coocur. I concur with the need to update the DoDD 3216.02 with respect 10
      obtaining infonnw COllllCDt by subjects that is free ofcoercion or undue influence. However, there
      ill no evidence that deployed service members ate more vulnerable to coercion than non-deployed
      service members or other DoD personnel. The draft DoDI includes a section describing additional
      requirements for populations needing additional protections (Section 7 ofE:nclosure 3 of the draft
      DoDI). One subsection de$Crlbes additional p~ons {or all DoD personDel (Paragraph 7.e. of
      ~Iosure 3). In addition to retaining requirements in the current DoDD 3216.02 (e.,.• prohibition
      ofsuperiors influencing the decision ofsubordinates to volunteer and prohibition of supervisors
      attending recruitment sessions). the draft DoDI requires the Institutional:Review Board (lRB) to
      discuss the need to appoint an ombudsman to monitor the recruitment process to ensure the subject's
      enrollment is both voluntary and infonned. (The lRB must Nview and approve all Nsearcb
      involving human subjects 811 described in 32 Code ofFederal Regulations Part 219.) The draft DoDI
      bettet explains the requirements ofprotecling all Military Service members from coercion or undue
      influence.




                                               .OR OffiCIAls USE OUbY
                                          FOR:: OFFIOIhI5 l!fS15 On~i Ya




RSSOmmendatiop      c.s.:z: The om ~commended the USD(AT&L) "ensure that in-theater research
oversight authorities ~e1ve training regarding additional safeguards that should be considemi to
protect the rights ofresearch pqrticipants who are deployed to a combat zone,"

RuI!2llSe:   C01lcur. The draft DoDI bas sections Rgarding education and training requirements for
DoD personnel involved human subjcct ~earch. The draft DonI tequi~ the DoD Components to
ensure all DoD personneJ receive initial and continuing education commensurate with their duties
and responsibilities (Section 5 ofEndosUR 3 ofthe draft DoDl at Tab A). The draft DoDl assigns
the Assistant Secretary of Defense for Research and Engineering (AS~») the responsibility for
developing a framework for educational training requirements (Paragraph I.f. ofEnelOSUl'e 2). The
DoD Components have infonnally c:omdinated on a draft framework that lists minimum education
topics for dilTerent roles that personnel have in protecting human sulljects and for difl'emIt types of
research. We expect this action to be complete by June 30, 2011. My office will work with the DoD
Component as they update and implement their policy(s) for protecting human subjects to ensure
personnel involved in the oversight of in-theater resean:b bave appropriate training.

RKo_ _dation c.6.1: The 010 recommended the USD(AT&L) "coordinate with the Military
Services to develop, update and align DoD and Service level policies related to the investigation of
me<lical research misconduct in a joint-service. deployed environment."

Rum!!!":      Concur. (concur with the need to update the DoDD 3216.02 with resped 10 clarifying
investigation ofresean:h misconduct in a collaborative environment. The :recommendation will
iIIelude all the DoD Components supporting human sut;<:ct researoh and cover all DoD conducted
resean:h, regardless of the location of the research. Since DoDD 3216.02 was last signed in 2002,
00013210.1, "Research Jmegrity and Misconduct," (Tab B) was published to provide guidance on
~ allegations ofresearcb misconduct. DoDI 3210.1 has coverage ofhoth the potential need
to assign joint responsibility (paragraph 6.2.3 ofTab B), as well as a section on non-compUance by
DoD Components concerning iDtramural research (paragraph £3.},11 ofEDclosure 1 ofTab B).
Similarly, the draft DoDI 3216.02 bas a section about noncompliance with the Instruction (Section
16. of Enclosure 3 of1he draft DoDl at Tab A). When more than one DoD Component is illvoIved
in an allegation, the draft DoDI directs the DoD institutions 10 jointly detennine and assign
responsibilities for responding to the allegation. This should close any perceived pp between the
issuances for human subjcct resean:b and ~h misconduct as both address this topic. .As long as
a DoD Component is complying with DoDI:m0,7 and DoDI 3216.02 11$ drafted. no additional
reqllltements are needed if the allegation involves personnel at a deployed location.

Rpm.end.tioD C.6.2: The 010 recommended the USD(AT&L) "coordinate with the Military
Services to develop, update and align DoD and Service level policies related to the conduct of
clinical research to en.stIrC there is better interoperability among the Services in cases where research
may be conducted in a joint-service environment!'

hpollS!: COncUF. When human subject research is being supported by more than onc DoD
Component.• the draft DoDl enco1lmlJCS communication, coordination, and Rliance to avoid
UIUItCelIS8I}' duplication of requirements for conducting human subject research (Section 3 of
Enclosure 3 of the draft DoDl at Tab A). My office will work with the Military Services as they
update their poIicy(s) for protecting human subjects to improve harmonization and reliance when


                                                   2




                                                       95
                                          PUtt Of"FICIAk U~. OW Y
reviewing and epptOving collaborative research. In addition there are other complementary
mechanisms within the DoD to promote interoperability and coordination ofjoint research programs,
such as the Anned Setvi~s Biomedical Research EvalUation and Management Committee and the
DoD Force Health Protection Council.

       Please contaQt (Patty Deeot at 703-S88-7402 or patty.decot@o&d.tnil) if additional
infonnation is required.



                                             ~(J/lI!/
                                                Zachary J. Lemnios
Attachment:
As stated




                                               3




                                                   96
                                        fOR OffHZlIAk           ~~J;; Q~JJsY
Department of the Army 
 





                                    DEPARTMENT OF THE ARMY
                                   OFACE OF THE ASSISTANT SECRETARY 

                                    MANPOWER AND RESERVE AFFAIRS 

                                          111 ARMY PENTAGON 

                                      WASHINGTON. DC 2OlTIHlll1 




       SAMR-MP


       MEMORANDUM FOR Inspector General (IG), Department of Defense (DoD), 400 Army
       Navy Drive, Arlington, Virginia 22202-4704

       SUBJECT: Response to DoD IG Draft Report on Assessment of Allegations 

       Conceming Traumatic Brain Injury Research Integrity in Iraq (Project No. D2009­

       DOOSPO.0242.00) dated December 22, 2010 
 



       1. Reference: Memorandum from the Department of Defense Inspector General to the
       Deputy Chief Management Officer, subject: same as above.

       2. I have reviewed the draft Department of Defense Inspector General report assessing
       that the Department of Defense's guidance regarding the performance of research on
       human subjects (in this case deployed, injured U. S. military personnel In Iraq) was
       violated in a DoD approved clinical research trial evaluating a treatment for mild
       traumatic brain injury. The Army concurs with comments to the DoD IG draft report.
       Enclosed are comments from The Army Surgeon General.

      3. The Secretariat point of contact is• • • • • • • • at (703) 692~r
      • • • • •pus.army.mll.




       Encl
                                              ~
                                              • SAMUEL B. RETHERFORD 

                                                Deputy Assistant Secretary of the Army 

                                                  Military Personnel '" ft!\J) g..c II 





                                                                                               b(6}

                                                     97
                                           FOR OFFlClA~ Ui5R Q}'k¥
                                         F914: 9FFlSIA15 @liBIS 9~ 115Y




                                                                                  FEB    7 lL'



MEMORANDUM FOR Inspector General (IG). Department of Defense (DoD). 400 Atmy Navy
Drive. Arlnglon. VA 22202-4704
SUBJECT: Comments In Response to 000 IG Draft Report on Assessment of Allegations
Concerning Traumatic Brain Injury Researd11ntegr1ty In Iraq (Project No. 02009-000sPo..
0242.(0) dated December 22. 2010


1. I appreciate the DoD IG's comprehensive inveatlgaUon of this complalnl.lnvolvlng clinical
research conducted In Iraq with deployed ServIce members. The U.S. Anny Is committed to
ensuring that research lnl/Ol¥ing human &ubjeds adheres to the highest ethtcaI standards and Is
conducted In fuH compliance with federal, DoD and Army regulatory requlremenl8. The
recommendations Included In this report will assist us In Improvfng our efforts In the pJOleCtIon of
human research SUbjeclS.

   a. As requested, I am providing comments regarding the observations and recommendations
In the draft report that are directed to the US Army Surgeon General and the US Army Medical
Command (USAMEDCOU). apecIflcaIIy ObserYations 0.1 ·5 and Recommendations 0.1.1·
01.5: 0.2.1-0.2.5; 0.1.1-0.1.3; C.4.1-O.4.3; and 0.6.3-0.5.4.

   b. Please note thaI. although the Recommendations Table on Page 5 of the draft report
indicates there Is • Recommendation 0.1.6. no such Recommendation Is listed on page SO.
Additional adminls1rative correction comments regardlng the document have been provided to
the DoD IG In a separate communlcallon sent on 9 January 2011 by \he Army POO for this
action.

2. Observation C.1. The DoD IG observed that -[a)llhough two potential conflicts of Interest
existed, processes used during Ihe review and approval of medical researoh were not effective
In identifying and addm&lng them.· I concur with this observation. The following are my
responses to the five recommendations to the USAUEDCOM thai accompany this observation:

  •. Racommend8tlon C.1.1. "Review and update AR 7()'25 and AR 40-38 to ddy
requirements for dIscIOGing potential conflicts of Interest during tha conduct of clinical research."

Response: Concur. The Army will combine AR-7()"25 and AR 40-38 Into an updated
consolidated Army human research protectIon$ regulalon thal darlles the requIraments for
disclosing and rnaneglng potential and aQual conIIicts oflnlereats that 0CCUt prior to and during
the conduct of research InIIOIYIng human subjects. We expect this regulation to be approved by
30 AprIl 2012. In the interim I will send a targeted message delalling these requirements to all
AImy Actl¥itles that support meard1InvoMng humen subjects by 28 February 2011. I will
follow-up with a message to all Army AcIIvIIIes (AlARACT) by 15 Maroh 2Q11.




                                               98
                                          FOR OFF10IA1!l USE Oll15Y
                                         PUtt OPPlt:l'A1:: tf"t! ONLY




DASG-lA
SUBJECT: CommenIt In Response to DoD 10 Draft Report on .Assessment of AIegations
Concerning Traumatic Bfaln Injury Research Integrity In Iraq (Projact No. D2OQB.DOOSP0­
0242..(0) dated December 22, 2010


  b. RecommendatiOn C.1.2. "Ensure the RevIew Board's Standard Operating ProceduI'8!i are
updated to clarity requIrementB for dIacIosing poIantlaI conflicts of Intereat..

Response: Concur. Note that the Brooke Army Medical Canter (BAMC) Institullonal RevIew
Board's (IRS) Is the Review ~td described In this report. See below for a consolidated
respom;e to DoD 10 Recommendation C.1.2. and Recommendallon C.1.3.

   c. Recommendation C.1.3. 'mplement the use of a 'dlscIO&u1'e form' to be eubmitted along
with research protocols for RevIew Board consideration, In order to ensure potential conftIcts of
Interest are IcIantifIed by the Invelflgator and consIdeI'8d by the Review Board:

Response: CI:Irwur. The DIrector, AIm'I Human Research ProIecIIons Office (AHRPO). WIll
ensurelhal the BAMC IRB Stendafd Operating Procedurea (SOPs) are updated to clarity
requirements for disclosing potential conIIIcta of Interest. ThIs procedUre wIIIlnclucte the use of
a comprehenslve "disclosure bmw to ensure potential conIIIcta of Interest are IdantifIed by the
Investigator and considered by the IRB' TheM SOPs will be updated, reviewed and approved
by 28 February 2011.

Note: In Spring 2010. tile IMtJtutIonaI OfIIcIaIs oJ the MuItJ..NalIonaI Foroes-Iraq (MNF..J) and US
Fon:es-Afghanlstan signed Institutional Agreements wlth the Headquarters, US AIm'I Medical
Research and t.taterItd Command (HQ USAMRMC) adding the HQ USAMRMC IRB to their
DoD Assurances for Protactlon of Human Research SubjedS rAssurances"). The USAMRMC
IRS has served as the IRB of record for all new Theatre protocols since 14 June 2010. The HQ
USAMRMC IRB Policy regardlng conflict or Inlel'8!ills at Tab A. It employs an Invesligator
Disclosure Form (Tab B).

   d. Recommendallon C.1 .4. "Ensure thallhere 8re policies and procedUI'8!i In place for
individuals or learns that are responsible to conduct reseerch study review8 and imIestIgaIions
In B deployed..utng. SpeclIlc:alIy, ensure that individuals involwd In the review must be
Independent and noI previously involved In the research proIocoI review and approval proeesa..

Response: Concur. In March, 2009. an Independent MNF-I Human PlOledlons Administrator
(HPA) position was established. This action was taken In recognItiOn of the potential for conllid
of lnlereat thai occurred in requiting the Deputy DIreclor of the Army-eponscnd Deployed
Combat casualty Research Team (DC2RT) charged With the faciJitaIlon of research In Iraq to
also serve as the individual wlIh on-Ilia reaponsIbUfty for ensuring an cbjeclive nMew of the
research for compliance with human subjects protection regulatory requIrementa. The MNF-I
HPA reported to the InstllUUonal OfIIcIaI (MNF-I Command Surgeon) and was responaIlle for
the cornpIlance oversight of all human l'8!iearch conducted LIlder the Army approved MNF·I
COO Assurance. An Army MedIcal Service COrps CoIonaI was the f1rst officar assigned to that
poellion for one Y"f. Thai position remained an asaantial component of the MN~ Human
Research Prote<:1Ion Program (HRPP) unUlthe MNF-I Assurance was replaced In August 2010
by the US Central Command (USCENTCOM) Assurance that now covers the Joint Operallng
Areas of Iraq, Kuwait and Afghanistan.

The USCENTCOM HRPP Plan (Tab C) serve8 IiIS the foundatiOn for the currant USCENTCOM
A.mly-approved DoD Assuranc;e (Tab D). This HRPP describes the HPA's responIIIbiIItI. The

                                                 2




                                                     99
                                          FOR OFFIChlrL UB}! OlqVi
                                         'PaR ap'PICrAL USI! ONLY




DASG-ZA
SUBJECT: Comments In Response to DoD IG Draft Report on Assessment of AIIegaliona
ConoernIng Traumatic BraIn Injufy Research Integrity In Iraq (Project No. D2OO9-DOOSPO­
0242.00) dated Decembet 22. 2010

HPA Is Independent of the now·JoInr (formerly "DepIoyedj Combat casualty Reeean;h Team
(JC2RT) end reports directly to !he In-lhealre lnsUtutlonai 0RIda1. The SOP for USCENTCOM
HPA monitoring of human researd1 studies was originally developed and Implemented in
0cI0ber 2009. The tide of !he SOP was revised In January 2011 to better reflect Its operational
Independence from the JC2RT (Tab E). HPA monitoring and audit reports 8re provided to the
Institutional Official and to the DIrecIor. HQ USAMRMC IRB.

  e. Recommendation C.1.5. ·Pendlng the outcome of the U.S. Navy investigation, conduct a
review of the process used during the Deployed Research Teem', vialt to camp TQ to IdentIry
any necessary changes needed to _10 that fUture reviews are complete and accurate,"
Response: Concur. The Direclor. AHRPO, win nMew the process used during the DC2RTs
viaIt to camp TQ to identiI'y any necenary changee needed to ensure that future reviewa are
complete and accurate. The AHRPO report wID be completed by 15 May 2011. These results
will be further evaluated upon receipt of the outcome of the u.s. Navy Investigation.
a. Obeervallon Co2. The DoD IG observed that 1t]he Research RevIew Board was not effective
In acknowledging or complyfng with Food end Drug AdmInlslratlcn (FDA) regulations for the
conduct of clnical trIaIa using Investigational New Drugs (INO): I coneurWlth thla ob8etvation.
The JoIIolNIng are my responses to the five recomrnendallont to the USAMEDCOM thai
accompany IhIa obseMIIIon:
   .. Recommendation Co2.1. ·conduct 8 review Into the proc:eaa used by the Review Board
which led to the decision to recommend approval for IhIa research prolocoI without submission
of an Investigational New DnIg application:

Response: Concur. The DIrecIor. AHRPO. wID conduct a review Into the process used by the
BAMC IRB which led to the decision 10 recommend approvaJ for this rese.\!II'Ch protocol 'Nithout
submission of an IND. AHRPO WID also review the current BAMC IRB processes and SOPs 10
ensure that !he aystem deficiencies thet led to the failure to identify the requirement for an INO
appbtlon In this c:ase have been addressed. ThIs AHRPO review and report to me will be
cornpIetad by 28 February 2011.

   b. Recommendation C.2.2. "Review and update AR 40-7 to c:Jarify requirements ragaIding
use or investigational drugs In medical research, to include Intended use of nutritional
supplements as experimental drugs.                       tify the U.S. Army Medical Materiel
Develcpment ActIviIy Division of Regulated             and ComplIance as a consulting agency
for researchers and Institutional review boards regarding Interpretellon of FDA regulations and
InvElStigational New Drug determklatlons:

Response: COncur. Army Regulation 4Q..7. "USs or U.S. Food and Drug Administration­
Regulated Invesllgational Products In HUmans including Schedule J Controlled Substances" was
updated on 19 October 2009 (Tab F). The US Army Medical Materiel Development ActMly
DivIsIon of Regulated ActIvities and Camplla,*, (USAMMDA DRAC) \'Wllupdate AR 40-7 with
respect to clarifying, baSed on FDA regulations and the latest guidance from FDA. requirements
for submission of INO applications for studies utilizing nulrilional8UPplements as experimental
drugs. The update willlnc1u.de identIfYIng USAMMDA DRAC as the consulting agency for

                                                 3




                                              100
                                         FOR OFFIGhOih USB ONti Y
                                         FOR OFFICM.+J USJ5 Q~H5Y




OASG-ZA
SUBJECT: Comments In Response 10 DoD IG OnIft Report on Anessment of Allegations
ConcernIng Traumatic Brain InjUIy Research integrity In Iraq (Project No. D2OO9-OOOSPO­
0242,00) deled December 22, 2010


research81'S and InsIituUonall'8VieW boards fotlnt",pretallon of FDA nilgulations and INO
delermlnatlons. Elcpected completion of the updated AR 4007ls by 30 Aprl2012.

  c. RecommendIIion C.2.3. 'Update the R4WIew Board's poIIdes and procedures to ensure
compliance with bwesllgatlonal New Drug conakleratlons and procedures. Additionally. ensure
that these poIIdes and procedures Include prompt consulIa1ion with a subject mailer expert for
FDA-related matt81'S, pertlcuIarly for investigational New Drugs, as wen as for any Dlher matters
outside the scope of Review Board members' el¢lel'Us9:
Response: Concur. The Oll'eclor, AHRPO. will ensure !hat SAMC IRB SOPs ara updated 10
require the comprehensive review of clinical research involving !he use or medical products
and/or devices 10 ensure compliance with FDA regulallons regarding INOS end fnvestlgallonal
Device Exemptions (IDEe). These SOPs will identify procedu.... for consulting theUSAMMDA
DRAC for Interpretallon of FDA nilgulaUons and provision of INO/IDE determinations. The SOPs
will Include dlecklists for researchers to use at the time of protocol eubmlssIon which IdentIy
the criteria used In making an IND or IDE delermlnatlon. These SOPs will be updaled. revieWed
and approved by 28 February 2011.

Note: The HC USAMRMC IRB protocol appllcaUon (Tab G) template CUmll1t1y In use for 811 new
reseen:h In Theatre Includes two sections to soIlcitlnfarmation from the reseen::her regarding
plamed use of any Invesllgallonal or approved drugs, dietary auppIementa, biologics. or devices
In the proposed research [one In Part A (SectIon 8) and one In Part C (section 7.2D. The INO
and IDE Checklists used by 1he HQ USAMRMC IRB support staff In preparing the protocol!!: for
IRS review 8f8 Included at Tab H. this Information Is used by the IRB In making regulatory
delemllnationa and/or ~ subject matter expett consultation to ensure that all
requirements for tNO COI'I1IdenIlions are mel

  d. ReoommendatIon C.2.4. "Develop a specific cheCklist for reseaf'ChEll1l to use at !he time of
protocol aubmls8ion which ldentlfiea !he criteria used In making an IrwestlgatlonaJ New Drug
determInaIIon. AdditIonally. this form could be used by sclentlflc reviewers and the RevIew
Board to ensure that aU requirements ror Investigational New Drug considerations are mel:
Response: Concur. see response to Recommendation C.2.3. In addition. please note IIlat It Is
the InstHuIIon engaged In research and the Instilutlon'8 IRB's responalbllily to IdenIify the FDA
regulalory requirements for 1he conduct of human SUbjects researd1. The SCientific Revie'W
Committee's primary rasponslbllity Is to assess the scientific Integrlty 01 a proposed study. Thus
we will not add these FDA regulatory checkIsts to the Scientific Review Commillee SOPs.
  e. Recommendation C.2.6. "Ensure thai alllndMdUaIs Involved in !he submission. review,
and appmval 01 clinical research protocols receive tralnlng In the use of investigational drugs,
Food and Drug Administration regulations and the investigational New Drug proC8$8,"

Response: Concur. Both Aft 7()'25 and AR 4()'7 will be updated to Include a requirement for
individuals inVolved In the SUbmission. review, and approval of clinical reseerch proIoCoISIo
receMt training In FDA regulallons applICable 10 the conduct of studies Involving the
administration of medical products and !he use of medical devtces. We expect theae
regutallona to be updated by 3Q April 2012.

                                                4




                                               101
                                        }lOft OPPfel1d! tf~l! ONE I
                                         POl\: OPPICrm tJ~J! Ol~L i




DASG-ZA
SUBJECT: Comments In Response to DoD 10 Draft Report 011 Assessment of Allegations
ConcernIng TraumaUc BraIn InjUry Research Integrity In Iraq (Project No. D2O(l9.000sPO­
0242.00) dld8d December 22, 2010



4. Observation C.3. The DoD 10 obsefwd !hat "(e]xlstlng procedures used during the review of
the Researdl Prolocol railed to resotve sclenllflc peer reVIewer concems." I concur with this
obselvation. The following a1'8 my reaponses to the three recommendations to the
USAMEDCOM that accompany this observation:

   a. RecomrnencIatIon C.3.1. "Conduct a review Into the process used by the HPA and
USA!SR during the ICIenUfic review of the research proIocoJ and Identify Improvements needed
to ensure that future acIenIIfJc reviews are thorough. acc:urate and address all concerns
necessary for a valid and sdenllflcally sound research proposal:
Response; Concur. Please note that, at the lime this event occurred, It was the Deputy
DIrecIor, DC2RT'8, responslbiIit)' ID forward research protoc:oIs fromlhe MNF-I to the USAlSR
for scientific review. The Deputy Director had assumed an additional duty of serving as the
HPA. On 19 June 2010, the USCENTCOM and US Army Instlute of Surgical Research
USAISR) esl8bllshed a revised process for sdenIIfIc review and approval of USCENTCOM
research protocoI$. The current SOP for scientific review (Tab I) Includea robust procedures to
ensure thai fuIure aclenllflc revfews are thorough, accurate and address aD COflCIfI1S neceesary
for a valid and scIanUfIcaIIy sound research proposal.
  b. Rec:ommandaUOI1 C.3.2. "ReYIew and update Aft 40-7 to Indude a more delated
deacflption of the process and procedure for c:ommunicafion used during 8 scientific peer
review, to ensure that actions laken are adequate to address any of the reviewers' stated
concerns or questions. Consider the encouragement of an open exchange of Information
among !he sclentlle peer reviewers, the InveatIgator, and the review boanI to reSOlve any
concems or differences of opinion."

Response: Concur. however regulation to be updated is AR 7()"25. AR 70-25. "Use of
Volunteers as Sub)ecls of Research" dated 25 January 1990; AR 40-38; "Clinical Investigation
Program", 1 September 1969: and AR 40-7, "Use of U.S. Food and Drug Adminlstratlort­
Regulated Investigational Productt In Humans Including Schedule 1ContIoIIed Substances",
10 October 2009. are the current regulatiom; governing the Ivmy conduct of research Involving
human subjects. AR 70-25 and AR 4Q.38 wII be consolidated Into one updated Mny regulaUon
govemIng the conduct of resean::h involving human subjects. This updated regulstlon win
indudll a more delalled description of the minimum requirements for the scientific nMew
process.. Uwill address procedurea for communication used durlng a adanUfic peer review. We
wID aiso encourage an open exchange of Information among the $CIentificpeer reviewers. the
invastigator, and the IRB to resolve any concerns or dlfferet1Cef of opinion. The current AR
40-7 addresses the requirement for acIenIIftc review and references AR 7045 In Its dlsc:ussIon
of review requ1rements.

   Co Recommendation C.3.3. -Update Ihe Review Board's SOP to Include 8 delallecl scientific
pear review checkl1lt wtIIdIlncludea a eectIon dedicated to rnedlcations and considerations for
Investigational New Drug delermInatlons.·

Response: Concur. hoWever, It Is the Institution engaged In research and lis lAB's responslblllty
to identify the FDA regulatory requirements for the conduct of human subjects research, the
                                               5




                                        paR: epPfCM:L USE ONLY
                                          FOR OFFIOI!z15 USE 01 ih¥




JlASG.ZA
SUBJECT: Comments In Response to DoD fG Otaft Report 011 Assessmenl of AJIegaIIons
Concerning Traumatic BraIn Injury Research Integrity in Iraq (Project No. D2OQ9.DOOSPQ..
0242.00) dated December 22, 2010

checklists outlining regulatory consldenltions for INDsand IDes will be Included In the SAMe
IRB SOPs as well as the revised AR 70-25. Please note that !he sclentlfic I1IIView procesa II
generally a separate actMty thet Involves the assessment of the sdentIftc validity of a proposed
study.

5. Obael'vJUon CA. The DoD la observed thai ,e)xlstlng processes and tools used during the
nwIew and approval of !he COnical Trial faDed to effecUve/y leverage the MediCal Monitor role in
protecting ruearch partlclpanI$: I concur with this obGwvatIon. The following are my
responses to the three recommendations 10 the USAMEDCOM that accompany this
obsarvaUon.

 a. Reconvnendation C.4.1. "Conduct a review Into the process used by the Review Board to
select an appropriate individual to serve as medlcaI monitor for the Research Protocol.
Additionally,ldentify Improvements needed for resaan:h studlas to Involve medical monltors to
ensure that !here are maximum proIeCtIons of the rights and welfare of research participants.·
Response: COncur. The DIrector, AHRPO, will conduct a reviaw of the process used by the
BAMC IRB to select an appropriate Individual to serve as medical monitor for the Research
Protoc:ol. AddJtionally. AHRPO will Identify Improvements needed for rasearch studies to
involve medical monitors to ensure that there are maximum protections of the rights and walfare
of research participants. This review will be compIe.ted by 15 May 2011.
   b. Recamrnendation C.4.2. "RevIew and update AFt 70-25 to ensure there is appropriate
<181811 regarding relas and respanslblltles. as well as qualifk:atlons of a medical monitor.
SpecIfIcally this guidance should require that medical monitor roles and reeponsibilities be
provided In writing In the form of an appoInlment leltar with clearly staled repotting
requirements:

Response: Concur. The Army will combine AR·70-25 and AR 4Q..38lnto an updated
consolidated Atmy human research protections regulation thet will Include appropriate datall
regarding medical monitor roles, responsibilities. and qualiflcaltons. In addition the requirement
for written designation of the medical monitor will be established. We expect this regulellon to
be published by 30 April 2012.

   c. Recommendation C.4.3. "Ensure that the Review Board's Standard OperatIng Procedures
Include procedures and/or chec:kllats to ensure all research protocol requirements are met prior
to gMn9 approval to InItiate the research. Spedfically. ensure that crltarfa are developed to
document that a medical monitor was assigned (If required) and appointed In wrftIng Including
details on their role and responsibilities.·

Response: Concur. The DIrector. AHRPO, will ensure thet SAMe IRB SOPs are updated to
Include procedutea and checklists to ensure all research PfOtocoi requlremen18 are mel prfor 10
gMng approval to initiate the research. Specifically, AHRPO wll ensure that criteria Include
docUmentation that a medical monitor was assigned (if required) and hI8Iher roles and
responslbllillu were delineated. These SOPs will be updated. reviewed and approved by
28 February 2011.

                                                6




                                                    103
                                         pelt E5l'l'tCIAL USE ONI51f
                                        PClt CPPICIltL 0 SE ONt f




DASGZA
SUBJECT: Comments In Response to 000 IG Draft Report on Assessment of AllegatIons
Concerning Traumatic Brain Injury Retearoh Integrity In Iraq (Project No. D20Q9.D00SP0.
0242.00) dated Deeember 22, 2010


6. Observation C.5. The DoD 10 obeerved that 1e)xl8dng regulallons and procedures used by
the Invesligator and research authorities failed to Identify and appropriately proted deployed
U.S. seMce members as 8 vulnerable human subject group" I concur that the procedures
used by Ihe tnvesIigator and research autharttles failed to adequalely Idenlry and appropriately
protect the subJects of the rasaerch study reviewed by the DoD IG. However. to the extent that
lhese subjects ware vulnerable to undue Influence or coercion, such vulnerability was not
because of their atatus as deplOyed US seMce Members. Their vulnerability waa due to tha
nature of their Injuries and the FRAGa directing movement of pallents to Camp TO. Deployed
US 8erJIce Members WhO may patllClpate In resaarch are noIlnherenUy more wlnetable to
undue Influence or eoerdon than non-deployed US SaMce Members, and should not be
expressly Idenllfled as membets of 8 wInerabte group.

Exlallng regulations (32 CPR 219.   DoDD 3216.02 and AR 70-25) Identify appropriate
"vulnerable" groups (e.g., children, prisoners. pregnant woman, mentally or physically disabled
persona, and economically or educationally <laadventaged persona) for WhOm adrfdlonal
safeguards ate usuaUy needed, and req.... addItlonalsafeguards to protect rights and welfare
of other aubfects who do not belong to named wl~1e groups, but who are nevertheless
recognlzed to be vulnerable. The recognition of the potanIIeI for participants to be wtnerable to
undue Influence or coercion Ie basad upon a c:ornprehansive review of aD aspects of the
proposed study. The IRB Is Charged with ensuring that safeguards are In pface to address any
such wlnerab11lty. In add16on. DoDD 3218.02 and AR 70-25 discuss proIectIons for all mililary
penonnel. deployed and norHIepIoyed. to minimize likelihood 01 undue Influence and coerdon.
The followtng are my responses to the two I'EICOItlrlendations 10 the USAMEDCOM thai
accompany thIe obSerVation:
  a. Reeommendatlon C.5.3. "Conduct a review Into the process used by the Review Board to
recommend approval for the ClInIcal Trial. Additionally. t1Wiew the report provided by ....
DeplOyed Research Team to ensure It was accurate wI1h appropriale recommendaUons and
acUans taken."

Response: Concur. The Director. AHRPO, will conduct a review iOlo the PJt1C818 used by the
SAMe IRB to rec;cJmmend approval of Ihe trial and wlI review the process used during the
Deployed Research Team's visit to Camp TO to ensure It was accurate wI1h appropriate
recommendations and actions takln. The report will be completed by 15 April 2011.
   b. Recommendation C.S.4. "RevieW and update AR 70-25 to ensure there is approptlete
reference to identifying deployed personnel as a group of potential researd'lsubjecls that could
be vulnerable to coercion or undue Influence. AddlIIonaIIy, Ihls directive should Include a
description of additional protections naaded to ensure that the rights of research 8Ubjects that
are deployed are safeguarded.­
Response: Concur. All Soldiers rapresel1ls unique category of vulnenlbHlly to ooercIon or
undue Innuance. It Is the Army's position that deployed Soldiers win not be conslderad a subset
of thfs population. The Army 18 tn the early PJt1C818 of combining AR-7G-25 and Nt 40-38 Into
en updated consolidated Army human research protections regulation. The Army will ensure
thallhe regulation considers wlnerabllllles of aU military personnel 10 undue Influence and

                                                7




                                               104 

                                         FOR: OFFICIJlfL USE ONL"'{ 

DASG-ZA
SUBJECT: Comments In Response to DoD IG Draft Report on Assessment of Allegations
Concemlng TfaUmatlc Brain InJLU}' Research integrity in Iraq (Project No. D2OO9-DOOSP().
0242.00) dated Dac:ember 22. 2010

coercion, and that m1Utary-specIfic protectlons are Included. ldentllication of vulnerable groups
                                                                          or
and proteclIon8 for muitary peraonneI will be con8l8tel'lt wllh the nwislon DoDD 3216.02
(being updated as DoDI 3216.02). It Is anticipated thlt protections for m111ta1y personnel In the
DoDI wIIllndude prohibition of superiors influencing the decision of subordinates to volunteer,
prohibition of eupervis0r8 attendlng recruitment session.. and a requirement that the IRS
dIscUss ths need to appoint en ornbudsrnatt to monitor the nlICI'UIlment pI'OC8$8. Thus this
updated regulation will nolldentify deployed personnel as a uniquely vulnerable popuIaIion and
will not describe special aaIeguard8 applicable to deployed personnel. We elq)BCt the Army
regulation to be approved by 30 AprIl 2012.

7.   ~. ~.AnnrHumanRese.rch PtOtedions
OffIce,                   .army.miI, ~(DSN                     if addftIonallnformation Is
requi .


                                             ~ ........ A-....,. l3.JlJI.­

                                           ""'V,.,   ..- _             _,211"'"

                                             ERIC B. SCHOOMAKER
                                             LIeutenant General
                                             The Surgeon General and
                                               Commanding General, USAMEDCOM




                                                8




                                                                                                    b(6)
                                                    105
                                         POlt OFFICI*L USB ONh¥
                                           "OK epPfCh\L USE miLl[




Department of the Navy 





                                     DEPARTMWIIT OF THE NAVY
                                       NAil iI.L. INSPECTOR GEmtfiAl
                                           1254   ern S fAlii!;i Be
                                   WASHIOO'JOO NAvY YARO OC2r014OSOIl6
                                                                                1N 1>1:"'-Y flt'!;;1l10'
                                                                                5041/201000537
                                                                                Sa:r N64/0071i
                                                                                OJ Feb 11

       From:       Naval Inspector General
       To:         Inspector Gene1:al, Depart_nt of Defenae (Attn: Special
                   Plena and Operations)

       Subj   l	   DRAFT lmPOllT: DODIG ASSESSMENT OF TRAUMATIC BRAIN INJURY
                   RESEARCH INTEGRITY IN IRAQ (PROJECT ROMBBR 2009-DOOSPO­
                   0242-00)

       Ref:        (a)   DOnIG Memorandum of 22 December 2010
       Enel:       (1) BUMED ltr 7602 Ser M09/ON093D00092 of 28 Jan 11
       1.  Per reference Ca). enclosure (1) is forwarded on behalf of



                   Ij".

       Chief. Bureau of Medicine and SUrgery.
       2.     My point    of contact for this
      iI~iI....      United States Navy.
       contacted at commercial (202) 433
       mail at • • • • • • • •~~~!£


                                                         A!WREA E, BROTHERTON
                                                         Deputy

       Copy to: (w/o enclosures)
       BUMIW (M09)




                                                 106
                                           FOR: OFFIC:folzh USE OlH5Y
                                         aurFOR OfflGMJ5 USE ONIs 'fr




                                         fa en Ie...         " • ....
                                      D'lPARnIINT    OF_
                                       _OI'tiIIIlIOIIIE nil_
                                                           NAVY




• 
	
                                                 _   Elm!eET'" 

                                           W~DC_
                                                                               1502 	 ......y _ W

                                                                                     .IAN   ,II
                                                                               Scl'M09/UN09lOOOO92
                                                                                                  7011

From: Chief, Bureau of Medicine lUId Surgery
To:   orrICe or the fnliJleClOl' Genentl, Depamnenl of Defense (Aun: Special Plans lUId
          Opttations)
 Vin:     Naval Inspector General

Subj: 	 DRAfT REPORT: 000 fO ASSESSMENT OF TRAUMATIC BRArN INJ'UR.Y 

        RESEARCH INTEGRITY IN IRAQ (PROJECT NUMBER 2009-DOOSPO-0142.oo, 
 


~ef: 	   (a) DOD IG MeltlOl'lUldum of 22 Dec 2010

L Per refemnce (a) aqd In accordance with [)oJ)[) 76SO.3,1be ~ oommenlSl
recommcndalions are forwarded for your CQII$iderationprior (0 fiftlllmng tile suJUect tepOft.

     a. General Comments: A review of the dnl.ft report identified terminolO8Y rhal WIIS used 

inc:orreclly. Specifically, on page 6 of the report and throughoullhe d~ tbo temI 

''resI:ardI misconduct" is ir1ComcUy used. The me.ttAm discussed do not meet fedentI-wide and 

asency-specitk definitions of ~h 1l1i.~. OSTP lOOO Federal Policy on Resean:n 

Mi~, 42 CPR SO and 93. aDd DoD13210.1 stric:ny define resean:h millconduct as 

falsification, fabrication. or pl8Jiarism. Recommend the following c:onections be made: 


      A.I.I. delete ~h misc:ollduct;" substitute with ''VIolation of RlICIIn:b integrity and 

emia stlllKlards.'" <:cxm:t sectiOQ throughout. Com:ct remainder ofdocument as relevant. 


       A.2.1. deleCe ~b misconduct;" substitute with "regulatory non-compllanc:c." 

Correct section rbrouthouL CoMa remainder of documcm as relevanl. 


        A.3.1. delde ~h miscoodUCI;" IUbstine with "regulatory non-oompliancc and 

violation/; of human research protections. Ct:IITeCt section tltmughout. C~ remainder of 

                                            ft



document as relevant. 


        A.4.1. deIeIe "research misconduct:" substitute with uregulalory llOII<ompIiance and 

violations of human research protr:c:tions. Corm;( section dJrou&hout. Correct remailld~ of 

                                            H


document as relevant 
 


       A..S.I. delde"'~ 1l1i.~lIduct;.. substitute with ~violaIions or reSl!llrl:h ethics and 

human research protr:c:titln$. Correct 5el:tion throuPUL Correct remainder of document lIS 

relevant 


           Regarding A.6/A.6.1 aqd the tenn TCWlfCh ~ The IS$IIe of euggeratJon of 
 

clailTlll indeed ImY be interp(eted as falsi IiClilion since the claim or ",wes" wa..; DOl verifiable. 

The lenu ~research mL'iConduc(' should be retained. in this case alone. in the recommendation 

and throughout. Other direction leptdlo. A.6 i'i foulld below. 



                                       fell aPril. . 'I• 	         .,l1li                                      .
                                                                                      !.                   (1 ,



                                                  107
                                            FOR: OFPICttrl; USE DULY
                                              ifiBR OFFICh'rfs USE SHhY




                                            J\h OJ/ltiM 6W   om,
Subj: 	DRAFT REPORT: DOD IG ASSESSMENT OPTRAU~nc DRAIN INJURY 

       RESEARCH INTEGRITY IN IRAQ (PROJECT Nl.J'MBER 2OQ9..JX)()SP().()242-OO) 


       Ob!l19'VatKm A Tille on page 6 sbouJd be ~worded as: "POhmlial Research EdJlcs 

Violatioos.~ Co!rect remainder ofdocument as ~Icvam. 


     b. The folJowiDg collU'llCfttsln:coJnmcndalioo.. adI.lM$S ~pecirlC ~dalions and
ob.'lel'Vlllions i5Signed 10 U.S. Navy Surgeon Oencl'lIl:

       For the, RecomllJi\'ndation A.I.I. "AllegtlliUlfs oilX'ttnliol1Md(,'Q/ rrmuy:/t m/~ur:t
by Q   u.s. Novy ph}-sicio1'l werr referredto IhI! U.S. Nm,' for/W'tIIn' ftn'e¥tigatitm ":
                                                                                       Non..:oneur.
R«O!1UIlC11d that this be ~ to u.s, Army Medical CommaDd.

            Ralkmale: Thouih a Navy physician. die inYeSCigator was deployed ou~ the
continental UDiIed Stares (OCONUS) during Ik cnUn: COIIJ'liC of the study under u.s. Conti'll
COIlUIIIlOd (CENTCOM)IAnny I'Wthority. He did DOl c:~ the project under Navy human
~ or researeIt ethics lIuthorities. The Navy physician ~ bis effOl1S under !he
Anny human researcb asaurIIIICC issued to CENTCOM served by the Ann)"s dlcn lnstitw.ionaI
Review BoanIIIRB) of record for that Iocalion. rwnely Bl'I)Oke Anny ~ Center (BAMC)
with subsequent headquarters level administrative review by U.S. Anny Medical Researcb lIIld
Materiel Command (USAMRMC). Navy had no authorily n:ganting Ibis specific projed nor
would it lmve had lin)' copizance of it' condllCl or PlOJmS5. The project W8.'I under Ik IIOIc
direction and lWlIlorily of tbe Anny BAMC IRB andUSAMRMC.

        Recommend iJlveJltiption oflileJle allegations be lISSiped 10 U.S. Ann)' Medkal
Command who had Ik raponsibilily ror approvals and C>YCt$iJht.

       For lbe Recommendation A-2.1. "AII'Ptiml:J ofpotmllul ,udical ruetUC:lt miscondu.cl
by 0 U.s. Navy pIi."skitm own "/~rr~d 10 fh~ US. Ntll"] fiw forth,r inwstigatinn": ConI;ur, wid!
comment.

              co~: .Naval Medical Center San Diego (NMCSD) initialed an investipdon
inlo alTegllliOl'lll SIlmlUIlding the source of funding for reseureh study MNC.Iraq-08-040 on 28
July 2010. The investigation n:sults ~ cwnmdy pending and ~ expected 7 February 201 J.

            RecommeadalioD; It is m:omrt1elll.kd lhIII U.s. Anny Medical Command alliO
COIIdUCf an investigation inlo the Cunding source ror mis research projecl. They alone would
have access to specific information Rganiing use of time. effon: or R!sources in me CENTCOM
area of mponsibilily (AOR).
         Far Recommendarion A.3.1. ""Uqatio1l.f ofIX'tt'ntio/ ~dir:ul mt:fUCh mLtt:OIItiUCI by (I
u.s. Nal,' pllysicilJJl were nferrtd 10 lht U.s. NIIIY for further iIt\~OII":        Non-eoncur.
Reas~jgn 10 U.S.   Ann.y Medical Command.

             Rationale~ Though a Navy ph~ian. the inve5tigalOr ""lIS deployed OCONUS
durill! tbe enlire course or Ik study under CENTCOMJArmy lIuthority. He did DOt condud the

                                                     2
                                        F     Offish" kg Orlt t




                                                        108
                                             FOR: OFFfChlldJ USE OHhY
                                           }iBN: BFFICh'th USE OJiLJji:




                                        "" 8Meiai '1J gllly


Subj: 	DRAFT REPORT! DOD ra ASSESSMENT OF TRAUMATIC BRAIN INJURY 

       RESEARCH INTEGRITY IN IRAQ (PROJECr NUMBER 2IJ09..DOOSf0.0242.oo) 


prQjcct under Nllvy human MCaIt'h or research clh.ica autborities. The Navy phy$k:i8l'l
conducted his efforts under the Army human research assurance issued to CENTCOM served by
the Army's then IRB of record for tbat 10000ion. nnmely DAMe with subsequent headquarters
level admlnistTative review by USAMRMC. Navy bad no authority regardin& this specifIC
project nor would it have had any cognizance of its conduct or progress. The project WII.~ under
the sole di:ection and authority oflbc Anny BAMe IRB and USAMRMC. RecomlJ.CJld
inv~liganOll or these allegatiOlll be assi~ 10 U.S. Army Medical Command who had the
R!sponsibility rot approvals and oversisJ1t.

         For Recommendation A.4.1. "AJ/~gQtIOl1l O/potelllia/ medi(YlI research misr:ontluct by a
U.S. Navy physicilDl M'l!TIr referred ID fire U.s.. Navy ftnJunht!r inVlSti.gotion 8: N'on-concur.
RellSlliJil to U.S. Anny M«IieaJ ComJlllllld.

            Rationale: Tho!.Igh a Navy physician. Ihe investigator was deployed OCONUS
dLlfing the enlilv ~ of the study IIt1der CENTCOMiArmy audlQrity. He did Rot conduct the
project under Navy hUllllllllUearch or teSeB.Idl ethics authorities. The Navy physician
conducted his efforts under the Army human R!&ean:b assurance issued to CENTCOM served by
!he Army's then IRB of record for thai location. namely BAMe Wilh subsequent beadquaners
level adminisuative review by USAMRMC. Navy bad no authority .regarding this specific
project nor would it have bad any (;08n~ or its conduct or progres$. Purther. eonsIstent willi
tile wormation provided to the subjects during informed consent and beyond as well as elements
of information c;oQtrol requimt by aU Foderal apn..ies by Tho Common Rule, !hero lite
promi.~ Jatrictions in regard to who ba.~ access to the records of daIa and docurnenUition
developed till part of the study. These dalll and the guidance provided by the IRB lite part of
records thai are not available to the US Na.... y. but are appropriately available to and rcposit with
the IRB of record, The projeel was under the sole dimetioo and authority of the Army SAMC
The project was undc£ the sole direction and authority of the Army BAMe IRB and
USAMRMC. Recommend investigation of tbe$e. allegations be assigned to U.S. Army Medial
Command who had the responsibilil) for approvaL~ and oYelSight.

       For Recommendation AS.I. "Allegadolrs olfHlfemia/ medkal ~r~h nU~ by a
U.s. Nov)' phy.'I1cUul"'l're rqerr/llJ ID 1M U.s. NallYlorlurther iIIVlsd,otioll":   N'on-concur.
Reassign to U.s. Army Medical Command

           Ralionale: Thougb II Navy ph)'llician. lhe in_igator lIIa<, deployed OCONUS
during the emiR! c:oun;e of me study under CENTCOMIArmy authority. He did Rot conduct the
project under Navy I\Uman research or researeh ethics 8wborides. The Navy pb)lSician
OOIlducled his efforls under lhe Army human resean:h .w:uriIIce is.~ued to CENTCOM served by
the Anny's then IRB of record fur IhaIlocation. namely DAMe wilh IlUbsequent beadquartcrn
level admini:iUative review by USAMRMC. Navy had no authority regarding this speclrlC
project DOl' would it have had any cognizance of its CondllCl or progress. Further. consistent with
th13 information provided 10 me mbjccts during informed consent and beyond as well as elements
of information control required by all Federal a.cencies by The Conunon Role, there are

                                                      3
                                       r   L   QI'fi 'II W I gal,




                                                          109
                                           FOR: OFF£Ch'rL USE CWfLY
                                          ~OR     OfFI0l14tJ5 USE Otir/l




Subj; 	DRAFT REPORT: DOD 10 ASSESSMENT OF TRAUMATIC BRAIN INJURY 

       RESEARCH INTEGRITY IN IRAQ (PROJECT NUMBER 2000-DOOSP0-0242"()() 


promi.'ied te5lrkrions in repro to who bas aeceu to me ~ ofdata and documentation
developed as part of'dlC study. ~ data and me guidance provided by Ihe IRB are part of
n:cords lhat are not available 10 me US Navy, bur me appwpriately lIvaiiable 10 and R:posit wilb
the IRB of tl:Cotd. The project was under Ihe sole direction and aulhority of the Army BAMe
IRB and USAMRMC. Recommend iOWSligalion of lhese allegations be assigned to U,S. Army
Medical Command who bad 1M ~billty for approvals and ovemgbt.

       For Recommendation A.6.1. "Allt/Itllians oJpoIenriQlmedico/ TfI.'ft!llrtll misconduct bya
U.S. Nwy pI'ytician 1I'lfrll reJ'trrFd III the u.s. Nov)' for funhtT im'esriBOIioll": Noo..(!OQCur. 

Reassign 10 U.S. Army Medical Command. 


            Rationale: Tboup II Navy pbysician.1he inVfi!.igatOr was deplo~ OCONUS
during die eatiR: course ofme srody under CENTCOWAmIy authorky. He did not conduct die
 project under Navy human I'e1.elIICb or n:sean:b etlUcs authorities. The Navy physician
CQnduc;tc<l his efTons under the Army human re5elRlh ~ mued 10 ClSNTCOM served by
the Anny', rbcn lRB or record for III!Illocation.lW'tICly SAMC willi subsequent headquarters
Iewl administrative review by USAMRMC. Navy bad no authority regarding dBs specific
project nor would it bave had DlIY cognizanc:o oflIS conduce or progress. FII11fv:r. COIIlIistent with
fhe information provided 10 the subjeels during informed c:on.'ltI'It and beyond all well all elementS
of information control requited by all Federal agcncic:l; by The Common Rule. tbetc are
promised ~ in repn:l to who bas IlCCeSIi 10 the record'! ofdata and documentalion
developed lIS part of the study. These data and the guidance provided by the IRB lire part of
teCords !hat me noIllllailabte 10 the US Navy, bin are approprialdy available to and R:posil with
the JRB of record. The project was under the sole direction and authority of the Army BAMe
lRB and USAMRMC. Recommend investigation or these allegarionL~ be assiancd to u.s. Anny
Medical Command who bad the responsibility for approVAls and ovCBight.

         Additional Remarks for Observation A: Regarding c:Il1ims, data djscl~. etc.
dL<;cu.~ speclfically in  A.lI, but throughout all of' Observations A. then: is a need 10 ascertain
 whcchcr tbe illvati,ator continued any pmjecf-retated activit~ after returning from deployment.
Sucb continualiOllS would Call under !he authorir)" responsibility and liability otitis pan:nl
command and DoD Component. namely Navy. Spec:ificaUy, and lIS may be retevllDl, it must be
t:fucovered wbether the investigalot notified and m:eived approvals from 1m regular NMCSD
JRB and other authorities to.- such continued actil,ities after his return. It must also be
ascertained whether any relevant presentation mmerialJi, manuscript.. tor publicmotl, or other
Ioimilar materials ~ved requisite Nviews and approvals from his Navy chain of command and
from Navy Medicine Public Affail'll Officials per regulations. CommanderNMCSD will lake this
for action with ovelSigbt by appropnllle Bureau of Medicine and SurgeI)' {BUMEDI subject
malWr ell.perII;.

        For Obsetvatioll B.I. Wtllro/ugical ilS.~SSlMlllS did 1I0t adhere to t'linlcai pracriCt
Rllidtlinlf$/or mTBr~  Cooc:ur, with comment.


                                                 4
                                      fist 8ffieial W. Bul,




                                                      110
                                          FOR OFFIOb'l!b USE OUI51f
                                FOR OFFIOli:t'rb USB ONIsY




                         NIt 8"'811'b 'tMl!! 81":;: i
Subj: 	DRAFT REPORT: DOD Ta ASSESSMENT OF TRAUMATIC S.RAJN lNJURY
       RESBARCH INT:EURlfY IN IRAQ (PROJECT NUMBER 2009-000sP0-0242-OO)




                                        S
                          Nil 81iJi11iH1':>4s IHiIl 81 Il!':'




                                                                          b(3}
                                                                          b(5)

                                      111
                                FOR: OFFIOIlzIs USE OHIs'f
                                        F@R @FFICWm USB @!f15Y




                                  fOR ill IICUCt: t!I!!t eJ IItr
Subj: 	DRAFT REPORT: DOD lG ASSESSMENT OFTRAUMATlC BRAIN INJURY
       RESEARCH IN'TBGRlfY IN IRAQ {PROJECT NUMBER 2009-DQ0SP0-024Z-OO)




           "TIle illfonnation provided he.!eift was Obtained from n:cord$ maintained as part of
Noyy Medicine's QlWity ASSlIflInCe Program and is suielly confidential and privileged. No pall
of Ibis information may be discloscd,,;ubjecllo discovery. or admitted intO evidence in any
judicial or adminiAtrative praceding. except in accordance with 10 U,S.C. JIel:tion 1102."

       For Observation 8.2. "Tht! e.qHIrlmenttll drug It'4f 1I00llPprowd by lhe Food tmJ Dmll
AdministrrttiQlt {or dinical lIudy": Concur, wilh comments.




                                             6
                                  Nit e.II1UilAio "'8& 8Uh¥




                                                                                                  b(3)
                                                                                                  b(5)

                                                   112
                                        1*QlII ,*,••101!l I        I   ISF QN! X
                                        !!tOR EWHGfi"m USE 01JL¥




Subj: DRAPT REPORT: DOD Kl ASSESSMENT OF 'TRAUMATIC BRAIN INJURY
       RESEARCH INTEGRiTY IN IRAQ <PROJEcrNOMBER 2009-DOOSf0.0242-OO)




            ! ...   tUH   t4   tl




              "The information provided herein was obtained from lI.lCOlds maintained a.. part or
Navy Medicine's Quillity MUirance Program IIId is suicd)' confidential and privileged. No pari
of !.his intonnatlcm may be disclosed. SlIbject to discovery, or admitted into evidence in lUI)'
judicial or adminilllTative proceeding. excepr in aa:ordance with 10 US.C. secIioa 1102.~

      For Observation B.3. "MtliiauiOffS ctJtIIl'tJ.indicotM in the llWllment of'arty
mTB' Wen' lUiminisfered": CODCUr. willi oomment5.




                                                7
                                    NR 8PJij@JI'tb \!lSI! 8ft.,.t




                                                                                                    b(3}
                                                                                                    b(5)

                                                    113
                                         FOR OFFIOIA15 UK~QNk¥
                                         POtt OPPleIJIdJ US}! ONt?




                                   F.R   8M". liM 8flill
    Subj: 	DRAFT REPORT: DOD 10 ASSESSMENT OFTRAUMA'I1C BRAIN INJURY 

           RESEARCH INTEGRITY IN IRAQ (PRWECT NUMBER 2009-DOO$P0-()242..oo, 





             'The il!fOl'Dllllion provided hetein was obtained from. n:cotds meinlained a.~ part of
Navy Medicine's QualilJ AssuraDce Program and is lItrictJy confidential and priVilesed. No part
of lhis infmmWion may be disclosed. subject to discovery. or iIClmitled into evideoce limy
judicial or administtatiw: proceeding. excepr in II¢COrdance with 10 U.S.C. sectinn 1102:

         f« ftlCOmmeodalion C.2.6.   ·Re~iew wrd /;/fIdatit   BUMEDINSTJ9(J().6B to t:klrify tile u.te
of investi$QJillfIQl(/tVgs in medical re5«Uch, lU include /nte,ukd use o/lfUlrlltontJi supplemma
mid alMr over'lh('-comrler products (IS ('xperimemal QrIIg_to: Concur

          Action: The BUMED Special A.'I.'listmt for Etbics wid Proressionallntegrityl
Executive Research _grity 0fIkcr wiD be responsible fOl" revisiOll ofSUMEDINST 3901>.68
in coomination with the BUMED 0fIice of Special AssislllfIt for Medical Resem:hlDirc:ctor.
Navy Medicine Researoh and Development CentCt'. Estimated completion date is 31 Dca:mbcr
2011.

        For n:aunmendation C.2.7. -Enslin lhat all inJivitluals mvah'WIln 1M ssdmrissiOlI.
rn'iew. and IlfJPYOl'01 ofdinlNI research profON!S nc('iw IMming in the use qf ilIvestlgatimllll
Jrugs. Food and Dntg Admlnislrotion reB"latiflllS and die lnwnisatlOlral New DI1i8 pr«-u:c":
Coneur

            Action: PumllnllO the revision of BUMEDlNST 3900.6B. reiewmt professional
education programs will be ideDlifJed for incorporation Into local COI1ll1mId education and
lnIinln& curtieIlJa by 31 JlIly 2011. The Direc;tor. Navy Medicine Research wid Development
C~ler (NMRDC) an4 relevant NMROC subject mw:terexpens wiD have responsibility for this
actiOll.

2...M.r.llf?jji.n,.o( eontacI in
i       ••        01" bye-mail



                                                  A. M. ROBINSON. JR.

Copy 10:
MEDlG


                                               8
                                   fieR IFPliiizl:s utili fit."



                                                                                                         b(3)
                                                                                                         b(5)
                                                                                                         b(6)

                                              114
                                         FOR OFFlCli\i:b USE OUbY
                                FOR OFFlOM.1s USE ONIsY




                            DEPARTMENT OF THE NAVY
                              NAI/ALINSPECTOfI ~FiAl
                                 '254 9Tl1 $TREET SI': 

                          WASHINGTON NAVY VARD DC 20374-5006 

                                                                       IN REP\.YIlIiI'ER TO­
                                                                       5041/201000537
                                                                       Ser N64/0122
                                                                       23 MAr 20:11



From:         Naval Inspector General
To:           Depart1lUl!nt of Defense Inspector General
              (Attn: Special Plans and Operation.)

subj: 	       BUMED ADDENDUM 1'0 DODIG ASSESSMENT OF TRAUMATIC BRAIN
              INJURY RESEARCH INTEGRITY IN .IRAQ (PROJECT NUMBER
              2009-DOOSPO-0242-001

Ref: 	        (al OOOIG Memorandum of 22 December 2010

Enel:         (1) 	 BOMED letter 7502 Ser M09/ll UN093000143 Qf
                    23 Mar 2011

1.   Per reference tal, enclosure (1) i . forwara*d on behalf of
Chief, Bureau of Medioine-and Surgery.

2.       If                                                regarding this
matter,                                                            point of
cont.act                                                           U.S. Navy.
                                                                  at (;.J02) 433­
l1li or via     e-mail




                                        J. A
                                        Dep
                                        Acting




                                                                                               b(6)

                                            1
                                POR: OPPICh'lL USE ONLY
                                          FOR OFFIGrA+J USE OUb'l




                                  lbK OiiICIR£ aSE CaLi
                                DEPARTMENT OF THE NAVY 

                                 IMI£AIJ 01' t.lEl\IGlNi
                                         HOI! eaTIIUT tfOI

                                                           ANti_"" 

                                     I'I_NGTIlIIOC _ _

                                                                       7502
                                                                       Sa MOO/I IUN093000143
                                                                       23 Mar 201 1

From: Cbi~ Bureau of Medicine and Surgery
TQ:   Office oftbe Inspector General. Department of Defcnsc. Attn: Special P.Ians and
      Opcratinns
Via: N!l.Vallllllpector General

Subj: 	 ADDENDUM TO CHIEF, BUREAU OF MEDICINE AND SURGERY (BUMED)
       RESPONSE TO DRAFr REPORT: DOD IG ASSESSMENT OF TRAUMATIC
       BRAIN INJURY RESEARCH INTEGRITY IN IRAQ (PROJEcr NUMBER
       2009-DOOSPO-0242-OO)

Ref 	 (8) DoD 10 memoof22 Dec 1010
      (b) RUMen memo oe2S Jan 2011

I. This document is submitted to provide additional information in response to reference (a) and
as further outlined in reference (b).

2. For the Recommendation A.2.1. "AUegattons ofpotential m.ediCJJl research misconduct by 1I
U.s. Navy physician were referred t(J the u.s. Navy for further investigalioll": Con~r, with
additional comment

   Comments; Naval Medical Center San Diego (NMCSD) completed an investigation into
   allegations surroonding the source offunding for research study MNC-IItAQ..og-04 011
   "FcbNary 2011. Below is a summary of findings and recommetldations:

  A.2•.Ymdiugs

           • The U.S. Navy physician, Principal Investigator, did not have Office of Naval
           Research (ONR) funding for Ihe research study MNC-lRAQ-08-04.

          • The U.S. Navy physician received Research, Development, Test & Evaluation
          (RDT&E) 6.4 funds for the project «'The Use of Anti.Qxidants ro Augment Outcome
          in Patients with Balance Disorders After Blast Injury and Blunt Head Trauma." This
          funding came from the BUMID via Naval. Medical Rcscarcb Center to Naval Health
          Research Center to the Principle Investigator. He used these funds to support Ihe
          conduct ofMNC-IRAQ-08-04 in theater.

          • The investigation into the usc ofthese funds for the tesearCh study MNC-lRAQ­
          08-04 revealed a lack of adequate program oversight and financiall!.CCOunlalnlity.




                                  tOk    OJi1e~1!i         b!U 111M




                                              116
                                         FOR OFFIGllm USE OUbY
                                       .,OR OFFIGb\i:; USE Otll::Y




                                   16* SEilCZW CSE CaSt



Subj: 	 ADDENDUM TO CHIEF, BUREAU OF MEDICINE AND SURGERY (BUMED)
        RESPONSE TO DRAFT REPORT: DOD IG ASSESSMENT OF TRAUMATIC
        BRAIN INWRY RESEARCH INTEGRITY IN IRAQ (pROJECT NUMBER
        2009-DOOSPO-0242-(0)

       A.I. Concluioo

       As strictly defined under federal reaulatiollS, research misconduct per se was not
       discovered.. Disciplinary action for any individuals identified in this specific funding
       investigation is not warranted. However, the initial inquiry into the source of funding fur
       MNC-lRAQ-08-04 has identified a requirement for further and more detailed
       investigation to ascertain the scope and depth of potential fogulatory violations or non­
       compliance with research finll.lleial standards.

       A.2.1 Recommendations

           •   BUMED will direct further investigation utilizing external $Ubjeet matter experts
           to more thoroughly detail compliance/noncompliance with Researcb Administration
           and Management processes to include financial management standards. This shall
           commence no later than 31 March 201 t.

           • DOMED will issue regulations for financial management ofresearcb funds for
           immediate local implementation by 30 June 201 t In addition, BOMED will
           establish It comprehensive Navy Medicine policy and regulation on research
           administnl.uon and management to include financial management sl.lIndards and
           ovmsight. This shan be completed by 31 October 201 t.

           • DUMED will design, direct and implement comprehensive education and training
           confurcnces in research administration and management for research related
           personnel ofall disciplines. A variety of forwns may be utilized such as conferences,
           webinars, and vic!oo teleconferences. Thls shall be completed within 60 days fiwn
           the estllbl.ishment ofNavy Medicine policy and regulation on research administration
           and management.

:1. My ~int of contact in this                • • • • •and she can be reached at
(301) 2!>5. or by e-mail



                                                 K.~!:L~l5
                                                Deputy Chief

Copy to:
MEDIG



                                               2
                                   IOtt OPf18!M!'1 BSD 81M




                                                                                                     b(6)

                                                117
                                        FOR:: OFFJ:GfchTs USE DUb Y
                                                   FOR OFFIOIM5 UBH ONIsY

Appendix H. DoD Inspector General Correspondence

Letter to U.S. Navy Bureau of Medicine and Surgery,
February 18, 2010


                                              INSPECTOR GENERAL
                                            DEPARTMENT Of DEFENSE
                                              4()() ARMY NAVY DRIVE
                                          ARUNGTON, VIRGINIA 22202-4704

                                                                                        February 18,2010

       FOR:              Chie~ Bureau of Medicine and Surgery

       FROM:             Deputy Inspector General for Special Plans and Operations
                         Department of Defense

       SUBJE(.'T: Mild Traumatic Brain Injury Clinical Researdl in Iraq

       In merence to the attached correspondence, dated June 11,2009 and January IS, 2010, we provided
       a briefing to Rear Admiral (RADM) Thomas Cullison, United Slate$ Navy (USN). Deputy Surseon
       General on January 19,2010 and identified three mas of concern: potential clinical research
       misconduct; powible wb-standard patient care; and weaknesses in the research oversight process.

       As, dise\lS!led
       researcher.
                     durinl the brier" we are      C      g any poten1iai misconduct ofthe phYldcim
                                                        and providing relevtmt documentation to you for
       investigation and appropriate action.

        I want to underscore our concern for the Sllfety and health of the setVice members who participated
       in the research study entitled, ''The use ofanti-oxidantl; to redllC¢ sequela ofMild Traumatic Brain
       Injury (mm!) after blast exposure", conducled at At Taqaadum, Iraq from November 2008 to March
       2009. In the bri.efing, we specifically requested that you identify the tesellTCh participants and
       perform II quality of care review to CI1$UfC that these setVice members received appropriate medk:al
       care. Additionally, we recommended that each researdl subject undergo a health lISiSSSIlleDt to
       determine: that there were no negative medical outcomes that occutt"ed as a result of their
       participation in Ibis clinical trial.

       1n the meantime, we are complcting a review ofthe research process used by the Department oftbe
       Army to Approve this clinical trial in order to assess potential wealcn~ in clinical research
       oversight.

       Please provide II response regarding any preliminary investigative results and a mlmmat'y of other
       actions taken within 30 days of receipt ofthis letter.

                                                                        at (703) 604. DSN 664·




                                                ~.\.I.(ft{7 AAoO~~LL
                                                       Kenneth P. Jo=~field
                                                       Deputy Inspector General
                                                       Special Plans & Operations




                                                                                                              b(8}
                                                                                                              b(7J{C)

                                                          118
                                                     FOR OfflgLYs Uil. QfUs¥
                                                FOR OFFICIAh USE OllhY




Memorandum for Assistant Secretary of Defense for
Health Affairs, February 17, 2011



                                          INSPECTOR GENERAL 

                                         DEPARTMENT OF DEFENSE 

                                            400 ARMY NAVY DRIVE 

                                      ARliNGTON, VIRGINIA 22202-4704 


                                                                                       FoolUllCY 17,2011

      MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

      SUBJECT: Mild Traumatic Brain Injury Clinical Research Trial in Iraq

          We are requesting your assistance in establishing criteria for and coordinating the
      implementation of health assessments for 80 U.S. military service members who were
      participants in a clinical trial conducted in Iraq during the period December 2008 * March 2009.

          On May 15.2009, the Office oflnspe<:lor General Defense Hotline received an allegation of
      suspected medical research misconduct related to this clinical trial. The complainant alleged that,
      while deployed to Iraq, a lJ .S. Navy physician conducted sub-standard research in conducting a
      clinical trial of U.S. military personnel who bad suffered mTBI. The purpose was to examine the
      eJfectiveness ofthe substance u.Acetylcysteine (NAC), an over-the-counter nutritional
      supplement. used in the trial as an experimental drug in treating mTS!.

          We initiated an assessment of these allegations in 2009. The results indicated potential research
      misconduct and possible substandard medical care. In ndditioo, there were concerns identified
      regarding various medical research oversight mlltters. Subsequently, we briefed the U.S. Navy
      Deputy Surgeon General, Bureau ofMedicine and Surgery (BUMED), on January 19,2010, IIIld
      requested that SUMED conduct an investigation into the various i!!SlIeS.

          Furthermore, we recommended thaI the research participants receive a health assessment to
      determine whether they had experienced lilly negative medical consequences lIS a result oftheir
      parti.cipation in the clinical trial. SUMED completed their Quality of Care Review in December
      2010.

          tn their response to our draft report which WIIS released December 23,2010, SUMED concluded
      that treatments provided to the research participants were 110t within the standard ofcare for the
      treatment ofmTBl. They did not, however, conduct any ofthe health assessments afthe service
      personnel, which are now necessary to determine if there were any adverse medical effects lIS 8
      result oftheir participation in the study. According to inrorrnation collected and reviewed by the
      Navy during their initial inquiry, there were 80 service members who participated in the mTBI
      research. These 80 individuals represented a ClOSS section of military services (U.S. Marine Corps­
      57; U.s. Army National Guard 13; U.S. Anny- 5; and U.S. Navy- 5.)

          Addressing the challenge now presented with respect to identifying and treating any health
      problems associated with the clinical trial would appear, therefore, to be Iljoint DoD responsibility.
      Moreover, DoD and military service regulations are not clear in regards to the authority and
      responsibilities for conducting II review ofmedical resean;h and care provided to U.s. service
      members which occurred in a joint-service environment, as in this case. Our report identified this
      lack of darity.




                                                      119
                                                 fOR OPPICM:L USB 01JhY
                                          FOR OFFICh\T; USE OHtrf




    We therefore request that your office conduct health assessments oflbe 80 military personnel
woo participated in !he mTHl clinical trial. To assist you in conducting this important review,
we have provided your office with II copy ofour draft report, and our respective staffs have had
extensive and productive discussions about this matter, to ensure that your stafThas the neces.'!lII'y
information to initiate this review. We appreciate the assistance your stalfhas provided, and
their willingness to conduct this revicw. Because BUMED has further information regarding
the identities of the 80 service members and their medical treatment files, we recommend that
your staff contact BUMED directly to obtain this information.

    We believe you will agree it is essential to conduct accurate, objective. and timely health
assessments of these 80 service members, and !hat such action reflects our Department's strong
commitment to take every step necessary to support the health and well-being of~ service
members.

    We would appreciate tul estimated timetine for the completion of
at your earliest conven:~ce. tfyou
(703) ~ DSN                      or at
                                       ivaaniiuest~0':i ~I~
                                                    ., d i .m'l.



                                                             1~~Ji2
                                                                   th P. Moorefield (Ret)
                                                                 General
                                                          Plans & Operatioru;




                                                  2




                                                                                                         b(6)

                                                      120
                                           FOR OFFICblftJ USI! DHhl[
                                                FOR OFFICIl'rh t::TBE ONlsY




Memorandum for u.s. Navy Bureau of Medicine and
Surgery, February 17,2011



                                         INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE 

                                           400 ARMY NAW DRIVE 

                                     ARLINGTON, VIRGINIA 22202-4704 


                                                                                     February 17.2011

      MEMORANDUM FOR CHIEF, BUREAU OF MJIDIClNB AND SURGERY

      SUBJECT: Mild Traumatic Brain Injury (mTBI) CliniC41 R~h Trial in Iraq

         We appreciate your comments in response to our draft report •Assessment of the Defense
      Hotline Allegations Conceming Traumatic Brain Injury Research Integrity in Iraq (Project No.
      D2()09-DOOSPO-024~OO)."

          As discussed in Observation B ofour draft report. we recommended !hat 1M NaV)' conduct a
      Quality crCare Review based 011 our findings ofpossible substandard patient QU'C for those
      service members participating in the mTBI I;UniC41 trial at Camp Al Taqaadum, Iraq. The
      corrunenta to our repon acknowledged that the treatments provided to reseacch particip!Ults did
      not meet the stl!Ddmd ofcare fur the treatment ofmTBI. Your comments indiC4ted that based 011
      the Quality cream Review, health assessments cr the resc:arob participants were needed to
      determine whether those service members were banned as a result oftheir participation in the
      research.
          Information previ0l1S1y provided by Navy Medicine West indicated that there were 80
      individuals who particlpatedin this clinicallrial. which represents a cross section of military
      services (U.s. Marine Corps - 57, U.S. Army National Guard - 13; u.s. Anny - S; and U.S.
      Navy - 5.) Due to our immediate concem for the health and welJbeing oCtbe atTected ~
      participants. we have requested that ASD(Health Atrllim (HA) conduct the required bealth
      assessments. We asked that Health Affairs contact you to obtain the identities orthe research
      pIII1iclpants and the related medical treatment files used to conduct tbe Quality ofCare Review
      10 aid in Health Affairs' effom to complete the health assessments.

        ~~~?ns.p'lease contact.• • • • • •,at (703)604. DSN 6 6 _
      or~



                                                   Am       or Kenneth P. Moorefield (Ret)
                                                   Deputy Inspector General
                                                     Special Plans &: Operations




                                                                                                        b(6)

                                                     121
                                               PO~t OPPICiAL USI! ONL¥'
                                                F@R @FFICIAb M8E @He?




Memorandum for U.S. Army Medical Command,
March 7, 2011



                                         INSPECTOR GENERAL
                                       DEPARTMENT OF OEF£NSE 

                                         400 AAMY NAW DRIVE 

                                     ARUNGTON. VIRGINIA 22202-4704 


                                                                                          Mard17. 2011

     MEMORANDUM POR THE COMMANDING GENERAL, U.S. ARMY MEDICAL
            COMMAND

      SUBJECT: Mild TrllUllllltic Brain JI\iury Clinical Research Trhtl In Iraq

        lam requesting your assistlUlce in compleUnlllUlinvestlgation into tho aUesations of
     potential researoh misconduct that were identified in our draft report, "Assessment ofAllegations
     Concen\ing Traumatic Brain Injury Research integrity," which WIIS released for management
     COllltllellts on December 23, 2010.

        As you are already aware. our IlSsessmenl identified issues specific to possibleresearoh
     nUsconduct by a Navy physician, concem for the health ofthe research subjeets. as well as
     weaknesses in tho procca used 10 review and approve the mTBI clinical trial conducted at Camp
     AI Taqaduum (Camp TQ), Iraq.

         In response to our request. the U.S. Navy Chief, Bureau ofMedicine and Surgery (BUMED)
     conducted a Research Misoondud Preliminary Inquiry. As a result of their review, DUMBD
     agreed to further jnvestigate the cirC1lll'llltances related to the source of f\mdins which the
     investigator used to support his research in Iraq (Observation A.2 In our draft report). Also,
     BUMIID has already carded out a Quality of Care Review on those Service personnel who
     participated In the trial, and the Assistant SccretaIy ofDcfense for Health Affairs hIlS agreed to
     conduct hcalth assessments afthe 80 research subjects to determine whether their health was
     adversely affected by participation in the e!inlcaltrlal. However, BUMED deolined to
     investigate the remaining allegations otpotentlal research misconduct identified in Observation
     A. due In part to the fact that the clinical trial was approved under the authority of the Army as
     was the perfonnance of the research conductOO at Camp TQ, Iraq.
              OUf assessment determined that the U.s. Army Brooke Army Medical Center
     Institutional Review Board (IRB) was responsible for the review ofthe clinical trial and
     therefore WllS responsible for any oversight oCthe research In Iraq. Coosequently, we believe
     that the Army ill the appropriate authority to conduct the additional investigation needed to
     detennine if research misconduct occurred.
         Therefore, we are requesting that you take the lead on the behalf ofthll Army to investigate
     maUm assooia1ed with potential research nUsconduet. These matters IUld supporting
     information regarding flnllncial contlicfs of interest, \ISO of investigational drugs. coercion and
     undue inflUence, among others. are fully explained in Observation A.llUld A.3 through A.6 of
     our draft report. We will renudn in contact with your staff to provide any additional information
     required.




                                                 FOR: OFFlCh\L USE ONLY
                                        "tieR eF'F'ICJsAoL USB OlfbY




    Please provide your response by March 14.2011 tmd indicate whether you will conduct the
requested investiaation.

                                                                        (103) 604_DSN



                                        ~~<~ AA __ ~~.         0 • .

                                        ~AmWsooI~~~ooretield
                                         Deputy b:uipector General
                                                                   (Ret)

                                             Special Plans & Operations


Capyto:

Assistant Secretary ofDefense for Research ami Engineering
Assistant Secretary ofDcf_ for Health AftairlS
The Inspector General of the Army
Naval Inspector General
Chief. Bureau of Medicine and Surgery
DepartmlXlt of Defense Hotline




                                             2




                                                                                              b(6)

                                               123
                                        FeR: OFF'IC&\wJ::; USE Ollis Y
    FOR OFFlCli'eI:, USE ONVE




This Page Intentionally Left Blank




              124
    p~Jt OPFfClAL USE 01Hsp
